<html>
<title> - THE HOMELAND SECURITY IMPLICATIONS OF RADICALIZATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
          THE HOMELAND SECURITY IMPLICATIONS OF RADICALIZATION 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
           INFORMATION SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

                           Serial No. 109-104

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

35-626 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
































                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT



                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)





























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................    60
The Honorable Peter T. King, a Representative in Congress Frome 
  the State of New York, and Chairman, Committe on Homeland 
  Security.......................................................     6
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................     6
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................     5

                               WITNESSES

Mr. Javed Ali, Senior Intelligence Officer, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Randall Blake, Al-Qa'ida Group Chief, National 
  Counterterrorism Center:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Don Van Duyn, Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigations:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13

                                Panel II

Mr. Frank Cilluffo, Director, Homeland Security Policy Institute, 
  The George Washington University:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr. Steven Emerson, Executive Director, The Investigative Project 
  on Terrorism:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Dr. Walid Phares, Senior Fellow, Foundation for the Defense 
  Democracies:
  Oral Statement.................................................    25
  Prepared Statement.............................................    28
Mr. John D. Woodward, Associate Director, RAND Policy Institute:
  Oral Statement.................................................    39
  Prepared Statement.............................................    42

                             For the Record

Dr. M. Saud Anwar, Chairman, American Muslim Peace Initiative:
  Prepared Statement.............................................     2


          THE HOMELAND SECURITY IMPLICATIONS OF RADICALIZATION

                              ----------                              


                     Wednesday, September 20, 2006

                      U.S.House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:32 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, King, Dent, Lofgren, 
Lowey, and Langevin.
    Mr. Simmons. [Presiding.] A quorum being present, the 
Committee on Homeland Security's Subcommittee on Intelligence, 
Information Sharing, and Terrorism Risk Assessment will come to 
order.
    Today the subcommittee meets to hear testimony on the 
homeland security implications of radicalization.
    For some time, members of this subcommittee have been 
interested in this issue, but this hearing began to take shape 
last July when members of the subcommittee travelled with me to 
Toronto, Canada, to learn more about the alleged plot involving 
a group of individuals in the Toronto area who were arrested 
for conspiring to attack their own homeland using approximately 
three tons of ammonium nitrates.
    We visited the neighborhoods, we saw the schools, and these 
were not disadvantaged individuals. In fact, as we observed the 
neighborhood, we were told that the homes were $300,000 homes. 
It was an integrated neighborhood. The schools looked like the 
same sorts of schools that I have back in my hometown in 
Stonington, Connecticut.
    And so, the question that I had in my mind and that we had 
in our minds was, what exactly caused these young, second-
generation Muslims, many of whom were of Pakistani background, 
to become radicalized? What were the conditions that were at 
work here? And how can we better understand this issue?
    This is not an issue just for Canada or just for Great 
Britain. This is an issue for us as Americans, here within the 
continental United States. This is an issue for us as people 
concerned about the homeland security. This is an issue for us 
who have Muslims in our districts and in our communities, who 
want to better understand what the forces might be at play that 
could cause this radicalization to take place.
    Not testifying today but submitting testimony is a friend 
and a colleague of mine from Connecticut, Dr. Saud Anwar, who 
has written a paper on the subject and who has shared with me 
his thoughts on the subject. And I just want to mention a few 
of the conclusions and recommendations, and then I will ask 
that his whole paper be put in the record for future reference.
    But one of the things he says is that the American Muslims 
are more integrated and assimilated into U.S. society than 
perhaps their European or Canadian counterparts. They are 
working to counter current challenges by being more socially 
and politically active. They are looking for better integration 
within our political community and increasing communication and 
coordination. And so on and so on and so forth.
    And I can tell you that, from my own experience in dealing 
with Dr. Anwar, his family and his community, we have had many 
long and very constructive discussions about the issues that 
might give rise to radicalization.
    And I would hope that this hearing, in a way, would become 
the beginning of a conversation--a conversation that we might 
initiate here in this subcommittee but that we can then extend 
out into our districts and into our states, to talk with our 
friends and neighbors in the Muslim community, to meet in their 
meeting places, to gather to exchange views, so that we can 
attempt to better understand what their issues might be and 
then attempt to better understand what the issues of other 
Muslims elsewhere in the world might be.
    And so, it is with that in mind that I have called for this 
hearing.
    [The statement of Dr. Anwar follows:]

                             For the Record

Prepared Statement of M. Saud Anwar MD, MPH, Chairman, American Muslim 
                            Peace Initiative

   Immigrant American Muslims and European Muslims: Similarities and 
             Differences & Homeland Security Implications:

OPENING:
    Chairman Simmons, Ranking Member Lofgren, and Members of the 
Subcommittee, My name is M. Saud Anwar; I am the Chairperson of the 
American Muslim Peace Initiative. American Muslim Peace Initiative is a 
network of organizations and leaders of various organizations uniting 
our voices to articulate the challenges and opportunities for promoting 
peace in our neighborhoods, our nation and our world.
    I would like to thank you for holding this very important hearing 
today and also allowing me an opportunity to underscore the American 
Muslim Peace Initiatives' strong commitment to help understand and 
share the American Muslim community's perspectives and help identify 
ways of making our homeland safe and secure.
    I have been the Founder and Past President of the Pakistani 
American Association of Connecticut, a grass root organization of 
Pakistani Americans in Connecticut. Subsequently, I have served as a 
Secretary of the Pakistani American Public Affairs Committee, a 
nationwide organization of Pakistani Americans. I am the President 
Elect of this organization. I am also the founder of a community out 
reach program for Pakistani Americans and American Muslim partnership 
with our law enforcement agencies to help build bridges between the 
American Muslims and our law enforcement agencies. With these 
initiatives I have had the chance to interact with a large community of 
American Muslims and Pakistani Americans to share perspectives 
informally and formally. In order to get a quantitative and qualitative 
perspective of the community members, a study was performed to look at 
the acculturation status and views of the American Muslims of Pakistani 
heritage and multiple group discussion with the people from different 
segments were held to help learn the perspectives of people from a wide 
array of backgrounds.

INTRODUCTION
    The American-Muslims are believed to be a community of about seven 
million people. This group is highly educated: 67% of American Muslims 
have a Bachelor's degree or higher as opposed to 44% of Americans have 
a Bachelor's degree or higher. 33% of American Muslims hold an Advanced 
degree (above bachelor) and 8.6% of Americans hold an Advanced degree. 
(Bridges TV Data) This group is affluent with U.S. Average income is 
$42,158 per year (U.S. Census 2000) 66% of American Muslim households 
earn over $50,000 / year 26% of American Muslim households earn over 
$100,000 / year.
    Since September 11th, after the United State's coordinated response 
at multiple levels in the war on terror, there have been some 
statements and activities, which have led to concerns for an average 
Muslim in different parts of the world, as well as, in the United 
States. It is critical that the American-Muslim community, as well as, 
the United State's administration and Congress to have serious 
discussions to help understand each other's perspective and identify 
common grounds.
    The American-Muslims have an important role to play in helping us 
understand perspectives, policies, reactions and responses in the war 
or terror. We the American Muslims enjoy religious freedoms in United 
States and do feel that we have a role in helping educate Muslims 
around the world on the true American values, and also to help educate 
the US Administration to be very conscious of some of the steps and 
wordings and activities, which have led the American-Muslim to question 
and be concerned about some of the US policies. There is an acute need 
for a combined analysis of the situation and this is the time to unite 
and work together to help build the bridges and reevaluate the 
positions which are in our best interest.
    As a result of the above, some of the members of the American-
Muslim community were reached out to identify some qualitative analysis 
of common grounds and perceptions as well as quantitative assessment of 
the perception and views of a segment of American Muslims that need to 
be shared.
    Moreover, a number of that the questionnaires were sent out to the 
some of the American-Muslim community to help identify the makeup and 
the cross-cultural makeup of the some of the American-Muslim community. 
I will outline some of the following different components:

QUANTITATIVE DATA AND ANALYSIS:
    To understand the views of American-Muslim community, the help was 
sought from the Pakistani American Public Affairs Committee to try and 
identify the views of the Pakistani American community and American 
community with regards to information on integration of this community 
and the current views in the post-9/11 era.
    A questionnaire was sent to 2000 individuals by electronic means. 
There was a 10% response to it. The questions are placed in APPENDIX 
ONE. [All responses are maintained in the committee file.]
    When asked the question if American Muslims were more assimilated 
and integrated than the European Muslims, of the responders to the 
questions, 69% of the people agreed that the American Muslims were more 
integrated than the European Muslims. 21% were not sure and the 10% 
felt otherwise.
    When asked the questions whether the American-Muslims valued 
interacting with other Americans, 99.5% of the people valued 
interacting with their fellow Americans. These numbers are much higher 
than the British counterparts.
    When asked whether the American Muslims would like to maintain the 
identity and values of their religious and ethnic origin, 84% of the 
people agreed and 7% were not sure and 9% said no. This suggests that 
the American Muslims are more inclined towards integration rather than 
assimilation.
    When asked if the American Muslims had become more religious after 
9/11 or the War on Terror, 76% of the responders said no, and 19% said 
yes and approximately 5% were not sure.
    When asked if the American Muslims disagreed with the US foreign 
policies, 80% agreed with that and 4% were in disagreement and 16% were 
not sure.
    When the community was asked if the Pakistani-Americans and 
American Muslims have had a wrongful negative perception in the United 
States, 73% were in agreement as opposed to 16% who felt otherwise. 11 
% were not sure.
    When asked if the American Muslims were politically and socially 
active, would that help change or improve the perception, 88% of the 
people felt yes and 12% were not sure.
    When asked if the people had a feeling of hopelessness with the 
current situation, 22% of the people said yes as opposed to 58% of the 
people who did not feel hopeless and 20% were not sure.
    When asked if the people were comfortable talking to a law 
enforcement officer, 75% of the people said that they were comfortable, 
as opposed to 13% who were uncomfortable and 12% were not sure.
    This data does give us a glimpse into some important issues which 
are very relevant. This suggests that the American Muslims feel more 
integrated and assimilated within the American society. They also feel 
that they are much more integrated then their European counterparts. 
The percentages of people who feel marginalized or separated are 
minimal at this time.
    With respect to the concern about people becoming more religious, a 
small percentage do feel that they are becoming more religious, but 
majority felt that that had not make them change their religious 
perspective and religiosity. It was also clear that the majority of the 
responders were in disagreement with the US policies and majority of 
them did feel that because of media portrayal or otherwise there was a 
negative perception about them. More importantly, the people do feel 
that to overcome this negative perception, they would have to be more 
politically and socially active. This to me is a good sign. In one of 
the questions, it was concerning to see that at least 22% some of the 
people have started to feel hopeless about the current situation, but 
majority approximately 78% of the people do not feel hopeless about the 
situation. The majority of the people are comfortable talking to the 
law enforcement agent. However, this number should increase and again 
appropriate actions need to be taken on the part of the American Muslim 
community, as well as, the law enforcement agency to try and build 
alliances and understanding so people feel more comfortable talking to 
a law enforcement officer.

QUALITATIVE DATA:
    In order to develop a better understanding of some of the key 
issues at this time besides the quantitative data, some work was 
initiated on get some qualitative insight. In order to get quantitative 
information, some questions were sent as the qualitative questions to 
general community members, who were not necessarily in leadership 
position in organizations. These questions can be seen in APPENDIX TWO. 
Moreover, there were some discussions held with four groups of students 
and different American Muslims to get an idea about the concerns in 
people's minds with the current challenges.
    The following are some of the patterns of issues that were raised 
in the discussion. Interestingly, many of the youth did not focus as 
much on being either of an immigrant heritage or American Muslims, but 
more as Americans and they felt that the life was going on a day-to-day 
basis. They did not feel that there was any profiling or felt prejudice 
from their peers.
    Some in the discussions did mention about how receiving information 
that is out there through alternate media sources was making people 
upset and angry, which included the situation with the war on Iraq, Abu 
Ghraib, and the fact that a large number of civilians had died, and 
subsequently the war in Lebanon, and how that had impacted the lives of 
people. How the alternate media was helping people get information even 
simple information through BBC was a useful resource to get information 
on the misery of the people in the world.
    A common issue that was raised was that the media and the policy 
makers in their commentaries or speeches should not to attack the 
religion of anyone which is the core of the people. Anybody who feels 
threatened starts to go towards the core as was seen in the post-9/11, 
then the churches were full because the people felt that there were 
under an attack and they obviously go towards the core. Whenever any 
community is attacked they seek refuge in religion. When a religion is 
attacked, people move to the core as well and when that leads to people 
beginning to harbor anger. This is an issue, which has been raised on 
multiple occasions where it appears that our account of terrorism 
efforts have become counter productive because of the inappropriate use 
of terminology. When the religion is suggested to be the source of the 
problem, the terrorists are given more legitimacy.
    Again when asked what would be the way to help keep the people and 
the youth integrated in the community, appropriate use of terminology, 
wordings, fair implementation of policies, protection of rights, and 
again there also understanding of their responsibility has increased 
where they would be involved with more other communities to try and 
inform people about their true values and their ability to bridge 
building activity with the world.
    Qualitative responses also included people's perspective of 
importance of stop negative portrayal of Islam and all Muslims. An 
acute need for empowering the moderate majority and legitimizing the 
efforts of the moderate Muslims was palpably felt. The psychological 
and emotional difficulties people feel with the bias languages used for 
them. People feel that Policy makers need to be educated about Islam by 
Muslims rather than the other sources. The introduction and information 
about Islam should be set up by Muslims in a way where people can 
understand their perspectives and times like this, this is an acute and 
important responsibility of the policymakers and law enforcement agents 
to learn about this from appropriate sources rather than through 
sources, which is going to further enhance the negative stereotypes 
that have been created.
    Profiling was again mentioned in multiple meetings and all actions 
should be kept to try and prevent marginalization to not to occur. This 
activity can help prevent the ghettoization of the American Muslims 
that some feel may have happened into the European Muslims. Issues 
about social injustice and foreign policies were mentioned by people 
multiple times. The written components of the qualitative questions are 
mentioned in APPENDIX THREE.

CONCLUSIONS AND RECOMMENDATIONS
        (A) There are clear differences between the American and 
        European Muslims. The American Muslims are much more integrated 
        and assimilated into the US society then their European 
        counterparts. The European Muslims are more likely to be 
        separated and marginalized than what we are seeing here in the 
        United States.
        (B) The American Muslims are trying to counter the current 
        challenges by being more socially and politically active. 
        Majority are hopeful that their abilities to help educate and 
        inform fellow Americans would help bear fruits by increasing 
        understanding and harmony
        (C) Wrongful use of terminologies and implicating Islam as the 
        cause of the current situation helps legitimizes the activities 
        of the terrorists and leads to weakening of the moderate voices 
        amongst the Muslims and thus these careless remarks are 
        counter-productive efforts in counter terrorism.
        (D) Policies, positions and communications should be planned 
        which would help further integration of the American Muslims 
        within the larger society and reduce the probability of 
        physical or psychological ghettoization that can occur.
        (E) Increase communication and coordination of American Muslims 
        and our law enforcement agencies needs to occur to help build 
        better understanding and comfort for long term coordination and 
        synchronization for a safe America.
        (F) American Muslims do have an important role at this time to 
        help United States make better policies with the Muslim 
        Majority countries and help build bridges and share the true 
        American Values with the rest of the world. Our domestic 
        polices should help Muslims feel partners and owners in these 
        responsibilities.
    Chairman Simmons, Ranking Member Lofgren, and Members of the 
Subcommittee, I thank you for your consideration of my testimony and 
inviting me to share these perspectives.

    Mr. Simmons. My ranking member, Zoe Lofgren from 
California, is tied up in the Judiciary Committee. I was told 
that she is on the way, and I am sure that she is on the way.
    I know other members are extremely busy this week, but I 
would be happy at this moment to suspend the rules and to see 
if either of my colleagues here present would like to say a 
word or two on the subject. If so, I would be happy to yield to 
them.
    The gentlelady from New York?
    Mrs. Lowey. Thank you very much, Mr. Chairman. And I want 
to thank you for calling this hearing.
    And I think I will express my appreciation to you for 
giving me the opportunity to say a few words, but I am really 
anxious to get to the witnesses, because this is such a 
critical issue. And I don't, as the chairman says, expect to 
find a lot of answers in your testimony, but I do hope that we 
can really have serious discussions.
    Not too long ago, I was in Jordan, and King Abdullah was 
talking about the Amman message, encouraging imams, encouraging 
those of the religious faith, encouraging leaders in the 
community to talk out publicly against equating Islam with 
murder, terrorism, and encouraging leaders in the community to 
truly be leaders and talk about reconciliation, talk about the 
issues that may breed radicalism.
    So I look forward to the testimony. And, again, I would 
hope that there are more leaders, not just in the Middle East 
but in our country itself, who will speak out forcefully 
against equating Islam with terrorism and perhaps have an 
impact on those who might feel this is their only avenue to 
express their grievances.
    So thank you so very much. As a citizen of the United 
States with three children and seven grandchildren, we realize 
that this is a worldwide challenge, and it is not just over in 
the Middle East, it is not just in London, it is not just in 
Europe, it is right here in the United States of America. And 
we have to approach it thoughtfully, intelligently and, 
hopefully, finding some answers that work.
    Thank you very much.
    Mr. Simmons. I thank the gentlelady from New York for her 
comments.
    We have just been joined by the chairman of the full 
committee, the gentleman from New York, Mr. King. And I would 
recognize him for any remarks he might wish to make.
    Mr. King. Thank you, Chairman Simmons.
    I want to, first of all, thank you very much for convening 
this hearing. I believe it is a matter of great importance, the 
issue of radicalization of Muslims in prisons--or, Muslim 
radicalization of prisons is an issue which affects us right 
here in the United States, as well as, you know, overseas, 
London and Madrid.
    And many of those attacks have been linked to prison 
radicalization. I know, for instance, I have met with various 
state officials from around the country, describing what a 
serious issue it is, whether it is California or New York. I 
know Senator Schumer has been very outspoken on this issue in 
New York.
    I also know, from meeting with the police, about a number 
of mosques in New York which are under surveillance which do 
hire Muslim converts when they come out of prison. They use 
them as security officials at these mosques, which, to me, 
raises a number of serious issues.
    We have to address this issue. We have to not be overly 
concerned about political correctness. We have to do what is 
right. We have to look into it. And we have to hope that more 
Muslim leaders will speak out and denounce terrorism which is 
carried out in their name.
    And also we should be looking at who selects the imams to 
be in the prisons; what they are actually doing; what the 
rights are of people, as far as having religious freedom in 
prisons, when the imam is preaching a very radical form of 
Islam.
    So I think this is a very, very significant and very timely 
hearing. And I commend the chairman for doing it. It may not be 
politically correct, but I think it is the courageous thing to 
do and the right thing to do. And I thank you very much.
    And I yield back the balance of my time.
    Mr. Simmons. I thank the gentleman.
    I have, again, suspended the rules. I would be happy to 
recognize the gentleman from Pennsylvania for any comments 
while we wait for the ranking member.
    Mr. Dent. Well, I just wanted to commend you, Mr. Chairman, 
for having this hearing on radicalization.
    I think the events of the U.K. recently demonstrate why 
this issue should be high on the agenda. Many of us had always 
thought that those who became radical Muslims often maybe were 
brought up in squalid refugee camps, perhaps, in the West Bank.
    But what we saw in the U.K. were young men who seemed to be 
raised in a Western environment, British citizens in many 
cases, who were not from a traditionally very poor or 
underprivileged background, and have taken on this radical 
ideology and attempted to do horrible things.
    And for that, I commend you. And I really look forward to 
receiving the testimony of those who are presenting today. 
Thank you, and I yield back.
    Mr. Simmons. I thank the gentleman.
    I see we have also been joined by the gentleman from Rhode 
Island, Mr. Langevin.
    I have taken the liberty of suspending the rules. If you 
have a comment that you would like to make at this point, we 
would be happy to hear it.
    Mr. Langevin. If it is okay, Mr. Chairman, I will ask to 
submit my statement for the record.
    But, gentlemen, thank you for being here today.
    Mr. Simmons. Very good.
    Well, why don't we begin? We have two panels today.
    The first panel consists of Mr. Randall Blake, the al-
Qa'ida Group chief at the National Counterterrorism Center; Mr. 
Don Van Duyn, assistant director of the Counterterrorism 
Division at FBI; and Mr. Javed Ali, senior intelligence officer 
in the Office of Intelligence and Analysis, Department of 
Homeland Security.
    The witnesses know that we have their full written 
statements for the record. And we would ask that you limit your 
oral testimony to no more than 5 minutes, thereabout.
    Again, welcome, and thank you for being here.
    And who wishes to start? Mr. Blake?

 STATEMENT OF RANDALL BLAKE, CHIEF, AL-QA'IDA GROUP, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Blake. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to come down today and speak 
to you about the problem of radicalization and its implications 
for the homeland.
    I plan to be brief this afternoon and let my colleagues 
from FBI and DHS tell you about some of the significant efforts 
under way to not only understand the scope of the problem in 
this country but also to counter it.
    First, however, let me give you a strategic picture of the 
radicalization problem, as the National Counterterrorism Center 
sees it. I will speak to you first about two paths to 
radicalization, one in which young American Muslims, generally 
male, become radicalized overseas, and the other in which the 
radicalization process is predominantly homegrown.
    Then I would like to conclude with a brief overview of what 
we sometimes call the gateways to extremism, in other words, 
those environments where the atmosphere is ripe for 
radicalization to occur.
    Radicalization is not a new problem, nor is violent 
extremism, as you know and by your opening comments. What is 
disturbing, however, is the extent to which the message of 
violent extremism is reaching and resonating with some young 
Muslims around the world, including Europe, Canada and here. 
The examples this year from Europe, the U.K. in particular, and 
Canada have been well-publicized and already commented on.
    One of the key lessons for us is that we cannot assume that 
young people who grow up surrounded by Western values, ideals 
and culture are immune from the messages of violent extremism.
    Al Qaida is well aware of this point, and there is little 
subtlety in their approach to radicalization and recruitment of 
others here in the U.S. and elsewhere in the West. It is not an 
accident that many of the videotapes that we receive from Osama 
bin Laden and Ayman al-Zawahiri, his number-two, are produced 
with English subtitles.
    The video that was released the week before the 9/11 
anniversary on the 2nd of September featured California native 
Adam Gadahn, who is, himself, a radicalized American operating 
in Al Qaida's senior circles. And the suicide videos from two 
of the July 2005 London bombers speaking in perfect West 
Yorkshire accents are powerful examples of the direct 
recruitment and radicalization efforts of Western Muslims.
    On this point, let me mention two examples of 
radicalization from this country since and around the time of 
9/11 that are particularly striking.
    Two young men, John Walker Lindh and Majid Khan, one born 
in this country and one born in Pakistan who spent his teenage 
years here, both became radicalized during extended time 
abroad.
    For Lindh, a series of travels in the Middle East and South 
Asia before 9/11 put him on a path to extremism that terminated 
at Al Qaida's al-Faruq camp on the front lines, fighting for 
the Taliban during Operation Enduring Freedom.
    In Khan's case, his parents have said that after 9/11 a 
relative in Pakistan led him to al-Qaida and to the 9/11 
mastermind, Khalid Sheik Mohammad, where we know he 
brainstormed possible attacks against gas stations in his 
adopted country.
    The examples of Lindh and Khan illustrate the first kind of 
radicalization I mentioned, radicalization that occurs 
overseas. Clearly the danger here is that young men who have 
attended extremist madrassas or terrorist training camps or 
studied with imams who condone violence, a violent form of 
extremism, could return to the homeland and act as agents of 
radicalization.
    Today the overseas radicalization process appears to be the 
more common, at least when we talk about violent extremists who 
turn to terrorism.
    The other form of radicalization is predominantly 
homegrown. In the cases we have seen of this since 9/11, young 
men, often converts to Islam, adopt extremist views and even 
engage in some nascent plotting efforts. Many of the homegrown 
extremists we have identified have criminal backgrounds, as 
Chairman King mentioned.
    I will highlight two examples here, as well. In 2005, we 
saw in Torrance, California, a group that originated within the 
prison system that was engaged in armed robberies to bankroll 
planned attacks. And earlier this year, a group with criminal 
ties that claimed some inspiration from a black separatist 
movement called the Moorish Science Temple was formulating a 
plot against the Sears Tower in Chicago and federal buildings 
in the Miami area.
    These homegrown extremists have never been to Afghanistan 
or Pakistan or the Middle East or attended an organized 
training camp there. They have, as far as we know, never met a 
member of Al Qaida or other foreign terrorist organizations. 
But they have absorbed the message of violent extremism, and 
they have incorporated it into their group's culture and are 
using it to justify crime and terrorism.
    Regardless of whether the radicalization occurs overseas or 
at home, the stark lessons of Madrid and London, the 
transportation attacks there, the arrests in Toronto that the 
chairman mentioned, and most of the examples here at home that 
I have cited, is that the next homeland attack may not come 
from individuals who penetrate our barriers but rather from 
long-term residents and citizens already in our midst who view 
their own country as the enemy.
    While there is no one-size-fits-all answer to 
radicalization and why some turn to terrorism and others do 
not, let me conclude by mentioning a few of those gateways to 
extremism that the intelligence community has identified as 
areas ripe for exploitation by extremists.
    The prison system, as Chairman King mentioned, is a fertile 
ground for radicalization, with its gang culture and population 
of Muslim extremists. The cell I mentioned in Torrance, 
California, was actually formed in Folsom Prison, and members 
were recruited both inside and outside the prison.
    University campuses offer an atmosphere where extremists, 
either radical imams or students themselves, can spot and 
assess young men and women who could be susceptible to the 
message of violent extremism. We need look no further than the 
radicalized Hamburg cell of students who piloted three of the 
four hijacked planes on 9/11.
    Some mosques and community centers offer a similar 
environment, where extremist religious leaders encourage 
Muslims to travel overseas and fight, ostensibly for Muslim 
causes. We have seen that threat played out with deadly 
consequences from foreign fighters who fought against us in 
Iraq.
    Finally, the Internet. The Internet continues to worry us 
as a virtual recruiting station, open to anyone with access to 
a computer and an Internet connection. It is the convergence of 
globalization and technology all happening in real-time.
    Thank you, Mr. Chairman, for the opportunity to review this 
critical topic, and I look forward to your questions.
    [The statement of Mr. Blake follows:]

         Prepared Statement for the Record of Randall A. Blake

    Thank you, Mr. Chairman, Ranking Minority Member Lofgren, and 
members of the Subcommittee for the opportunity to come today and speak 
to you about the problem of radicalization and its implications for the 
Homeland. I plan to be brief this afternoon, so my colleagues from the 
FBI and DHS can describe the significant efforts their Agencies have 
undertaken to understand the scope of the problem in this country and 
to counter it.
    First, however, let me give you a strategic picture of the 
radicalization problem as NCTC sees it. I will speak to you first about 
two paths to radicalization--one in which young American Muslims, 
generally male, become radicalized overseas, and the other in which the 
radicalization process is predominantly homegrown. Then I will give you 
a brief overview of what we sometimes call ``gateways to extremism''--
in other words, those environments where the atmosphere is ripe for 
radicalization to occur.
    Radicalization is not a new problem, nor is violent extremism--as 
you know. What is disturbing, however, is the extent to which the 
message of violent extremism is reaching and resonating with some young 
Muslims around the world, including Europe, Canada, and the United 
States. The examples this past year from Europe, the UK in particular, 
and Canada have been well publicized. One of the key lessons for us is 
that we cannot assume that young people who grow up surrounded by 
Western values, ideals, and culture are immune from messages that 
translate into violent extremism.
    Al-Qa'ida is well aware of that point and there is little subtlety 
in their approach to trying to radicalize and recruit others here and 
elsewhere in the West. It is no accident that many of the videos from 
Usama bin Ladin and Ayman al-Zawahiri are produced with English 
subtitles. The video released the week before the five-year anniversary 
of 9/11 featuring California native Adam Gadahn--a radicalized American 
operating in al-Qa'ida senior circles--and the martyrdom videos of two 
of the July 2005 London bombers--spewing extremism in perfect West 
Yorkshire accents--are powerful examples of direct recruitment and 
radicalization efforts of Western Muslims.
    On this point, let me mention two examples of radicalization from 
this country since 9/11 that are particularly striking. Two young men, 
John Walker Lindh and Majid Khan, one born in this country and one born 
in Pakistan but spent his teen years here, became radicalized during 
extended time abroad.
    For Lindh, a series of travels in the Middle East and South Asia 
before 9/11 put him on a path to extremism that terminated at al-
Qa'ida's al-Faruq camp and on the front lines fighting for the Taliban 
during Operation ENDURING FREEDOM. In Khan's case, his parents have 
said that after 9/11 a relative in Pakistan led him to al-Qa'ida and to 
9/11 mastermind Khalid Shaykh Muhammad, where--we now know--he 
brainstormed possible attacks against gas stations in his adopted 
country.
    The examples of Lindh and Khan illustrate the first kind of 
radicalization I mentioned--radicalization that occurs overseas. 
Clearly the danger there is that young men who have attended extremist 
madrassas or terrorist training camps, or who have studied with imams 
who condone a violent form of Islamic extremism, could return to the 
Homeland and act as agents of radicalization. Today, the overseas 
radicalization process appears to be more common--at least when we talk 
about violent extremists who turn to terrorism.
    The other form of radicalization is predominantly homegrown. In the 
cases we have seen of this since 9/11, young men--often converts to 
Islam--adopt extremist views and even engage in some nascent plotting 
efforts. Many of the homegrown extremists we have identified also have 
a criminal background. I'll highlight two examples here as well: in 
2005, we saw a Torrance, California group that originated in the prison 
system, Jam'iyyat Ul-Islam Is-Saheeh, engage in armed robberies to 
bankroll planned attacks. And earlier this year, a group with criminal 
ties that claimed affiliation with a black separatist movement called 
the Moorish Science Temple, was formulating a plot against the Sears 
Tower in Chicago and Federal buildings in the Miami area.
    These homegrown extremists have never been to Afghanistan, 
Pakistan, or the Middle East or attended an organized terrorist 
training camp. They have, as far as we know, never met a member of al-
Qa'ida or any other foreign terrorist organization. But they have 
absorbed the message of violent extremism. And they have incorporated 
it into their groups' culture, and are using it to justify crime and 
terrorism.
    Regardless of whether the radicalization occurs overseas or at 
home, the stark lesson of the Madrid and London transportation attacks, 
the arrests in Toronto, and most of the examples here at home that I 
have cited is that the next Homeland attack may come not from 
individuals who penetrate our borders, but from long term residents and 
citizens already in our midst who view their own country as the enemy.
    While there is no ``one size fits all'' answer to radicalization 
and why some turn to terrorism and others do not, let me conclude by 
mentioning a few of those ``gateways to extremism'' that the 
Intelligence Community has identified as areas ripe for exploitation by 
extremists. The prison system is a fertile ground for radicalization, 
with its gang culture and population of Muslim converts. The cell I 
mentioned in Torrance was actually formed in Folsom prison and members 
were recruited from both inside and outside the prison.
    University campuses offer an atmosphere where extremists--either 
radical imams or students themselves--could spot and assess young men 
and women who could be susceptible to a message of violent extremism. 
We need look no further than the radicalized Hamburg cell of students 
who piloted three of the four hijacked planes on 9/11.
    Some mosques and community centers offer a similar environment 
where extremist religious leaders encourage Muslims to travel overseas 
and fight, ostensibly for Muslim causes. We have seen that threat play 
out with deadly consequences from foreign fighters who have fought 
against us in Iraq.
    Finally, the Internet continues to worry us as a virtual recruiting 
station open to anyone with access to a computer and an Internet 
connection. It is the convergence of globalization and technology--all 
happening in real-time.
    Thank you, Mr. Chairman, for the opportunity to review this 
critical topic with this subcommittee. I look forward to your 
questions.

    Mr. Simmons. Thank you, Mr. Blake.
    The next witness is Mr. Van Duyn.

STATEMENT OF DON VAN DUYN, ASSISTANT DIRECTOR, COUNTERTERRORISM 
           DIVISION, FEDERAL BUREAU OF INVESTIGATIONS

    Mr. Van Duyn. Chairman Simmons, Chairman King, members of 
the subcommittee, I want to thank you for this opportunity to 
speak to you on the topic of Islamic radicalization in the 
United States.
    I would like to emphasize, before I begin, that the issue 
is not Islam itself but how the religious ideology is used by 
violent extremists to inspire and justify their actions. The 
FBI does not investigate members of any religion for their 
religious beliefs, but rather focuses on investigating 
activities that may harm the United States.
    Successes in the war on terrorism and the arrests of many 
key Al Qaida leaders have diminished the ability of the group 
to attack the United States homeland. At the same time, a 
broader Sunni extremist movement has evolved from being run 
entirely by Al Qaida central to a broader movement. This is 
demonstrated by the 2004 Madrid bombings, the July 2005 
bombings and attempted bombings in London, and recent 
disruptions in the U.S., United Kingdom, Canada, Bosnia, 
Denmark and elsewhere.
    That said, core Al Qaida remains committed to attacking the 
United States and continues to demonstrate its ability to adapt 
its tactics to circumvent security measures and to reconstitute 
its ranks.
    Al Qaida is also attempting to broaden its appeal to 
English-speaking Western Muslims by disseminating violent 
Islamic extremist propaganda via media outlets and the 
Internet.
    Although the most dangerous instances of radicalization 
have so far been overseas, the Islamic radicalization of U.S. 
persons, whether foreign-born or native, is of increasing 
concern.
    Key to the success of stopping the spread of radicalization 
is identifying patterns and trends in the early stages. The FBI 
defines homegrown Islamic extremists as U.S. persons who appear 
to have assimilated but reject the cultural values, beliefs and 
environment of the United States. They identify themselves as 
Muslims and, on some level, become radicalized in the United 
States. They intend to provide support for or directly commit a 
terrorist attack inside the United States.
    The threat from homegrown Islamic extremists is likely 
smaller in scale than that posed by overseas terrorist groups, 
such as Al Qaida, but is potentially larger in psychological 
impact.
    The FBI has identified certain venues, such as prisons and 
the Internet, that present opportunities for the proselytizing 
of radical extremist Islam. Particularly for Muslim converts, 
but also for those born into Islam, an extremist imam can 
strongly influence individual belief systems by speaking from a 
position of authority on religious issues.
    Extremist imams have a potential to influence vulnerable 
followers at various locations of opportunity, can spot and 
assess individuals who respond to their messages, and could 
potentially guide them into increasingly extremist circles.
    Although the activities of radical imams are typically 
associated with Salafist-Wahhabi lectures given in the mosque, 
they are not limited to the mosque itself. Imams are often 
active and influential in other venues, such as prisons, 
publishing, online forums, audio lectures, and at Islamic 
conferences and institutes.
    The propagation of radical ideas is not confined to Sunni 
Islam. The government of Iran is also committed to promoting 
Shia Islamic activism.
    The European and American experience shows that prisons are 
venues where extremists can radicalize and recruit among the 
inmate population. Mr. Blake has already addressed some of 
these issues.
    Most of the cases of prison radicalization appear to be 
carried out by domestic Islamic extremist groups with few or no 
direct foreign connections, like the Torrance group cited by 
Mr. Blake.
    I would like to emphasize that not all prison 
radicalization is Islamic in nature. Domestic groups, such as 
white supremacists, also recruit in prison.
    In response to this possible threat, the FBI and the Bureau 
of Prisons have been actively engaged to detect, deter and 
interdict efforts by terrorists and extremist groups to 
radicalize or recruit in federal, state and local prisons since 
February of 2003. As part of these efforts, we have identified 
best practices for correctional institutions to combat the 
spread of radicalization.
    As Mr. Blake noted, the Internet is also a venue for 
radicalization of young, computer-savvy Westerners, both male 
and female, who identify with Islamic extremist ideology. An 
older generation of supporters and sympathizers of violent 
Islamic extremism, in the post-9/11 environment of increased 
law enforcement security, have migrated their radicalization, 
recruitment material, and support activities online.
    Overseas experience can also be a significant element in 
facilitating the transition from one who has the proclivity to 
be radicalized and who may espouse radicalized rhetoric to one 
who is willing and ready to act on those radicalized beliefs.
    Although radicalization can occur without overseas travel, 
the foreign experience appears to provide the networking that 
makes it possible for interested individuals to train and 
participate in operational activity.
    We assess that the overseas experiences of John Walker 
Lindh played a pivotal role in his involvement with the 
Taliban. Once overseas, he was directed by radicalized 
individuals to attend extremist universities and ultimately 
training camps in Pakistan and Afghanistan.
    The FBI approaches the radicalization issue on two levels. 
We are attempting to understand and describe the dynamics of 
individual and organizational radicalization to identify early 
indicators as to whether individuals or groups are 
demonstrating the potential for violence. We are also engaged 
in extensive outreach to Muslim communities to dispel the 
misconceptions that may foster extremism.
    Thank you for the opportunity to address this important 
issue. I am happy to answer your questions.
    [The statement of Mr. Van Duyn follows:]

                 Prepared Statement of Donald Van Duyn

    Mr. Chairman Simmons, Ranking Member Lofgren and members of the 
Subcommittee, I want to thank you for this opportunity to speak to you 
on the topic of Islamic radicalization in the United States. I would 
like to emphasize before I begin that the issue is not Islam itself but 
how the religious ideology is used by violent extremists to inspire and 
justify their actions. The Federal Bureau of Investigation (FBI) does 
not investigate members of any religion for their religious beliefs, 
but rather focuses on investigating activities that may harm the United 
States.
    Successes in the war on terrorism and the arrests of many key al-
Qa'ida leaders have diminished the ability of the group to attack the 
United States (US) Homeland. At the same time, a broader Sunni 
extremist movement has evolved from being run entirely by al-Qa'ida 
central to a broader movement. This is demonstrated by the 2004 Madrid 
bombings, the July 2005 bombings and attempted bombings in London, and 
recent disruptions in the US, United Kingdom, Canada, Bosnia, Denmark 
and elsewhere.
    That said, core al-Qa'ida remains committed to attacking the United 
States and continues to demonstrate its ability to adapt its tactics to 
circumvent security measures and reconstitute its ranks. Al-Qa'ida is 
also attempting to broaden its appeal to English-speaking Western 
Muslims by disseminating violent Islamic extremist propaganda via media 
outlets and the Internet.
    Although the most dangerous instances of radicalization have so far 
been overseas, the Islamic radicalization of US persons, whether 
foreign-born or native, is of increasing concern. Islamic 
radicalization in the United States does not appear to be endemic, but 
it does exists nationwide. Key to the success of stopping the spread of 
radicalization is identifying patterns and trends in the early stages.
    The FBI defines homegrown Islamic extremists as US persons who 
appeared to have assimilated, but reject the cultural values, beliefs, 
and environment of the United States. They identify themselves as 
Muslims and on some level become radicalized in the United States. They 
intend to provide support for, or directly commit, a terrorist attack 
inside the United States. The threat from homegrown Islamic extremists 
is likely smaller in scale than that posed by overseas terrorist groups 
such as al-Qa'ida but is potentially larger in psychological impact. 
Several recent cases illustrate the nature of the issue.
        <bullet> Since August 2005 the FBI, other federal agencies, and 
        our foreign partners have dismantled a global network of 
        extremists who are operating independently of any known 
        terrorist organization. Several individuals affiliated with 
        this network were arrested for providing material support in 
        connection with the plotting of a terrorist attack in the 
        United States.
        <bullet> The apparent increase of cases involving homegrown 
        Islamic extremists may represent an increased sensitivity of 
        law enforcement to activities not previously regarded as 
        terrorism, but we cannot rule out the possibility that the 
        homegrown phenomenon is growing.
    The FBI has identified certain venues, such as prisons and the 
internet, that present opportunities for the proselytizing of radical 
Islam.
    Particularly for Muslim converts, but also for those born into 
Islam, an extremist imam can strongly influence individual belief 
systems by speaking from a position of authority on religious issues. 
Extremist imams have the potential to influence vulnerable followers at 
various locations of opportunity; can spot and assess individuals who 
respond to their messages; and can potentially guide them into 
increasingly extremist circles.
    Although the activities of radical imams are typically associated 
with Salafist-Wahhabi lectures given in the mosque, they are not 
limited to the mosque itself. Imams are often active and influential in 
other venues such as prisons, publishing, online forums, audio 
lectures, and at Islamic conferences and institutes. These various 
forums allow imams to reach new audiences and potentially susceptible 
followers outside of the mosque itself.
    The propagation of radical ideas is not confined to Sunni Islam. 
Iran is committed to promoting Shia Islam activism.
    The European and American experience shows that prisons are venues 
where extremists have radicalized and recruited among the inmate 
population. Prison radicalization primarily occurs through anti-US 
sermons provided by contract, volunteer, or staff imams, radicalized 
inmates who gain religious influence, and extremist media. Ideologies 
that radicalized inmates appear most often to embrace include the 
Salafi form of Sunni Islam (including revisionist versions commonly 
known as ``prison Islam'') and an extremist view of Shia Islam similar 
to that of the Government of Iran and Lebanese Hizballah.
    Most cases of prison radicalization appear to be carried out by 
domestic Islamic extremist groups with few or no direct foreign 
connections, like the Sunni Islamic extremist group in California, the 
Jam'iyyat Ul-Islam Is-Saheeh (JIS), identified in July 2005. I would 
like to emphasize that not all prison radicalization is Islamic in 
nature. Domestic groups such as white supremacists also recruit in 
prisons.
    In response to this possible threat, the FBI and the Bureau of 
Prisons (BOP) have been actively engaged in efforts to detect, deter, 
and interdict efforts by terrorist and extremist groups to radicalize 
or recruit in US prisons since February 2003. As part of these efforts, 
we have identified ``best practices'' for correctional institutions to 
combat the spread of radicalization.
    The Internet is also a venue for the radicalization of young, 
computer-savvy Westerners--both male and female-who identify with an 
Islamic extremist ideology. An older generation of supporters and 
sympathizers of violent Islamic extremism, in the post-9/11 environment 
of increased law enforcement scrutiny, have migrated their 
radicalization, recruitment, and material support activities online.
    Radicalization via the Internet is participatory, and individuals 
are actively engaged in exchanging extremist propaganda and rhetoric 
online which may facilitate the violent Islamic extremist cause. These 
online activities further their indoctrination, create links between 
extremists located around the world, and may serve as a springboard for 
future terrorist activities.
    Overseas experience can also be a significant element in 
facilitating the transition from one who has a proclivity to be 
radicalized, and who may espouse radicalized rhetoric, to one who is 
willing and ready to act on those radicalized beliefs. Although 
radicalization can occur without overseas travel, the foreign 
experience appears to provide the networking that makes it possible for 
interested individuals to train for and participate in operational 
activity. The experience may vary from religious or language 
instruction to basic paramilitary training.
        <bullet> We assess that the overseas experiences of John Walker 
        Lindh \1\ played a pivotal role in his involvement with the 
        Taliban. Once overseas, he was directed by radicalized 
        individuals to attend extremist universities, and ultimately 
        training camps in Pakistan and Afghanistan.
---------------------------------------------------------------------------
    \1\ John Walker Lindh, after pleading guilty in the Eastern 
District of Virginia to supporting the Taliban, in violation of the 
International Emergency Economic Powers Act (IEEPA) (50 U.S.C. 
Sec. 1705(b)), and carrying an explosive during the commission of a 
felony (18 U.S.C. Sec. 844(h)(2)), was given a 20-year prison sentence.
---------------------------------------------------------------------------
    The FBI approaches the radicalization issue on two levels:
        <bullet> We are attempting to understand the dynamics of 
        individual and organizational radicalization to identify early 
        indicators as to whether individuals or groups are 
        demonstrating the potential for violence.
        <bullet> We are engaged in extensive outreach to Muslim 
        communities to dispel misconceptions that may foster extremism.
    Thank you for the opportunity to address this important issue. I am 
happy to answer your questions.

    Mr. Simmons. Thank you, Mr. Van Duyn.
    Mr. Ali?

STATEMENT OF JAVED ALI, SENIOR INTELLIGENCE OFFICER, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Ali. Chairman Simmons, other members of the 
subcommittee, thank you for the opportunity to share 
perspectives from the Department of Homeland Security on 
radicalization in the United States.
    As described by my colleagues and by the various members 
here, since 2004 a variety of actions overseas and here in the 
U.S. has really spurred attention on the issue of 
radicalization inside the United States, to include the cell 
that was disrupted, the JIS, in the California prison system, 
and the arrest of the individuals in Toronto.
    As a result of these episodes, or activities, the 
department's Office of Intelligence and Analysis has convened a 
study which seeks to develop a broader understanding of how and 
why radicalizing influences take root and spread in the United 
States. This project is part of a broader DHS approach in 
addressing the issue of radicalization and will inform the 
department-wide effort to understand and mitigate the 
phenomenon.
    During the course of our study, we have found that no 
universal definition of radicalization exists in the 
intelligence or the academic and social science communities. As 
a result, our study has developed a working definition whereby 
radicalization entails ``the process of adopting an extremist 
belief system, including the willingness to use, support or 
facilitate violence as a method to effect societal change.''
    This definition separates radicalization from terrorism. It 
focuses more on an understanding of behavior and how and why 
that behavior develops over time.
    A major focus centers on our attempts to examine 
radicalization nodes, which we define as the conduits that 
facilitate or support a person or group through the 
radicalization process. The nodes may be physical institutions, 
virtual communities, charismatic individuals, written or 
reported material, or even shared experiences.
    We are conducting our study in a phased approach, focusing 
on examining radicalization dynamics in key geographic regions 
throughout the country. Our first phase focused on assessments 
in California and the New York-New Jersey area, while our 
second phase focuses on the Midwest and the national capital 
region.
    We hope to conduct other regional or state assessments in 
future phases, with the goal that these will provide the 
building blocks for a broader national assessment.
    Each regional assessment has begun with our attempts to 
frame an intelligence picture particular to that state or 
region by examining national-level intelligence reporting and 
open-source information. We then take those findings and share 
them during face-to-face meetings with federal, state, and 
local law enforcement, intelligence, and homeland security 
professionals.
    As of September 2006, we have held meetings with 
representatives from New York City; Los Angeles; San Diego; San 
Francisco; Sacramento; Chicago; Columbus, Ohio; and 
Springfield, Illinois. And we will soon meet with officials 
from Virginia; Maryland; Washington, D.C.; and Texas.
    We have also found a number of foreign governments keenly 
interested in the radicalization issue, and our meetings with 
them have helped strengthen our perspective.
    Thus far, we have found that relationships between 
radicalization nodes and radical actors or groups inside this 
country vary across ideological and ethno-religious spectrums, 
different geographic regions, and socio-economic conditions.
    Further, we have found many diverse pathways to 
radicalization inside the United States based on an examination 
of the nodes I described earlier.
    Further, we are finding that radicalization is not a one-
way street and that individuals or groups can radicalize or de-
radicalize based on a variety of factors.
    In conclusion, Mr. Chairman, our work on radicalization is 
preliminary and by no means complete. Continued dialogue and 
relationship-building with federal, state, local and even 
foreign partners is a critical aspect of this work, in order to 
gain the most accurate and nuanced intelligence perspectives on 
radicalization activities both in the United States and abroad.
    Mr. Chairman, thank you for giving me the opportunity to 
speak with you and members of the subcommittee. I welcome your 
questions.
    [The statement of Mr. Ali follows:]

             Prepared Statement for the Record of Javed Ali

INTRODUCTION
    Chairman, Ranking Minority Member Thompson, and members of the 
Committee, thank you for the opportunity to share perspectives on an 
important national security topic--radicalization in the United States. 
Since 2004, a spate of terrorist activities in Western Europe carried 
out or supported by radicalized ``homegrown'' Sunni extremists, 
including the Madrid and London attacks, focused national attention on 
the overseas phenomenon. More recent developments in the United States 
and Canada, including the disrupted California prison-based Jam-iyyat 
ul-Islam As-Saheeh (JIS) cell and the ``Toronto 17''--have focused 
attention on the phenomenon in North America.
    While traditional counterterrorism analysis emphasizes the who, 
what, where, and when of potential terrorist threats, the Department of 
Homeland Security (DHS) Office of Intelligence and Analysis (OI&A) has 
convened a radicalization study which seeks to develop a broader 
understanding of why and how radicalizing influences take root and 
spread in the United States. By identifying critical factors at the 
``front end'' of the radicalization process, we hope to assist 
policymakers, intelligence officers, and law enforcement officials in 
their efforts to develop tools, practices, and methods which may 
prevent radical beliefs from ``crossing the line'' towards actual 
violence. This OI&A project is part of a broader DHS approach in 
addressing the issue of radicalization, and will inform the Department-
wide effort to understand and mitigate the phenomenon.

CONCEPTUAL APPROACHES
    During the course of our study, we have found that no universal 
definition of radicalization exists in the intelligence or the 
academic/social science communities. As a result, our study has 
developed a ``working'' definition whereby radicalization entails ``the 
process of adopting an extremist belief system, including the 
willingness to use, support, or facilitate violence, as a method to 
effect societal change.'' This definition separates radicalization from 
terrorism, and focuses more on an understanding of behavior and how, 
why, and where that behavior develops over time. We are attempting to 
identify and examine radicalization ``nodes''--which we define as 
conduits that facilitate or support a person or group through the 
radicalization process. Nodes may be physical institutions, virtual 
communities, charismatic individuals, written or recorded material, or 
even shared experiences.
METHODOLOGY
    We are conducting our study in a phased approach, focusing on 
examining radicalization dynamics in key geographic regions throughout 
the country. Our first phase focused on assessments in California and 
the New York/New Jersey area, while our second phase focuses on the 
Midwest and National Capital Region. We hope to conduct other regional 
or state assessments in future phases, with the goal that these will 
provide the building blocks for a broader national assessment.
    Each regional assessment begins with our attempts to frame an 
intelligence picture particular to that State or region by first 
examining national-level intelligence reporting and open-source 
information. After this research is conducted, we then take those 
findings and share them during face-to-face meetings with Federal, 
State, and local law enforcement, intelligence, and homeland security 
professionals. As of September 2006, we have held meetings with 
representatives from New York City, Los Angeles, San Diego, San 
Francisco, Sacramento, Chicago, Columbus, Ohio, and Springfield, 
Illinois, and will soon meet with officials in Virginia, Maryland, 
Washington DC, and Texas. We have also found a number of foreign 
governments keenly interested in the radicalization issue, and our 
meetings with them have helped strengthen perspectives on 
radicalization.

KEY FINDINGS
    Thus far we have found that relationships between radicalization 
nodes and radical actor/groups vary across ideological and ethno-
religious spectrums, different geographic regions, and socio-economic 
conditions. Further, we have found many diverse ``pathways'' to 
radicalization in the United States based on an examination of the 
nodes I described earlier. We have found that nodes may be physical 
institutions, virtual communities, charismatic individuals, written or 
recorded material, or even shared experiences. Further, we are finding 
that radicalization is not a ``one--way street,'' and that individuals 
and groups can radicalize or ``de-radicalize'' based on a variety of 
factors.

CONCLUSION
    Our work on radicalization is preliminary and by no means complete. 
Continued dialogue and relationship-building with Federal, State, 
local, and even foreign, partners is a critical aspect of this work, in 
order to gain the most accurate and nuanced intelligence perspectives 
on radicalization activities both in the United States and abroad.
    Mr. Chairman, thank you again for giving me the opportunity to 
speak with you and the members of the Committee. I welcome your 
questions.

    Mr. Simmons. Thank you very much.
    And I will start with some questions myself, and I know my 
colleagues have some questions to ask, as well.
    You made some comments, Mr. Ali, that I think are very 
appropriate, that, ``Our work on radicalization is preliminary 
and by no means complete.''
    It was mentioned by witnesses at the panel that 
radicalization does not necessarily deal just with the Islamic 
religion. It can deal with white supremacist groups. It can 
deal with homegrown Americans, such as those who blew up the 
Murrah Building in Oklahoma, for example. And so, I don't think 
there is any effort right off the bat to characterize one group 
or another or another.
    But what we read about today is what is going on in Great 
Britain; what we read about is going on in Toronto. And of 
course our concern is that this could go on in this country, as 
well. I believe that in the Toronto case and in the Great 
Britain case, there were perhaps some connections to 
individuals or groups here in the United States.
    So, again, even though we are at a preliminary stage in 
looking at this issue, what characteristics or motivating 
features have come out of the London case or the Toronto case 
that would apply to us here in the United States?
    What motivating factors--was it the introduction of a 
charismatic leader, for example, into a group of young people 
who responded to it? Was it conditions of discrimination or 
alienation? Was it a sense that young Muslims could not 
participate fully in the Western society in which they found 
themselves--alienation, if you will?
    What is your thinking along the lines of these issues?
    Mr. Ali. Sir, I will take that first part of the question.
    Part of the issue we are having here with the depth of the 
assessment or the judgments we are able to make is we just 
don't have a lot of data in order to, sort of, do the 
comparative analysis. And that is the reason we are trying to 
look at this issue from a regional approach and see what we can 
cull from that--
    Mr. Simmons. And if I could just interrupt on that point, I 
think we all understand that, but intelligence officers 
sometimes have hunches or intuitions or feelings. And I realize 
we are in an open session and on the record, but if there is 
some commonality among those hunches and feelings, feel free to 
share that.
    Mr. Ali. Sure, sure, Chairman.
    One issue I was going to raise was, the things that we have 
seen as important nodes or these conduits or catalysts for 
radicalization here in the United States seem to have some 
resonance or applicability with what we have seen in the U.K. 
context, other parts of Western Europe, or even the Canada 
experience.
    What we have found so far at a macro level in the U.S., not 
to say this holds true in every region or every state, is that 
the nodes that appear to be of importance to us are the 
Internet, which was described before, the power of the Internet 
as a radicalizing node; certainly the use or the involvement of 
a charismatic leader to drive those beliefs; and then 
propaganda.
    That is not to say that you necessarily need to have all 
three of those in order to develop a radicalized group or cell, 
but if you look at what occurred in the London context, and the 
U.K. context to a degree, and then look at the smaller set of 
data we have here in the U.S., there do appear to be 
commonalities with those as drivers. But then there are also 
examples, like the prison example, where some of those factors 
aren't as significant.
    So it is a bit of a difficult question, but at an abstract 
level those are the nodes that seem to be important, to us.
    Mr. Simmons. Gentlemen?
    Mr. Blake. Let me add a couple comments about the London 
bombing and particularly the 7/7 bombers.
    In that case, you do have a couple of dynamics going on. 
One is the issue of age. You did have, in Mohammad Sidique 
Khan, a charismatic leader of the group there, the cell there, 
of the 7/7 bombing. He was in his mid-30s. The other bombers 
were much younger--early 20s, one I think still in his teens.
    The other dynamic in this radicalization issue is, the 
London case appears to be a case in which you have two aspects: 
One is those who grew up in that West Yorkshire atmosphere and 
had their life experience there. But, in the case of a couple 
of them, you had those who had gone to Pakistan for a period of 
time in the months leading up to the attack. Al-Qa'ida has been 
quite willing--Ayman al-Zawahiri, in particular, in some of his 
videotapes--to take credit for that, their level of 
involvement.
    But you have the issue of travel, to where you have some 
exchange with terrorist leaders who either encourage, support, 
sanction, direct some activities. And then you have those who 
are willing to be radicalized and participate, don't have that 
involvement but are swayed by some of the others.
    Mr. Van Duyn. I think we see, in addition to the apparent 
role of mentors, which seems to be key, and some sort of 
influence in, I think also the effectiveness of propaganda, 
whether it is over the Internet or otherwise, that has 
portrayed Muslims as being oppressed and under attack. There 
are clearly some--there is some great anger that has developed, 
obviously, among the two cells that you are speaking of. So the 
effectiveness of the propaganda out has been very effective.
    The other thing I think that many people have noted, too, 
is just what may be the speed of radicalization now that is 
occurring.
    Mr. Simmons. If I could just make a comment on that, in 
going to Toronto, Canada, it was our understanding that the 
period of time between the introduction of a charismatic leader 
and the time of the arrests, which seemed to be at the cusp of 
action, was around 3 months, maybe a little more.
    That is pretty rapid. And I guess what that suggests to me 
is that the circumstances of that radicalization were resident 
within those individuals and within that community. So they 
needed a spark.
    And so, I guess the overreaching question and concern that 
we have is, do those circumstances exist elsewhere in this 
country and around the world? So that the spark results in that 
very quick radicalization. Is that your perception?
    Mr. Van Duyn. I think, in the United States, we see, I 
think as you cited from your colleague's testimony, that we 
don't see, in many respects, the same sorts of conditions, that 
the populations are better assimilated.
    That said, it is clear that, from our own experience, there 
are people with that same sort of anger and who take on that 
same sort of ideology. So it certainly cannot be dismissed. Nor 
can something happening quickly or one individual taking it 
into his own head to do something--nor can that be dismissed, 
as I think perhaps may be indicated by the student down at 
North Carolina.
    Mr. Simmons. Thank you.
    The chair recognizes the distinguished chairman of the full 
committee, Mr. King of New York.
    Mr. King. Thank you, Chairman Simmons.
    I will, as I did in my opening statement, focus on the 
issue of prison radicalization.
    And also, on a personal note and somewhat humorous note, 
thank you, Mr. Ali, for not bringing up the Michigan-Notre Dame 
score.
    [Laughter.]
    It was very thoughtful and generous of you.
    Mr. Ali. Go blue, sir.
    [Laughter.]
    Mr. King. Getting back to a serious note, just from my own 
analysis and study, it does appear that the issue of prison 
radicalization is increasing. The Federal Bureau of Prisons has 
attempted to address it. Several states have attempted to 
address it.
    I would ask, really, if each of the three of you would try 
to comment on, one, to the extent you do believe it is a 
problem; secondly, what remedies there are, again, under our 
Constitution; are there any constitutional prohibitions about 
actually vetting chaplains that come in; how we find 
organizations that are positioned to vet them, to perhaps work 
through them.
    I know, for instance, several years ago, in fact last year, 
of all institutions, the fire department of New York--this 
isn't even a prison situation--they hired a Muslim chaplain who 
was then seen putting out statements basically denying the 
reality of September 11th.
    Also, as a Catholic, I know Catholics have faced 
persecution in this country, as have all religions--Jews, 
certain sects of Protestantism. You have to be careful as to 
exactly how to vet or select. But on the other hand, there is 
also a political dynamic we can't deny, and that is the 
terrible impact I think many of these imams and self-appointed 
imams in prisons have, as far as radicalizing prisoners.
    So anyway, I would just appreciate any of the comments or 
any of the suggestions that each of the three of you could make 
on this.
    Mr. Van Duyn. Again, as I indicated, we have been working 
with the Bureau of Prisons since February of 2003. And there 
are a number of measures. And I don't want to speak for the 
Bureau of Prisons, but they are very cognizant both of the 
constitutional rights of prisoners and also the generally 
beneficial impact of religion. Conversion is generally 
considered to be a good thing, because it gives direction to 
lives that might otherwise be directionless.
    The Bureau of Prisons does have programs to monitor the 
spread of ideologies that could lead to violence within their 
systems. And they certainly have, I think, the authorities to 
do that. And they are paying attention both to who comes into 
the prisons to preach.
    And, in many cases, this is being done by contract imams. 
There is a limited staff within the Bureau of Prisons for the 
federal system, and then they contract out to others to come in 
and to serve those prison populations. And that is a very 
important part of what they do.
    In addition, they do monitor the materials also. And there 
were a couple items cited in a hearing yesterday that dealt 
with the Noble Koran and also the guidelines of Islam. The 
Noble Koran, which has a very extremist interpretation of 
Islam, has been banned from the chapel libraries and the 
libraries of the federal system.
    And they are also disseminating this information, and have 
been, out to the state and local systems. But, as you know, 
there are well over 2,000 state, local, federal, tribal 
institutions in this country. We have surveyed somewhere over 
2,000 of them at this point and are trying to get those 
messages out.
    Mr. King. Do you think we are making progress?
    Mr. Van Duyn. I believe so, because I think the 
dissemination of education and awareness is really what is 
going to make the difference here.
    Mr. King. Mr. Blake? Mr. Ali?
    Mr. Ali. Yes, sir. From our perspective at DHS, in terms of 
just looking at it as a macro issue, it is certainly an issue 
of concern, prison radicalization, of deep interest.
    What I think we don't know or we have less of an 
understanding of: What is the level of operational threat that 
potentially could be within some of these prison systems or 
some of the small groups or clusters within them who are really 
promoting these radical beliefs? And that is just an unknown, 
how many other potential JIS-like entities are there. Hopefully 
there aren't many, but there may be some we just have not come 
across yet.
    And I think there are also two ways to think about the 
issue, as well. There appears to be, sort of, the bottom-up 
type of activity, which you could potentially say that is a 
better characterization of the JIS. You have someone who truly 
almost developed his belief system and then promoted that, and 
at the output came a small group of people who bought in to 
that belief system and were willing, potentially, to take 
action on it.
    So you have the, sort of, bottom-up phenomenon. But there 
may also be a top-down phenomenon, as well, from transnational 
organizations that, as Mr. Van Duyn mentioned, potentially the 
government of Iran, that are also trying to spread a certain 
ideology within the prison system. And I think we also don't 
have a clear understanding of what that level of top-down 
influence looks like.
    So with that said, in terms of just potential ways to get a 
better insight as to what is actually happening, I agree that 
more potentially needs to be done in terms of how we vet 
certain individuals who are coming into the prison system; 
dialogue with Muslim communities as well, to get potentially 
more involved into the, sort of, either the chaplaincy corps or 
other types of volunteer services that are provided to 
prisoners in the systems.
    And from our perspective at DHS, getting a better 
understanding as to what is really happening at the state and 
local level, so building and expanding on those partnerships.
    Just as an example, when we conducted our California study, 
until we went out to California and had discussions with 
representatives, both in Los Angeles and in northern 
California--Sacramento, San Francisco--we just did not have the 
picture that they had at the ground level, as to the prison 
radicalization phenomenon, because there is very little 
national intelligence reporting that captures that.
    So from our perspective, building those relationships and 
then furthering them is an important part of this equation.
    Mr. Blake. I would just say, on a bit of a strategic point, 
that one of the things we look at as we look at the, kind of, 
Sunni extremist movement, the way that it has evolved, it has 
changed, it has decentralized over time, one of the concerns is 
the development of leaders and leadership and leadership 
abilities. And if you look at some of the prison experiences of 
Abu Musab al-Zarqawi in Jordan, of Ayman al-Zawahiri in Egypt, 
you recognize that their time in prison was an important part 
of their formative experience.
    Mr. King. Thank you.
    Mr. Simmons. I thank you, Mr. Chairman.
    For the second round, you have mentioned nodes, and I think 
we have identified four basic nodes where this radicalization 
appears to take place. One is university campuses; another is 
in mosques and community centers; a third is the Internet; and 
the fourth is the prison system.
    And I guess, as somebody who has taught on a college 
campus, worked for a newspaper, we are concerned about freedom 
of speech, academic freedom, religious freedom. These are 
fundamental freedoms that those of who have served in uniform 
felt we were fighting for and want to protect.
    When it comes to the prisons, it is a somewhat different 
node. It would seem to me that it is much more under control. 
And I think the chairman has asked those very appropriate 
questions. So I would like to focus a little more on the 
university campuses, the mosques, and the Internet.
    There is a balancing act, always, between freedom and 
security, between civil liberties and the right to be safe or 
to expect to be safe. We know there are limits on free speech, 
that fighting words, for example, are not protected, libel is 
not protected, hate speech is not, or words that could lead to 
harm, to damage.
    Years ago, Zechariah Chafee at Harvard Law School wrote a 
book called ``Free Speech,'' and I recall vaguely that he made 
the statement that your to swing your arm ends where my nose 
begins. And it kind of captures how we have to address the 
issue of freedom of speech, civil liberties and the right to be 
secure and be safe.
    Have either of your three agencies encountered legal 
difficulties in trying to examine more closely these nodes? 
Have you been either restricted by the staff attorneys or been 
given advice and guidance? And how does that issue, the issue 
of individual liberties and freedom, interfere, let's say, as 
you try to address radicalization in these different nodes?
    Don't look at each other.
    [Laughter.]
    I know it is a hard question, and maybe it is a question 
for the record. But if you could provide some kind of answer, I 
think it could be useful.
    I mean, we value the academic freedom of our college 
campuses, but we don't want to see people teaching or preaching 
hate. And that is the same, I guess, when we go to our mosques, 
our cathedrals, our Protestant churches, this sort of thing.
    And the Internet--we value the Internet as a communications 
tool, but I don't want to see sexual predators using it, for 
example. I don't want to see drug lords using the Internet for 
their nefarious business. And quite frankly, I don't want to 
see terrorists using the Internet.
    Mr. Van Duyn. The FBI is very aware of the rights of 
freedom of religion and also freedom of speech. And that is why 
we focus our efforts on actual connections to terrorist 
activities and predication that there is activity and intent to 
harm the United States. But we are not looking at any 
particular node or venue in particular. We are looking at the 
activities that occur there that would be reflective of some 
type of harm that is to be a plan for the United States.
    Mr. Ali. Chairman Simmons, just to add to that, we have the 
same concerns with the tension between civil liberties and the 
ability to further investigate potential activities that could 
cause harm in the U.S. And from our perspective, we also are 
not focusing specifically on these entities in and of 
themselves.
    We are only examining them in the course of, if the 
disseminated intelligence suggests that there is activity of 
concern or interest there, then that is where our analysis 
takes us. But we are, at least the Office of Intelligence in 
DHS, we are not a collection agency, so we are not actively 
collecting the information on any of these institutions.
    Mr. Blake. Our answer would be somewhat similar, in that 
the National Counterterrorism Center does not have a tactical 
and collection mission, investigative or operational mission. 
So we are recipients of the information. It is quite different.
    Mr. Simmons. Thank you.
    Mr. Chairman?
    Mr. King. Thank you, Chairman Simmons.
    First of all, I regret that I had to leave the room several 
times during your testimony. I had different messages coming 
in. So you may have covered this in your opening statements.
    But what level of cooperation do you believe you are 
getting from the Muslim community, especially imams, in trying 
to screen out those who would be more radical or recommending 
those who would be more mainstream and would not create 
problems? Again, I am focusing on the issue of prisons.
    Mr. Van Duyn. We do--and, again, I think it may be better 
for you to speak to the Bureau of Prisons about their efforts, 
because I know they reach out to the Muslim communities in the 
various areas where they are looking for assistance in 
identifying imams.
    As I indicated, there is a very small staff--I believe it 
is only 11 staff imams in the Bureau of Prisons. So they go out 
extensively to local institutions to find people to serve the 
prisoners' religious needs. So they are out in the communities.
    Speaking for the FBI, we have, as I said, an extensive 
Muslim outreach program, both in our headquarters, where we 
bring people in to discuss various issues, and then also with 
our Special agents in Charge in their various field offices.
    Mr. Ali. And, Mr. Chairman, for the department, our office, 
the Office of Intelligence and Analysis, we don't have that 
function, in terms of outreach with anyone. But there is an 
element within the department, the Office of Civil Liberties 
and Civil Rights, that this is part of their mission, to have 
that kind of dialogue with various groups around the country.
    I do not know whether that dialogue consists of the prison 
issue, but we can certainly research that and get a better 
answer back for you.
    Mr. King. Good. I would appreciate it, even if it is just 
anecdotal, as to what you believe the level of cooperation is.
    Thank you.
    Mr. Simmons. I know that they are going to be calling for 
votes, I believe in 20 minutes to half an hour or so. I 
reluctantly dismiss this panel. I have more questions.
    And all members, of course, can submit questions for the 
record.
    But I want to thank you gentlemen for coming forward and 
testifying on this issue. I think this is probably one of the 
first hearings we have had on the subject in either the House 
or Senate, even though there has been a lot of discussion of 
it.
    I realize that the work that we are doing on this subject 
is preliminary in nature. But I also feel that it is an 
extraordinarily important issue for us to understand better and 
to work with.
    So, again, I thank you for your testimony. And this will 
not be the last time that we talk about this subject. Thank you 
very much.
    Mr. King. Thank you very much. Thank you.
    Mr. Simmons. The second panel consists of four individuals.
    Our first witness is Dr. Walid Phares--and if I have 
mispronounced your name, I apologize--senior fellow at the 
Foundation for the Defense of Democracies, where he focuses on 
Middle East history, politics, global terrorist movements, 
democratization and human rights.
    Dr. Phares also leads the foundation's Future of Terrorism 
Project, which considers how the militant Islamist threat will 
mutate over time and what can be done to defend against new, 
more deadly strains of terrorism.
    He holds degrees in law and political science from St. 
Joseph and the Lebanese University of Beirut, a master's in 
international law from the Universite de Lyon in France, and a 
Ph.D. in international relations and strategic studies from the 
University of Miami in the United States.
    Our second witness, Dr. Frank Cilluffo, is associate vice 
president for homeland security at The George Washington 
University and leads the university's homeland security efforts 
on education, research, training and policy.
    He also directs the multidisciplinary Homeland Security 
Policy Institute and teaches a graduate-level course on 
counterterrorism and homeland security at the Elliott School of 
International Affairs.
    He joined G.W. from the White House, where he served as 
special assistant to the president for homeland security.
    Our third witness is Mr. John Woodward, associate director 
of the RAND Intelligence Policy Center. From October 2003 to 
2005, John served as director of the U.S. Department of Defense 
Biometrics Management Office. Prior to joining RAND, Mr. 
Woodward served as an operations officer for the Central 
Intelligence Agency for 12 years, with assignments in East Asia 
and East Africa.
    Our final witness is Mr. Steve Emerson, executive director 
of The Investigative Project on Terrorism. Mr. Emerson is the 
author of five books on terrorism and national security, most 
recently the national best-seller, ``American Jihad: The 
Terrorists Living Among Us.''
    Mr. Emerson started the investigative project in late 1995, 
following the broadcast of his documentary film, ``Jihad in 
America,'' on public television. The film exposed video of 
clandestine operations of militant Islamic terrorist groups on 
American soil.
    For the film, Mr. Emerson received numerous awards, 
including the George Polk award for the best T.V. commentary, 
one of the most prestigious awards in journalism. He also 
received the top prize from the Investigative Reporters and 
Editors Organization for best investigative report in both 
print and television for the documentary.
    I want to thank all of you gentlemen for being here today.
    I will also say that we have your written testimony in the 
notebook, which we have reviewed, so we hope that you can 
summarize in about 5 minutes.
    Dr. Phares?

   STATEMENT WALID PHARES, SENIOR FELLOW, FOUNDATION FOR THE 
                     DEFENSE OF DEMOCRACIES

    Mr. Phares. Thank you very much.
    Mr. Simmons. Did I pronounce your name correct?
    Mr. Phares. Close enough. It is Phares.
    Mr. Simmons. Close enough for government work. Phares, 
okay. Thank you, sir.
    Mr. Phares. Ferris wheel.
    [Laughter.]
    Mr. Simmons. There we go. Simmons like the mattress. No 
relation.
    [Laughter.]
    Mr. Phares. Thank you, Chairman. I would like to thank you 
very much. It is a privilege and an honor to appear before you 
today to discuss the theme of the homeland security 
implications of radicalization. My contribution is titled, 
``Intercepting Radicalization at the Indoctrination Stage.''
    Your concerns about radicalization as a threat to U.S. 
homeland security are warranted. For after 25 years of studying 
the ideology and the evolution of the doctrines that produced 
the self-declared jihadist movement--''al haraka al Jihadiya'' 
in Arabic--I conclude, along with a number of my colleagues in 
the United States and across the Atlantic that the terrorism 
America and its allies are facing in the war on terror is 
direct product of this radical ideology.
    The 19 men who massacred 3,000 United States and other 
citizens belong to al-Qa'ida, and the latter is a self-declared 
Salafist Jihadist organization. Every single case of terrorism 
uncovered on U.S. territory since 9/11 was motivated by this 
ideology.
    To name a few: Virginia Paintball gang, the dirty bomb 
case, the shoe-bomber case, Al Qaida's John Walker, Azzam al 
Amriki Adam Gadahn, the Oregon case, the Virginia multiple 
cases, Jihadi charities, so on and so forth. Even the case of 
Abdelrahman in 1993, Sheik Abdelrahman, and the first bombing 
of the New York towers is also grounded in its literature of 
jihadism.
    Statements made by Zarqawi networks, Osama bin Laden, Ayman 
al-Zawahiri since 1998, the jihadist ideology, which also has 
been expressed by the Ayatollah Khomeini teaching and Hezbollah 
and Lebanon--all of the above comes to one source: the jihadist 
ideology.
    We know that there are two trees of this ideology: the one 
born under Jihadi Salafists, their thinking, and the one born 
under Jihadi Khomeinist thinking.
    Therefore, Mr. Chairman, jihadism is the ideological common 
identity of terror groups such as al-Qa'ida, Salafi Combat 
Group, Islamic Jihad, Hamas, Jemaa Islamiya, Taliban, Laskar 
Taiba, and dozens and dozens of others around the world, 
including other chapters within the United States.
    These organizations and individuals are responsible and 
were responsible for attacks against the United States and its 
allies in the 1990s, 9/11, Madrid, London, Beslan, Mumbai, 
Riyadh, Casablanca, Sunni Triangle in Iraq, and other violence 
associated with terrorism.
    First conclusion, Mr. Chairman, is, at this stage of the 
war on terror, the ideology behind the threat has been already 
identified. he jihadists themselves identified it. And that 
should be addressed as such: as an ideology.
    Second remark is about the development of the threat 
itself, the making of jihadism.
    Prior to 9/11, the spread of this ideology was operated by 
a variety of Salafi, Wahhabi, Ikhwan--or Muslim Brotherhood--
Tablighi, Deobandi, and Takfiri schools of thought around the 
world, mostly by means of religious schools known as madrassa. 
And then moving into the United States gradually out of the 
1970s, 1980s and 1990s, jihadi cadres took the control of 
existing religious schools funded by foreign support but also 
formed their own indoctrination networks, often in and around 
mosques and other social and cultural centers.
    In about 20 years of militant activities, this ideology 
produced three generations of radicals, a pool which basically 
allows the terrorists to recruit from.
    Certainly the perpetrators of 9/11 could be defined as 
foreign jihadists, but the worry, the concern for the homeland 
security are the American jihadists, those who have been 
recruited by the original first generation of jihadists, and 
therefore constitute today a direct threat against homeland 
security.
    Third point, component of that threat, what are we talking 
about. This is not a vague radicalization of one or other 
community. This is a very specific, systematic, ideological 
network that penetrates, has strategies, has visions, and 
therefore is and constitutes a direct threat against homeland 
security in the United States and our allies around the world.
    The components are as follows. It rejects the legitimacy of 
our national liberties: pluralism, role of secular law. The 
jihadi ideology--and that is important--is not another social 
or political way of thinking within democracy, nor is it a 
political alternative to one particular party or a specific 
policy in domestic or foreign affairs.
    Jihadism rejects the American Constitution, the Bill of 
Rights, the international declaration on human rights, the 
United Nations and international law. Jihadism aims at 
destroying democracies and installing a totalitarian regime 
named, for some, caliphate, for others, imamate.
    And to do so, jihadism creates the conviction--and that is 
the important point--in the minds of adherents that war against 
the government, people, and Constitution of the United States 
is the path toward achieving the universal goal. And here, Mr. 
Chairman, is the beginning of the threat, when the ``click'' 
that transforms a citizen into a jihadist. That is the 
beginning of the process, not at the end of it.
    Strategic penetration operated by the jihadist movement 
before and since 9/11 is based on various models. First model 
are those who originates overseas, move to the United States--I 
am talking about cadre--legally or an illegal way, and starts 
operating inside of the country, using its laws and facilities. 
The estimate of jihadists who have infiltrated the country over 
the past two decades is certainly in the hundreds, possible 
close to a thousand people.
    This first-generation jihadist has organized itself to 
perform two activities: One is to grow its own strength for 
future jihads. Two, very relevant to us now, is to produce the 
second generation of American-born jihadists. If you analyze 
the average age of U.S.-born jihadists, you would conclude that 
the production of the second generation has begun in the late 
1980s and mostly since the early 1990s.
    The first generation of jihadists does two things. It 
indoctrinates, then recruits within the Muslim community, using 
various methods and influence already-penetrated institutions. 
Second, and more important, is for them to take the control of 
religious conversions of non-Muslims. The issue is not 
conversion at all. The issue--this is a free and pluralist 
society, of course--the issue is basically who does the 
conversion and who shepherds the converts into being recruited 
into the jihadist ideology.
    Once the pool of indoctrinated individuals is formed, 
mostly of younger persons, then the terror organizations can 
recruit from. It is a fact that the most dangerous jihadists, 
both on the individual level or as self-formed cells, are those 
who have been able or are in the process of penetrating the 
defense-security system of the United States.
    The threat shield. There are several shields that 
``protect'' the U.S.-based jihadists from containment. Among 
these shields are: A, the little ability of the public, that is 
the American public, to identify them, since their ideology 
hasn't officially been identified by the government.
    How can we ask ordinary citizens or people in the agencies 
to find out who is the jihadists if the government has not 
identified it to start with, from the top level all the way to 
agencies and, of course, at the front of this, Congress?
    B, without the public, law enforcement and homeland 
security cannot mobilize on a large scale to identify and 
isolate the jihadist activities.
    C, the ideology of jihadi terrorism enjoys, obviously, if 
not identified and banned, enjoys the political freedoms of the 
country. It is protected, naturally, by advocacy groups, legal 
defense, and is funded both domestically and by foreign regimes 
and organizations.
    Mr. Chairman, I do, in a very summarized way, suggest a 
resistance to radicalization. What could be done? Six points. 
And I would be more than happy to answer questions about the 
details of these points later.
    One, first of all, identification of the ideology of 
jihadism by government, media and experts. It is unescapable, 
every single plan we have in every single department in the 
United States--and I have been visiting and in touch with other 
experts around the world, in Canada and Europe and the Middle 
East--without this identification, I don't think that the fight 
against jihadism will be successful.
    Two, once this is done, then mobilization against the 
ideology of jihadism by the public and educational 
institutions. If our students--and I have been a professor for 
14 years--over the years are taught the wrong interpretation of 
what this ideology is in the classroom, those who are going to 
be recruited to agencies, government, media and the rest of the 
public space are not going to be able to be very helpful in the 
future in that war of ideas.
    Three, the most sensitive, the most difficult aspect, 
although had to be raised, is, after we identify this ideology 
and we are sure that under the Constitution this ideology is 
harming society, is calling for violence, is making a 
distinction in society between one slice of it and the other 
slice, encouraging one against the other, therefore under the 
Constitution of the United States and the charter of the United 
Nations, it has to be banned by the U.S. Congress.
    Four, mass education of the public about it. That involves 
public libraries. That involves a good use of the public 
services funded by taxpayers, including C-SPAN, PBS, NPR. All 
these publicly supported organizations should be very helpful 
in encouraging the mass education of the public about where is 
the danger.
    Five, it is imperative to work with domestic NGOs, with the 
general public in general, and specifically with the Muslim 
community. But working with the Muslim community should 
basically begin with working with those organizations that not 
just are moderate but willing to inform the public within the 
Muslim community and at large of the danger, of the threats.
    Six, working with international non-government 
organizations and particularly with liberal, democratic and 
humanist Muslims.
    In conclusion, terrorism is threatening homeland security, 
and jihadism is a main root of terrorism. Therefore, the 
capacity of the United States protecting homeland security and 
defending national security will depend largely on developing 
policies and laws that would identify, ban, isolate and shrink 
jihadism, with the help of the American public in general and 
the Muslim and Middle Eastern communities in particular.
    Such a shift in homeland security must be based on a 
comprehensive strategy of containment of the terror ideology 
within the framework of civil and democratic rights of society.
    Thank you, Mr. Chairman.
    [The statement of Mr. Phares follows:]

                   Prepared Statement of Walid Phares

    Chairman Simmons and Members of the Committee,
It is a privilege and an honor to appear before you today to discuss 
the theme ``The Homeland Security implications of radicalization.'' My 
contribution is titled: ``Intercepting radicalization at the 
indoctrination stage.''

Identification of the Threat
    Your concerns about ``radicalization'' as a threat to U.S. Homeland 
Security are warranted. For after twenty five years of studying the 
ideology and the evolution of the doctrines that produced the self-
declared Jihadist movement (al haraka al Jihadiya) which has declared, 
waged and continues to conduct war against the United States and other 
democracies, I conclude along with a number of colleagues in this field 
of expertise that the Terrorism America and its allies are facing in 
the War on Terror, is a direct product of this radical ideology. The 19 
men, who massacred 3,000 US and other citizens on September 11, belong 
to al Qaeda and the latter, is a self declared Salafist-Jihadist 
organization. Every single case of Terrorism uncovered on U.S. 
territory, since 9/11, was motivated by this ideology. To name a few: 
The Virginia Paintball gang, the dirty bomb case, the shoe bomber case, 
al Qaeda's John Walker, Azzam al Amriki AKA Adam Gadahn, the Oregon 
case, the Virginia multiple cases, the Jihadi charities, etc. This 
ideology was omnipresent in the cases than ended with court sentences 
and those which didn't; in the Sheikh Abdel Rahman case of 1993; in the 
statements made by the Zarqawi networks wile assassinating innocent 
civilians; in all speeches by Usama Bin Laden, Ayman al Zawahiri from 
1998 till now; and all jihadi web sites in all languages: one global 
common thread is always omnipresent: The Jihadi ideology. And in 
parallel to al Qaeda's radical doctrine another ideology of Jihadism 
follows the teachings of Ayatalollah Khomeini and is embodied by the 
public speeches of Iran's President Mahmoud Ahmedinijad and Hezbollah. 
Hence, the ideologies that produces ``Radicalization,'' are the 
Jihadist ones. They are of two main ``trees,'' the Jihadi Salafist and 
the Jihadi Khomeinist. These doctrines, taught and disseminated 
worldwide and in America, are the producers of the ``Jihadists'' (al 
Jihadiyun) who have declared war and waged it against the United States 
both overseas and in the homeland. Jihadism is the ideological common 
identity of terror groups al Qaeda, Salafi Combat Group of the Maghreb, 
Hamas, Islamic Jihad, Jemaa Islamiya of south Asia, the Taliban of 
Afghanistan, Laskar Taiba of Pakistan, the Mahakem Islamiya of Somalia, 
and other Salafi-Wahabi groups internationally, in addition to 
Hezbollah. Jihadism was the inspiration for the 1990s attacks, 9/11, 
Madrid, London, Beslan, Mumbai, Riyadh, Casablanca, the Sunni Triangle 
in Iraq and other violence associated with Terrorism. Hence at this 
stage of the War on Terror, the ideology behind the threat has been 
identified and thus should be addressed.

Development of the Threat
    Prior to 9/11, the spread of Jihadis was operated by Salafi, 
Wahabi, Muslim Brotherhood (Ikhwan), Tablighi, Deobandi and Takfiri 
schools of thought around the world, mostly by the means of religious 
schools known as Madrassa. Moving into the United States gradually as 
of the 1970s, and increasingly in the 1990s, Jihadi cadres took the 
control of existing religious schools funded by foreign support but 
also formed their own indoctrination networks, often in and around 
Mosques and other social and cultural centers. In about twenty years of 
militant activities, the Jihadist ideology produced three generations 
of radicals, a pool which Terrorists have and continue to recruit from. 
The perpetrators of the September 11, 2001 attacks are foreign 
Jihadists. But most of the other arrested Terrorists (or alleged 
Terrorists) claiming the same ideology and who identify with al Qaeda 
or its allies, are ``American Jihadists,'' citizens or permanent 
residents, U.S.-born or naturalized. Hence the most dangerous dimension 
of the ideology of Jihadism is the fact that it has already recruited 
and inspired Americans to wage war against their own nation. Therefore 
Jihadism is a direct threat against Homeland Security

Components of the threat
    This threat against national security and against the foundations 
of civil society and democracy is embodied by a set of ideas and 
concepts that reject the legitimacy of citizens' free choice, their 
natural liberties, pluralism, and the rule of secular law. The Jihadi 
ideology is not another social or political way of thinking within 
Democracy, nor is it a political alternative to one particular party or 
a specific policy in domestic or foreign affairs. Jihadism rejects the 
American constitution, the bill of rights, the international 
declaration on human rights, the United Nations and international law. 
Jihadism aim at destroying democracies and installing a totalitarian 
regime named Caliphate. And to do so, Jihadism creates the conviction 
in the minds of its adherents that war against the Government, people 
and constitution of the United States is the path towards achieving the 
universal goal. The beginning of the threat starts with the ``click'' 
that transforms a citizen into a Jihadist. From there one, the constant 
objective of the Jihadi recruit is to strike against the national 
security of the United States. The Terrorist can be a member of al 
Qaeda if he/she are successful in establishing the contact, as for 
example with the case of Adam Gadahn and Jose Padilla, or they could 
operate under an al Qaeda like Jihadism, without having established a 
link with the mother ship.

Strategic penetration
    The strategic penetration operated by the Jihadists before and 
since 9/11 is based on three models: One are the Jihadists who 
originates overseas and move to the United States, either legally 
(visa, lawful immigration, marriage, political asylum) or illegally. In 
either of these cases the Jihadis ends up operating on the inside of 
the country, using its laws and facilities. The estimate of Jihadists 
who have infiltrated the country over the past two decades is certainly 
in the hundreds, possibly close to a thousand. This ``first 
generation'' Jihadists has organized itself to perform two activities: 
One is to grow its own strength for ``future Jihads.'' Two is to 
produce the second generation of American-born Jihadists. If you 
analyze the average age of U.S. born Jihadists, you would conclude that 
the production of the second ``generation'' has begun in the late 1980s 
and mostly since the early 1990s. The formation of this ``second 
generation'' can only happen through two methods. First is to 
indoctrinate then recruit within the Muslim community using a variety 
of methods and already penetrated institutions. Second, is for them to 
take the control of the religious conversion of non-Muslims and 
indoctrinate the converts during the process or after the process: 
Hence a first generation of radical Salafists-Wahabis has already 
processed a radicalization and the recruitment of American-born Muslims 
or converts. The issue is not conversion: This is a free and pluralist 
society. Certainly there is and would be a problem with the 
radicalization taking place within a particular community. But the real 
issue affecting Homeland Security is the systematic penetration of a 
religious community and the recruitment of Jihadists to perform acts of 
Terrorism and aggression against national security.
    And once the ``Pool'' of indoctrinated individuals is formed, 
mostly of younger persons then the Terror organizations can recruit 
from. However, Jihadists in the West in general and in the U.S. in 
particular, are of two types once they are formed: Either they join an 
organization and moves into a cell, or they form their own cell, 
without connecting with a larger organization or al Qaeda. The most 
dangerous Jihadists, both on the individual level or as self-formed 
cells are those who have been able or are in the process of penetrating 
the defense-security system of the United States. In this realm, the 
Jihadists can harm the most the national security of the Homeland, and 
analytical indications project that one of their ultimate goals is to 
penetrate and weaken U.S. Homeland Security.

Threat shield
    There are several shields that ``protect'' the U.S.-based Jihadists 
from containment. Among these shields are:
        a. The little ability of the public to identify them since 
        their ideology wasn't officially>en identified by the 
        Government.
        b. Without the public, Law Enforcement and Homeland Security 
        cannot mobilize on a large scale to identify and isolate the 
        Jihadists activities. Furthermore, by not identifying the 
        ideology and its strategies, the U.S. Government cannot direct 
        its agencies and resources against the threat.
    c. The ideology of Jihadi-Terrorism unfortunately, enjoys the 
political freedoms of the country. It is ``protected'' by advocacy 
groups, legal defense and is funded both domestically and by foreign 
regimes and organizations.

Resistance to ``radicalization''
    To establish a national resistance to ``radicalization'' following 
are 6 suggestions:
        1. Identification of the ideology of Jihadism by Government, 
        media and experts.
        2. Mobilization against the ideology of Jihadism by the public 
        and educational institutions
        3. Ban of the ideology by the U.S. Congress
        4. Mass education of the public about it
        5. Working with domestic NGOs, with the general public and 
        specifically with the Muslim communities
        6. Working with international INGOs and particularly with 
        liberal, democratic and humanist Muslims

Looking at the future
    In summary, Terrorism is threatening Homeland Security and Jihadism 
is a main root cause of Terrorism. The U.S. capacity of protecting 
Homeland security and defending national security will depend largely 
on developing policies and laws that would identify, ban, isolate and 
shrink Jihadism, with the help of the American public in general and 
the Muslim and Middle Eastern communities in particular. Such a shift 
in Homeland security must be based on a comprehensive strategy of 
containment of the Terror ideology within the framework of civil and 
democratic rights of society.
    In closing, I would like to thank you and the committee members and 
staff for the opportunity to present this testimony today. I look 
forward to responding to any question that you might have.

    Mr. Simmons. Thank you very much for that very interesting 
testimony. It went over the 5 minutes, but I felt that it was 
very much worth it. So thank you very much.
    Mr. Cilluffo?

STATEMENT OF FRANK CILLUFFO, DIRECTOR, HOMELAND SECURITY POLICY 
          INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Cilluffo. Chairman Simmons, thank you for the 
opportunity to appear before you today. I echo others in 
congratulating you for your foresight and leadership to address 
these issues. We don't want to be having this hearing after an 
incident occurs.
    I will try to adhere to Shakespeare's rule on public 
speaking: Stand up to be seen, speak loudly to be heard, and 
sit down to be appreciated.
    [Laughter.]
    So I will try to be brief, and I am already seated.
    As discussed, radicalization has manifested itself in a 
series of terrorist attacks and activities, such as those in 
Madrid, London and the operations thwarted in Canada. Though Al 
Qaida in its classic form is now a degraded entity, it has 
franchised itself across the globe. These groups are prepared 
to act locally and largely independently.
    And we are now seeing the emergence of a leaderless 
movement, marked significantly by self-enlistment and taking 
its inspiration from ``Al Qaida classic'' to join the global 
Salafi jihad.
    The Internet has fueled this development, wherein chat 
rooms have sort of replaced the smoke-filled bars, in essence 
building a virtual umma.
    Ironically, it is when homegrown groups attempt to reach 
out to Al Qaida that they have been caught in key instances. 
And fortunately, these groups have not yet attained a higher 
level of competence.
    It is essential to better understand the life cycle of the 
terrorists, specifically the process by which an individual 
becomes motivated to listen to radical ideas, read about them, 
enlist oneself or respond to terrorist recruiting efforts, and 
ultimately act upon those ideas, from sympathizer to activist 
to indiscriminate violence.
    Together with my colleagues at the University of Virginia, 
particularly Dr. Greg Saathoff, we have just co-chaired a task 
force on prison radicalization, which we released yesterday on 
the other side of the U.S. Capitol. My remarks today will focus 
on the findings of that group.
    But I should say that it was a request to brief the 
chairman and ranking members of this committee that actually 
led us, in a closed-door session, and reinforced our belief 
that a task-force study was sorely needed.
    Our dedicated volunteer group did a deep dive into the 
issue and brought to bear a range of perspectives on the issue. 
We looked at the challenge through the distinct lenses of imams 
and chaplains, officials at all levels of government, scholars 
of religion, and behavioral science experts, and of course the 
more traditional law enforcement and intelligence perspective, 
and integrated these views into a prism, so as to come up with 
effective, multidimensional recommendations for action.
    To put things in context, prisons have always been an 
incubator for radical ideas, in part because they are the 
captive audience. Examples run the gamut over time and 
geographic space, from Hitler, to Stalin, to Bosnia's Arkan, to 
the spiritual philosopher of Al Qaida, Sayyid Qutb, on to al-
Zarqawi.
    Of course religious radicalization is not unique to Islam 
and remains the exception, rather than the rule, irrespective 
of the faith at issue.
    To date, select cases, from the well-known, such as Richard 
Reid, the new Folsom Prison case, and Sheik Rahman, to the 
lesser-known, such as El Rukn or the extremist Christian group 
Covenant, Sword and Arm of the Lord, have revealed connections 
between former prisoners and terrorism. Each held the potential 
to be a high-consequence event, and authorities have attested 
that these cases appear to be just the tip of the iceberg, 
though they cannot discuss ongoing investigations in great 
detail.
    The potential scope of our challenge is considerable. 
America's prison population is the world's largest, at over 2 
million. Our incarceration rate is the world's highest. Ninety-
three percent of U.S. inmates are in state and local prisons 
and jails, not at the federal level.
    The figures in California alone are staggering. Facilities 
are hugely overcrowded, operating at 200 percent capacity. 
Wardens, understandably, have their hands full dealing with 
day-to-day operations and safety issues alone. And prisoners 
with radical Islamic religious views often conduct themselves 
as model prisoners, so wardens and other prison staff, who are 
already overburdened, may have little incentive to focus on 
these inmates.
    Despite such overstretch, California officials have 
demonstrated an impressive level of resolve and commitment to 
countering prisoner radicalization. Arizona and New York have 
also been particularly forward-leaning in this approach.
    However, even those that are proactive, most of the 
successes, one would argue, are due to luck, such as the new 
Folsom Prison case where it was one of the perpetrators 
dropping a cell phone that unraveled a much larger plot.
    In short, strides have been made, but disconnects remain. 
Crucially local information is yet to fully find its way into 
regional and national intelligence processes and networks, and 
strategic analysis is not yet fused with the investigatory 
efforts.
    Complicating this matter, this is currently no database to 
track inmates after release or to identify inmates associated 
with radical groups, and no comprehensive database exists to 
track religious service providers who are known to expose 
inmates to radical religious rhetoric.
    Compounding the threat posed by Islamic radicalization is 
the established presence of violent gangs and extremist groups 
in prisons. Some of these groups have found common cause with 
extremist Muslim groups, who share their hostility toward the 
U.S. government and Israel--the ``enemy of my enemy is my 
friend'' effect.
    It should go without saying that religion may have a 
tremendously constructive impact upon inmates, imbuing them 
with a sense of discipline and purpose, among other things. 
Prisoners obviously also have a legal right to practice.
    Unfortunately, a shortage of suitably qualified Muslim 
religious services providers has opened the door to 
underqualified and radical chaplains to enter prisons. In fact, 
prisoners have often taken on this role themselves altogether.
    Their captive audience may, in large part, have had no 
prior exposure to Islam and no way to put the radical message 
into context. The only version some may ever learn is the cut-
and-paste version of the Koran that incorporates violate prison 
gang culture known as Jailhouse Islam, or Prislam, from gang 
leaders or other influential inmates.
    Moreover, there is no consistently applied standard or 
procedure to determine what reading material is appropriate at 
the state level, at the local level. Radical literature and 
extremist translations and interpretations of the Koran--we 
talked about the Noble Koran--has been distributed to prisoners 
by groups suspected or known to support terrorism.
    Nor is this unique to the United States. In fact, I think 
we have an opportunity to get in front of the problem, not 
behind it.
    Let me, just in closing, I would be delighted to get into 
greater detail on why we think we need a commission. But we 
need broader avenues of dialogue with the Muslim community. 
They need to be identified and pursued to foster mutual 
respect, trust and understanding. To confine the discussion of 
these issues to terrorism alone is bound to encourage a 
defensive posture and impede a constructive dialogue.
    Prison radicalization is but one subset of the battle of 
ideas, and it is only by challenging ideas with ideas, both 
within and beyond prison walls, that we can succeed and 
moderate some of these views.
    [The statement of Mr. Cilluffo follows:]

                Prepared Statement of Frank J. Cilluffo

    Chairman Simmons, Representative Lofgren, and distinguished members 
of the Subcommittee, it is a privilege to be afforded the opportunity 
to testify before you today. Your foresight and leadership in examining 
the homeland security implications of radicalization is to be 
commended.
    Some months ago, I was asked to brief the Chairmen and Ranking 
Members of the House Homeland Security Subcommittees on the more 
specific issue of prisoner radicalization in the United States. That 
briefing, provided jointly with Dr. Gregory Saathoff, a leading 
behavioral science expert, was well attended by both sides of the aisle 
and the discussion, which took place in a closed door session, was a 
spirited one. Congressional leadership and political will in connection 
with this particular challenge has been manifestly evident, and you 
should all be recognized for your efforts in this regard. Proactive 
consideration of this challenge and a carefully calibrated response, 
implemented in timely fashion, will bolster national security. Getting 
ahead of the curve requires the courage to assume risk, and those who 
embrace risk in the interest of furthering public safety should be 
supported in their efforts to serve the public interest. Let us not 
wait until we are faced with the need to manage a crisis.
    That briefing, taken together with other conversations I have had 
with a bipartisan group of Representatives, served to reinforce my 
belief, as well as Dr. Saathoff's, that there was a real need to 
explore the question of prisoner radicalization in order to sharpen our 
sense of the nature and scale of the problem, and thereby serve as a 
spur to action. Against this background, The George Washington 
University's Homeland Security Policy Institute (HSPI) and the 
University of Virginia School of Medicine's Critical Incident Analysis 
Group (CIAG) blended their expertise and networks, and jointly convened 
a dedicated volunteer task force of subject matter experts to examine 
radicalization in prisons from a multidisciplinary perspective. Rather 
than studying the issue through a single lens or solely from a 
traditional law enforcement and/or intelligence perspective, the task 
force interviewed and received briefings from imams and chaplains, and 
brought together officials at all levels of government with scholars of 
religion and behavioral science experts. The aim was to integrate 
insights from each of these professions (received under ``Chatham House 
rules'' and in the experts' individual rather than institutional 
capacity), and recast their distinct lenses on this issue as a prism. 
Each community represented is a critical part of the solution and no 
analysis would be complete without the benefit of their insights and 
input. The task force report is a product of its members' collective 
talents and I would be remiss if I did not express my gratitude for 
their willingness to join in this endeavor and share their valuable 
insights.
    What follows is, in large part, a distillation of the most salient 
findings generated by this unique partnership, between HSPI and CIAG, 
on the subject of religious radicalization of inmates in US prisons. To 
set these remarks in broader context, however, I turn first to the 
matter of radicalization writ large. Prison radicalization is, of 
course, a subset of the more general phenomenon of radicalization that 
has manifested itself in a series of terrorist attacks and activities 
including the bombings in Madrid (3/11) and London (7/7), and 
operations recently uncovered in Canada. The larger terrorist threat is 
the tapestry against which prisoner radicalization must be studied, but 
that fabric is ever changing. Al Qaeda in its classic form is now a 
degraded entity, with many of its remaining key figures on the run. 
However, it has franchised itself across the globe, with its 
franchisees prepared to act locally, and largely independently--in 
effect a network of networks. Having transitioned from Chief Financial 
Officer to Chief Spiritual Officer, Bin Laden has spawned and 
successfully marketed the Al Qaeda ``brand.'' Recently, we have seen 
the emergence of a leaderless movement, marked significantly by self-
enlistment, and taking its inspiration from ``Al Qaeda classic'' to 
join the global Salafi jihad. The internet has fuelled this development 
by encouraging and accelerating the formation of stronger initial bonds 
inside chat rooms than would occur through face-to-face interaction, 
and facilitating the re-affirmation of aberrant attitudes--building in 
essence a virtual umma. Ironically, it is when homegrown groups attempt 
to reach out to Al Qaeda that they have been caught in key instances; 
fortunately, these groups have not yet attained a higher level of 
competence. The internet has also provided an avenue for participation 
in jihad for women who could not otherwise become involved.\1\
---------------------------------------------------------------------------
    \1\ Interview with Scott Atran, Professor of Psychology and Public 
Policy, University of Michigan.
---------------------------------------------------------------------------
    Whether beyond prison walls or inside them, it is essential to 
better understand the life cycle of a terrorist--specifically, the 
process by which an individual becomes motivated to listen to radical 
ideas, read about them, enlist oneself or respond to terrorist 
recruiting efforts, and ultimately, undertake terrorist activity.
    In the prison context, the process of radicalization plays out in a 
particular way. For present purposes, the term ``radicalization'' 
should be taken to mean ``the process by which inmates. . .adopt 
extreme views, including beliefs that violent measures need to be taken 
for political or religious purposes.''\2\ Inmates in general are 
particularly vulnerable to radical religious ideology due to their 
anti-social attitudes and the need to identify with other inmates 
sharing the same background, beliefs or ethnicity. Radical rhetoric may 
exploit the inmate's vulnerabilities and lack of grounded religious 
knowledge by providing validation to the inmate's disillusionment with 
society and creating an outlet for their violent impulses. Possible 
psychological factors increasing vulnerability include a high level of 
distress, cultural disillusionment, lack of intrinsic religious beliefs 
or values, dysfunctional family system or dependent personality 
tendencies.\3\ These factors are prevalent among prison populations. 
From an ideological standpoint, radical religious groups allow the 
inmates to demonize their perceived enemies and view themselves as 
righteous. Prisons are inherently violent environments and therefore 
fertile ground for radicalization. Inmates are drawn to radical groups 
out of the need for protection or to gain status amongst other 
prisoners.\4\
---------------------------------------------------------------------------
    \2\ A Review of the Federal Bureau of Prisons' Selection of Muslim 
Religious Services Providers, Department of Justice, Office of The 
Inspector General, April 2004.
    \3\ S. Gerwehr and S. Daly, Al-Qaida: Terrorist Selection and 
Recruitment, (McGraw-Hill Homeland Security Handbook, 2006), p. 84.
    \4\ HSPI-CIAG Task Force Report, Out of the Shadows: Getting Ahead 
of Prisoner Radicalization (Washington, DC, September 2006), p. 4.
---------------------------------------------------------------------------
    Studies have suggested that terrorist recruitment methods are not 
always expected to yield a high number of recruits.\5\ Radical messages 
may be delivered to many prisoners with the understanding that most 
will resist radicalization. Even if the radical message resonates with 
only a few inmates, they could then be targeted for more intense one-
on-one instruction. How an inspired sympathizer turns into an activist 
who then goes on to kill innocents is the crucial question. Only a few 
who become radicalized go on to actively pursue terrorism, and an 
important resource for combating terrorism would be to determine which 
factor or factors that exist in prison influence some radicalized 
prisoners to make the specific leap from radical beliefs to violence in 
the name of those beliefs. Bear in mind, however, that a single 
radicalized inmate can be a significant threat.
---------------------------------------------------------------------------
    \5\ Gerwehr and Daly, supra, note 3.
---------------------------------------------------------------------------
    Prison radicalization is not a new threat. Prisons have always been 
an incubator for radical ideas, in part because there is a captive 
audience. Recall that Hitler wrote Mein Kampf while in prison; and 
Stalin, while himself incarcerated, recruited inmates to power the 
Bolshevik Revolution. Zeljko Raznatovic, the founder of Arkan's Tigers, 
took part in the ethnic cleansing of Bosnia in the 1990s, was just a 
petty criminal until he spent time in Western Europe's prisons. The 
spiritual philosopher of Al Qaeda, Sayyid Qutb, wrote the radical 
Islamist manifesto Ma'alim fi al-Tariq (Milestones Along the Road) 
while in an Egyptian prison; and Abu Musab al-Zarqawi, initially merely 
a petty criminal, recruited followers while imprisoned. Of course, 
religious radicalization is not unique to Islam--and remains the 
exception rather than the rule, irrespective of the faith at issue.
    To date, select cases that have revealed connections between 
former/current prisoners and terrorism have each held the potential to 
be a high-consequence event:
        <bullet> In 1985, a group called El Rukn brokered a deal with 
        the Libyan government to carry out attacks on US police 
        stations, government facilities, military bases, and passenger 
        airplanes in exchange for $2.5 million and asylum in Tripoli. 
        El Rukn was founded by a Chicago gang leader who converted to 
        Islam while imprisoned in 1965.
        <bullet> When the compound of the extremist Christian group 
        Covenant, Sword and Arm of the Lord (CSA) was raided, 
        authorities discovered landmines, US Army anti-tank rockets, 
        and a large amount of cyanide apparently intended to poison a 
        city's water supply. CSA's founder had earlier received 
        spiritual tutelage in prison from a fellow inmate--a leader in 
        the radical ``Christian Identity'' movement.
        <bullet> John King and Russell Brewer were convicted of 
        murdering African-American James Byrd Jr. in 1998. The two had 
        entered prison as petty criminals, but left startlingly 
        transformed, having joined a white supremacist group and 
        covered their bodies with racist tattoos. King's own attorney 
        ``. . .admitted the significance of the prison experience. 
        `What I do know is [King] wasn't a racist when he went in. He 
        was when he came out'.'' \6\
---------------------------------------------------------------------------
    \6\ Anti-Defamation League, Dangerous Convictions: An Introduction 
to Extremist Activities in Prisons (2002), p. 2.
---------------------------------------------------------------------------
        <bullet> Richard Reid, apprehended while attempting to detonate 
        a bomb on a US-bound commercial flight in December 2001, is 
        believed to have been radicalized by an imam while incarcerated 
        in Britain.
        <bullet> A recently foiled plot to attack numerous government 
        and Jewish targets in California was devised inside New Folsom 
        State Prison. Two men implicated in the scheme were recruited 
        from a local mosque by a former prisoner.
        <bullet> Sheik Omar Abdel Rahman, the emir of Egypt's Gama'at 
        al Islamia (the Islamic Group), is the radical cleric who 
        plotted to bomb New York City landmarks in 1993. Upon being 
        sentenced to a life term, he issued a decree from federal 
        prison, declaring of Americans that ``Muslims everywhere 
        [should] dismember their nation, tear them apart, ruin their 
        economy, provoke their corporations, destroy their embassies, 
        attack their interests, sink their ships,. . .shoot down their 
        planes, [and] kill them on land, at sea, and in the air. Kill 
        them wherever you find them.'' Osama bin Laden later claimed 
        that this fatwa provided religious authority for the 9/11 
        attacks. Abdel Rahman has continued trying to run his 
        organization while incarcerated--and three defendants were 
        convicted of terrorism charges in 2005 for helping him do so.
    These cases would appear to be just the tip of the iceberg, 
however. According to authorities who briefed the task force, numerous 
other examples exist, but due to the sensitive nature of ongoing 
investigations, cannot be discussed publicly in detail. In short, we 
have snippets of data but do not currently have a sense of how these 
various ``pixels'' fit together as a mosaic--the big picture as it now 
stands is fuzzy, and needs to be brought into focus in order for 
effective response measures to be formulated and implemented.
    That said, officials in California confirm that ``for every rock 
they turn over'' in this context, they ``find something there.'' While 
resource and personnel constraints have inhibited further investigation 
of many of those leads, at least the bounds of what we do not know may 
be apparent to those authorities. Potentially even more disturbing is 
the further scenario in which we do not know what we do not know. In 
short, there is a dearth of data in this area which inhibits a fulsome 
assessment of the threat posed by religious radicalization of inmates 
in the US correctional system. Further, social scientists and other 
academicians interested in examining the issue have been largely 
unsuccessful to date in gaining access to prison facilities to conduct 
research, and prisoner radicalization therefore remains a poorly 
understood phenomenon.
    The task force set out to determine what is currently known about 
radicalization and recruitment in the US prison system at the federal, 
state and local levels. From the outset, however, I should emphasize 
that the problem is by no means unique to the US. In Europe, for 
instance, the number of Muslim inmates has been growing for decades, 
and their numbers incarcerated are not in proportion to their 
representation in the general population.\7\ By comparison to American 
Muslims, Muslims living in Europe are more socio-economically 
marginalized, and therefore more vulnerable to radical messages, 
religious and otherwise. Indeed, the Washington Post recently reported 
that whereas Muslims living in the United States ``tend to be more 
educated'' and ``have higher incomes than the average American,'' the 
reverse is true for Muslims in Britain.\8\
---------------------------------------------------------------------------
    \7\ N.H. Ammar et al., ``Muslims in Prison: A Case Study from Ohio 
State Prisons,'' International Journal of Offender Therapy and 
Comparative Criminology, Volume 48, Number 4 (2004), pp. 416-17.
    \8\ 59% of US Muslims hold a Bachelor's degree or more, versus 27% 
in the US overall; and 52% of US Muslims earn $50,000 or more, versus 
45% in the US overall. Geneive Abdo, ``America's Muslims Aren't as 
Assimilated as You Think,'' Washington Post (August 27, 2006).
---------------------------------------------------------------------------
    The European experience is relevant to our own in at least two 
ways, though: as a containment challenge and a learning opportunity, 
respectively. First, inmates radicalized in Europe may travel to the US 
or participate in networks with individuals inside the US; and indirect 
internet access, which may be accorded to some prisoners in the US, 
facilitates such cross-border networking. Second, and more 
encouragingly, the European experience offers us a chance to learn and 
adapt lessons, and craft effective tailored strategies to the US 
context before the problem manifests itself here to the extent that it 
has overseas. In point of fact, the problem is a global one and, moving 
forward, information-sharing between and among the US and other 
countries will be crucial.
    Within the US, the potential scope of the challenge is 
considerable: America's prison population is the world's largest at 
over two million, and our incarceration rate is the world's highest at 
701 out of every 100,000.\9\ The overwhelming majority of these 
inmates, that is ninety-three percent, are in state and local prisons 
and jails.\10\ As a result, the threat of prisoner radicalization gains 
even greater salience here than at the federal level. The figures for 
California alone are staggering. There, thirty-three adult prisons 
contain an inmate population in excess of 170,000. With facilities 
hugely overcrowded--operating at 200% capacity--staffing, management, 
funding, and logistics pose a tremendous challenge, and wardens there 
understandably have their hands full dealing with day-to-day operations 
alone. All of these inmates must be fed, clothed, housed and, most 
importantly, supervised and secured. Concerned with dangerous inmates 
and hardened criminals, prison officials simply do not have the 
manpower to oversee every prayer service or investigate every lead. 
Further, prisoners with extremist religious views often conduct 
themselves as model prisoners, hence, wardens (and other prison staff) 
who are already overburdened may have little incentive to focus on 
these inmates.
---------------------------------------------------------------------------
    \9\ Roy Walmsley, World Prison Population (5th Ed.) (Home Office 
Publication 234, 2003).
    \10\ Department of Justice, Office of Justice Programs, Bureau of 
Justice Statistics, Prison Statistics, August 15, 2006; http://
www.ojp.usdoj.gov/bjs/correct.htm (September 13, 2006).
---------------------------------------------------------------------------
    Notwithstanding such overstretch, officials at the state level have 
demonstrated an impressive level of resolve and commitment to 
countering prisoner radicalization. The issue has been identified as a 
priority, and a concerted investigative effort is underway in 
California (within the bounds of prevailing resources). A deliberate 
effort to identify and remedy key gaps in the state's prevention and 
response posture has given rise to a number of noteworthy initiatives 
including pilot programs intended to draw on the expertise developed 
over time by institutional gang investigators, and model terrorism and 
training awareness courses under development for correctional officers. 
State liaison officers posted at each prison meet monthly to share 
information across facilities. Beyond the prison-to-prison network, the 
long term and crucial process of building relationships and trust 
between and among officials at different levels of government is 
furthered by monthly meetings of a collective including prison staff, 
the Los Angeles County Sheriff's Department (LASD), the Los Angeles 
Police Department, the FBI, the Drug Enforcement Agency, and the 
Assistant US Attorney for the area. Notably, California is not alone in 
doing good work--Arizona and New York have also been forward-leaning in 
their approach to this problem, and they too should be commended for 
their proactive efforts.
    Even in California, however, publicized successes may be due in no 
small part to luck. For instance, while the LASD in conjunction with 
the area's Joint Terrorism Task Force managed to foil the New Folsom 
plot referenced above, it was the fact that one of the plotters 
carelessly left a cell phone behind during a robbery that provided the 
key break in the case. While strides have been made in the wake of this 
episode, disconnects remain--crucially, local information has yet to 
fully find its way into regional and national intelligence processes 
and networks, and strategic analysis is not yet fused with 
investigatory efforts so that synergies emerge. Significant cultural 
obstacles also hinder the information-sharing process, highlighting 
further the complexities of working across jurisdictions. Bureaucratic 
infighting continues to hamper information sharing even between and 
among federal agencies, in part because of differing views on 
tradecraft--while some agencies are inclined to string people up at a 
relatively early stage, others are predisposed to stringing them along 
in order to tease out additional valuable information.
    The implications are deeply disturbing. Radical preachers might be 
caught in one prison, fired, and simply move on to work at another 
prison. Radicalized prisoners might be transferred between prisons, 
giving them an opportunity to spread their message to new audiences, 
without prison officials on the receiving end knowing the threat posed 
by their new charges. Radical groups might be communicating between 
different prisons, coordinating their efforts, without prison officials 
being aware of links between them. The importance of information and 
intelligence sharing cannot be overstated, in part because it is 
essential that operations be intelligence-driven. Complicating the 
matter, there is currently no database to track inmates after they have 
served their sentence or to identify prisoners associated with radical 
groups. Further, there is no comprehensive database that tracks 
religious service providers that have exposed inmates to radical 
religious rhetoric. The sort of database that is truly needed is one 
that encompasses both the prison context and beyond, and covers who 
joins jihad, when, and how.\11\ In any case, it is critical that 
information regarding the radicalization of prisoners in state, local, 
and federal correctional facilities be included as part of the body of 
information shared through the Information Sharing Environment called 
for by the Intelligence Reform and Terrorism Prevention Act of 2004.
---------------------------------------------------------------------------
    \11\ Scott Atran and Marc Sageman, ``Connecting the Dots,'' 
Bulletin of the Atomic Scientists (August 2006).
---------------------------------------------------------------------------
    Compounding the threat posed by Islamic radicalization is the 
established presence of violent gangs and extremist Christian groups in 
prisons. Gangs have a long history of organizing, recruiting, and 
violence within prisons, giving Muslim extremist groups an opportunity 
to learn lesson organizational lessons. Many terrorist groups use 
crime, including extortion, kidnapping, robbery, document fraud, drug 
smuggling and arms trafficking to fund their enterprises,\12\ offering 
an opportunity for the groups to cooperate to their mutual benefit. 
More ominous is the potential for cooperation with right-wing Christian 
extremist groups, which not only have a history of terrorist attacks on 
US soil, but also a longstanding relationship with prisoners. These 
groups, which ascribe to ``Christian Identity'' ideology, include Posse 
Comitatus, The Order, and Aryan Nations. Some of these groups have 
found common cause with extremist Muslim groups, who share their 
hostility towards the US government and Israel--the ``enemy of my enemy 
is my friend'' effect. Most recently, a number of white supremacist 
groups vocalized their support for Hezbollah. Furthermore, radical 
Islamic groups have already begun adapting practices of gangs and 
extremist Christian groups. Where White Supremacist gangs use ancient 
runes or Masonic symbols as secret codes, radical Muslim groups 
increasingly use Arabic language and script to communicate in secret 
while imprisoned.
---------------------------------------------------------------------------
    \12\ Steven C. McCraw, Assistant Director, Office for Intelligence, 
Federal Bureau of Investigation, ``Narco-Terrorism: International Drug 
Trafficking and Terrorism--A Dangerous Mix,'' Testimony before the 
Committee on the Judiciary, U.S. Senate, delivered on May 20, 2003.
---------------------------------------------------------------------------
    A key factor in the growth of prisoner radicalization is the 
shortage of suitably qualified Muslim religious service providers 
available for work in prisons. Prisoners have a legal right to practice 
their religion, and prisons are legally bound to provide for inmate 
worship. This has opened the door to under-qualified and, dangerously, 
radical preachers to enter prisons. Strikingly, the Federal Bureau of 
Prisons (FBOP) currently employs only ten Muslim chaplains for the 
entire federal prison system, while the California state prison system 
employs twenty Muslim chaplains for its 300,000 prisoners and parolees. 
This handful of chaplains cannot possibly tend to the religious needs 
of every Muslim prisoner or oversee every religious service. As a 
result, prisoners often take on the role of religious service providers 
and prayer leaders. A 2004 survey of 193 wardens of state correctional 
facilities showed that half the institutions allowed inmates themselves 
to act as spiritual leaders.\13\ Radical prisoners who volunteer for 
religious functions and assume religious authority benefit from a 
captive audience which may, in large part, have had no prior exposure 
to Islam, and no way to put the radical message into context. Hence, 
the only version of their religion that they have ever known is a 
``cut-and-paste'' version of the Qur'an that incorporates violent 
prison gang culture, known as ``Jailhouse Islam'' or ``Prislam''. (It 
should go without saying, however, that in general terms religion may 
have a tremendously constructive impact upon inmates, imbuing them with 
a sense of discipline and purpose, among other things). Radical 
prisoners who want the role of religious leader for themselves have 
also been known to intimidate suitably qualified religious service 
providers into ceding their role.
---------------------------------------------------------------------------
    \13\ George W. Knox, ``The Problem of Gangs and Security Threat 
Groups in American Prisons Today: Recent Research, Findings From the 
2004 Prison Gang Survey,'' (National Gang Crime Research Center, 2005)
---------------------------------------------------------------------------
    The FBOP has attempted to deal with this problem by instituting new 
standards for prison religious service providers, and identifying a 
national organization that could vet religious service providers, 
ensuring a certain level of education and experience, as well as 
weeding out potential radicals who would incite violence. However, 
there has been no such national organization identified by the FBOP. As 
a result, prayer leaders and religious service providers only require 
endorsement by local organizations, making it more difficult to 
identify and track radical preachers, who often move between prisons 
freely. The situation at the state level is by no means more 
comforting. By way of illustration, there is no standard policy for 
vetting religious service providers in California prisons, leading 
potentially to thirty-three different policies in thirty-three 
different prisons. Without standard policies, it is possible for a 
chaplain to be removed from one prison for spreading radical ideas and 
inciting violence, only to find work at another prison, with officials 
none the wiser.
    Due to the lack of proper religious authorities and academically 
credentialed experts available to review all materials entering the 
prison system, no consistently applied standard or procedure exists to 
determine what reading material is appropriate. In the absence of 
monitoring by authoritative Islamic chaplains, materials that advocate 
violence have infiltrated the prison system undetected. The lack of 
individuals with a thorough knowledge of Islam, the Qur'an and other 
religious materials entering prisons offers an opportunity for 
recruiters outside of prisons to paint a violent picture of Islam. 
Radical literature and extremist translations and interpretations of 
the Qur'an have been distributed to prisoners by groups suspected or 
known to support terrorism. The use of Arabic language materials 
obscures the content to untrained prison officials. Radicals often do 
not even need to rely on secret codes or foreign languages to smuggle 
in radical tracts. The Noble Qur'an, a Wahhabi/Salafi version written 
in English, is widely available in prisons. A recent review in The 
Middle East Quarterly characterized this version as reading more ``. . 
.like a supremacist Muslim, anti-Semite, anti-Christian polemic than a 
rendition of the Islamic scripture.\14\ Of particular concern is its 
appendix, entitled ``The Call to Jihad (Holy Fighting in Allah's 
Cause).'' Another text of concern is Saeed Ismaeel's The Differences 
Between the Shee'ah and Muslims Who Follow the Sunnah, written in plain 
English. Extremist interpretations of the Qur'an use footnotes and 
supplements to lead the reader to a radical interpretation of the 
scripture. The FBOP is now requiring that Islamic teaching materials 
and study guides be prepared by Islamic chaplains who are full-time 
FBOP staff,\15\ but FBOP represents only a small fraction of the US 
prison system.
---------------------------------------------------------------------------
    \14\ Khaleel Mohammed, ``Assessing English Translations of the 
Qur'an,'' Middle East Quarterly, Volume 12, Number 2 (Spring 2005).
    \15\ Department of Justice Anti-Terrorism Efforts Since Sept. 11, 
2001. Department of Justice Fact Sheet, 5 September 2006 <http://
www.usdoj.gov/opa/pr/2006/September/06_opa_590.html>.
---------------------------------------------------------------------------
    The threat posed by prisoner radicalization does not end when 
inmates are paroled or released. Former inmates are vulnerable to 
radicalization and recruitment because many leave prison with very 
little financial or social support. To the extent that radical groups 
may draw upon funding from well-financed, extremist backers, they can 
offer much more support to released prisoners than other more 
legitimate community programs that would facilitate genuine 
reintegration into society. By providing for prisoners in their time of 
greatest need, radical organizations can build upon the loyalty 
developed during the individual's time in prison. If connections are 
made with a radicalized community group, the recently released inmate 
may remain at risk for recruitment or continued involvement in 
terrorist networks.
    Moving forward, a fundamental imperative, in my view as well as 
that of the task force, is for Congress to establish a Commission to 
investigate this issue in depth. An objective risk assessment is 
urgently needed in order to better understand the nature of the threat, 
and to formulate and calibrate proactive prevention and response 
efforts accordingly.\16\
---------------------------------------------------------------------------
    \16\ It should be noted that the FBI and the Department of Homeland 
Security are also conducting their own strategic assessments regarding 
the scope of radicalization and recruitment in US prisons from a law 
enforcement-centric point of view.
---------------------------------------------------------------------------
    For a proper appreciation of the proposed Commission and its course 
of work, two additional caveats are essential. First, all relevant 
perspectives must feed into the process--as emphasized above, solutions 
in this context must be reflective of the complexity of the problem 
and, therefore, no one profession alone is equipped to analyze and 
recommend change. Law enforcement must come together with a range of 
non-traditional partners in order to get us to where we need to be on 
this issue. Second, it is crucial that balance be injected into this 
exercise, specifically, that the practice of religious freedom be given 
fulsome consideration and weight while means of preventing the spread 
of radical ideology in a religious context are studied.
    While the task force would not presume to instruct the Commission 
on how to go about doing its work, we would urge that the following 
core issues be accorded priority status:
    As a corollary to assessing the risk posed by the influence of 
radical groups within the prison system, there should be a companion 
assessment of current levels of information sharing between and among 
agencies at all levels of government involved in managing inmates and 
monitoring radical groups.
    Equally crucial is the identification of steps to ensure the 
legitimacy of Islamic endorsing agencies so as to ensure a reliable and 
effective process of providing religious services to Muslim inmates.
    Steps to effectively reintegrate former inmates into the larger 
society should also be identified, with an eye to diminishing the 
likelihood that former prisoners will be recruited by radical groups 
posing as social service providers, or act upon radical tendencies 
learned behind bars.
    Fortunately, we are not building entirely from scratch: lessons can 
and should be learned and adapted from present and past efforts to 
combat gangs and right-wing extremists in prisons. Existing prison 
programs designed to prevent radicalization and recruitment or to 
disrupt radical groups--whether at the local, state, federal, or 
international level--should be evaluated to determine a set of best 
practices that can be used to develop a comprehensive strategy to 
counter radicalization. Knowledge must be translated into action across 
the board. Awareness, education, and training programs must be 
developed for personnel who work in prison, probation, and parole 
settings.
    Finally, broader avenues of dialogue with the Muslim community 
should be identified and pursued to foster mutual respect and 
understanding, and ultimately trust. To confine the discussion to 
issues of terrorism alone is bound to encourage a defensive posture and 
impede constructive dialogue. Prison radicalization is but one subset 
of the battle of ideas, and it is only by challenging ideas with 
ideas--both within and beyond prison walls--that hearts and minds may 
ultimately be changed, and radical ideas moderated. Just as we cannot 
win the global war on terrorism abroad by military means alone, we will 
not win the battle against extremism domestically through law 
enforcement alone.
    Thank you for the opportunity to testify before you today. I would 
also like to recognize the Subcommittee and their staff for their 
professionalism. Please note that I am submitting for the record our 
HSPI-CIAG Prisoner Radicalization Task Force Report entitled Out of the 
Shadows: Getting Ahead of Prisoner Radicalization. I would be pleased 
to try to answer any questions that you may have.

    Mr. Simmons. I thank you very much. And I particularly 
appreciate that conclusion. I think it is excellent. And I am 
glad that the scheduling of this hearing stimulated work on the 
other side of the Hill. Glad to hear that.
    Mr. Woodward?

     STATEMENT OF JOHN WOODWARD, ASSOCIATE DIRECTOR, RAND 
                   INTELLIGENCE POLICY CENTER

    Mr. Woodward. Good afternoon. I thank the distinguished 
chairman, ranking member, and members of this subcommittee for 
inviting me to testify about homeland security challenges, with 
reference to a different aspect of this problem: how the U.S. 
government can make better use of biometric technologies to 
protect the nation in a matter consistent with American civil 
liberties.
    I base my testimony on my RAND research, as well as my 
experience from 2003 to 2005 as director of the Department of 
Defense Biometrics Management Office, the organization 
responsible for planning, coordinating and implementing the 
department's biometric activities.
    Today I want to make two basic points with respect to 
biometrics: First, the U.S. government is currently using 
biometric technologies in various ways to make the nation 
safer. Second, we can and should make better use of these 
technologies for homeland security purposes.
    With respect to current U.S. government use, it is well 
established that biometric technologies are a significant tool 
contributing to homeland and national security. They are a 
significant tool because, among other things, they help 
authorities answer the critical question, ``Who is this 
person?''
    For instance, by comparing biometric data collected from a 
person to other biometric records in a database, we can conduct 
what is called a one-to-many search, thus matching and linking 
that person to, for example, previously used identities or 
activities.
    Of particular importance for this hearing, these biometric 
processes work in a way that is race-neutral, ethnicity-neutral 
and religion-neutral. In this context, three U.S. government 
databases, all based on the biometric modality of fingerprint, 
help make these matches and links possible.
    These databases are: the Federal Bureau of Investigation's 
Integrated Automated Fingerprint Identification System, 
operational since 1999, which contains the 10-rolled 
fingerprints and facial photographs of approximately 52 million 
people arrested in the United States, as well as the 
fingerprints of approximately 20,000 known or suspected 
terrorists.
    The second database is the Department of Homeland 
Security's Automated Biometric Identity System, which contains 
approximately 50 million fingerprints, most in a two-digit, 
flat, fingerscan format, and facial photographs from various 
foreigners, to include visitors to the United States under the 
U.S.-VISIT program, recidivists, watchlisted persons, and 
asylum seekers.
    The third database, the Department of Defense Automated 
Biometric Identification System, operational since 2004, which, 
in close cooperation with the FBI, enables automated searching 
of 10-rolled fingerprint data and includes facial photographs 
taken from detainees and other persons of interest in places 
like Iraq.
    The U.S. government's use of biometric technologies has 
identified individuals who pose a threat to the nation's 
security. Let me share some examples with you.
    A fingerprint match which identified Mohammed al-Khatani, 
the person whom the 9/11 Commission described as the 20th 
hijacker. Fingerprint matches which have identified persons in 
U.S. military custody in Iraq as: persons who, because of their 
prior activities, pose significant threats to the well-being of 
U.S. forces; people with prior U.S. criminal records; criminals 
wanted in the United States; recidivists, many of whom were 
previously taken into military custody using alias; as well as 
persons of interest for other reasons. Fingerprint and face 
matches have also identified person attempting to enter the 
United States as a security concern.
    All of these biometric matches provided helpful information 
and, in some cases, valuable intelligence to U.S. authorities. 
Many of these matches, including al-Khatani's, occurred because 
of extensive DOD, FBI and DHS cooperation. A small but 
significant number of these matches no doubt saved American 
lives.
    With respect to privacy and civil liberties, I have to say, 
Mr. Chairman, your timing for the hearing is impeccable, 
because the U.S. government, just yesterday, released several 
white papers, including one on biometrics and privacy in which 
the government discusses its approach to the use of biometric 
technologies.
    And I have my visual aid for you. I recommend it to the 
subcommittee and staff.
    Mr. Simmons. Without objection, we will insert it into the 
record of the hearing.
    Mr. Woodward. The U.S. government has made commendable 
progress with respect to effective use of biometrics. However, 
more can and should be done. Specifically, I call the 
subcommittee's attention to two key areas where the U.S. 
government must improve: identity management practice and 
information sharing environment, ISE.
    Identity management practice applies to any number of 
homeland security applications, for example: the foreigner 
seeking a U.S. visa; the registered traveler seeking to confirm 
her bona fides for travel; or the U.S. government employee, 
contractor or military member needing a common identity 
credential.
    In general, identity management practice should focus on 
helping a person establish her identity through a process that 
would include robust biometric vetting--that is, the one-to-
many search of biometric data against relevant databases--and 
then helping the person to verify that identity through what 
would be biometric verification, a one-to-one comparison, to 
facilitate the various daily transactions that require identity 
management.
    For example, in the case of a foreigner seeking a U.S. 
visa, the visa seeker's biometric data can be searched against 
the FBI, DHS, DOD databases for any matches, as well as the 
database of visa applicants to ensure that that individual has 
not previously applied under a different identity.
    By complementing the identity management process with a 
biometric, we make it easier for the person, particularly when 
names get confused, misspelled or misreported on watchlists of 
various sorts.
    The impartiality of biometric technologies also offers a 
significant benefit for society. While humans, for example, are 
very adept at recognizing facial features, we also have 
prejudices and preconceptions. And the controversy surrounding 
racial profiling is a case in point. Biometric systems do not 
focus on a person's skin color, hairstyle or manner of dress. 
And they do not rely on racial, ethnic or religious 
stereotypes. By using biometrics, human recognition can be free 
from any human flaws.
    With respect to the information sharing environment, this 
is an environment that still remains polluted with stovepipes, 
cultural resistance, bureaucratic inertia, absence of 
comprehensive policy, and other impediments.
    Three specific examples requiring immediate attention 
include: One, establishing a U.S. government biometrics-based 
watchlist of homeland security threats; second, sharing 
relevant biometric data with our international partners, 
particularly in light of global terrorism; and third, creating 
a net-centric approach to the biometric-based information 
sharing environment.
    A word of explanation: Too much biometric information 
sharing is currently conducted by making copies of data, 
providing those copies, sometimes on a physical medium such as 
a compact disc, to another agency. This approach, while a 
temporary expedient, leads to problems in the long run, such as 
synchronization, correction, updating, data protection, et 
cetera. We should strive for a federated, synchronized database 
system based on a pooled information sharing environment.
    Much of my testimony today has discussed fingerprints 
because that has been the biometric mainstay for our homeland 
security. However, this subcommittee should note that the 
future will be increasingly multimodal, featuring and fusing 
multiple biometric types such as fingerprint, iris, face 
recognition, voice and others. The U.S. government's identity 
management practices and information sharing environment must 
be able to respond nimbly to these technological opportunities.
    In closing, the U.S. government us of biometric 
technologies is a success story, as measured by threats 
identified, intelligence gained, and lives saved. Hopefully I 
have provided the subcommittee with suggestions you may find 
worth pursuing.
    I believe we are still in the very early stages of using 
biometric technologies for homeland security, with much more to 
do. As experience shows, the U.S. government can use this 
significant tool for protecting the nation while preserving 
civil liberties.
    Thank you for having me testify today, and I welcome your 
questions.
    [The statement of Mr. Woodward follows:]

             Prepared Statement of John D. Woodward, Jr.\1\

Introduction
    Good afternoon. I thank the distinguished Chairman, Ranking Member, 
and Members of this Subcommittee for inviting me to testify about 
homeland security challenges, with particular reference to how the U.S. 
Government can make better use of biometric technologies to protect the 
nation, in a manner consistent with American civil liberties. I base my 
testimony on my RAND research as well as my experience from 2003 to 
2005 as Director of the Department of Defense Biometrics Management 
Office, the organization responsible for planning, coordinating, and 
implementing the Department's biometric activities.\2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ I also thank Nicholas M. Orlans, a biometric subject matter 
expert, and my RAND colleagues, John V. Parachini and Michael A. 
Wermuth, for their helpful comments on earlier drafts of this 
testimony.
---------------------------------------------------------------------------
    Today, I want to make two basic points with respect to biometrics, 
which are automated methods of recognizing a person based on a 
physiological or behavioral characteristic:

        1. The U.S. Government is currently using biometric 
        technologies in various ways to make the nation safer.
        2. We can and should make better use of these technologies for 
        homeland security purposes.

Current Use
    With respect to current U.S. Government use, it is well established 
that biometric technologies are a significant tool contributing to 
homeland and national security. They are a significant tool because, 
among other things, they help authorities answer the critical question, 
``Who is this person'' For instance, by comparing biometric data 
collected from a person to other biometric records in a database, we 
can conduct what is called a ``one-to-many'' search, thus matching and 
linking that person to, for example, previously used identities or 
activities. In this context, three U.S. Government databases, all based 
on the biometric modality of fingerprint for automated searching, help 
make these matches and links possible. These are:

        <bullet> The Federal Bureau of Investigation's Integrated 
        Automated Fingerprint Identification System (FBI IAFIS), 
        operational since 1999, which contains the ten-rolled 
        fingerprints (i.e., each digit taken ``nail-to-nail'') and 
        facial photographs of approximately 52 million persons arrested 
        in the U.S., as well as the fingerprints of approximately 
        20,000 known or suspected terrorists (KSTs);
        <bullet> The Department of Homeland Security's Automated 
        Biometric Identity System (DHS IDENT), which contains 
        approximately 50 million fingerprints (most in a two-digit 
        ``flat'' finger scan format which will transition to ten 
        flats)3 and facial photographs from various foreigners to 
        include visitors to the U.S. under the US-VISIT program, 
        recidivists, watchlisted persons, and asylum seekers; and
        <bullet> The Department of Defense's Automated Biometric 
        Identification System (DoD ABIS), operational since 2004, 
        which, in close cooperation with the FBI, enables automated 
        searching of ten-rolled fingerprint data and includes facial 
        photographs taken from detainees and other persons of interest 
        in places like Iraq.
    The U.S. Government's use of biometric technologies has identified 
individuals who pose a threat to the nation's security. Examples 
include:

        <bullet> A fingerprint match which identified Mohamed Al 
        Kahtani, the person whom the 9/11 Commission described as the 
        20th hijacker.\4\
---------------------------------------------------------------------------
    \4\ The 9/11 Commission Report, The Final Report of the National 
Commission on Terrorist Attacks upon the United States (Washington, DC: 
U.S. Government Printing Office, 2004), 11, on-line at http://
www.911commission.gov/report/911Report.pdf, accessed Sept. 16, 2006. 
For an in-depth description of the Al Kahtani match, see John D. 
Woodward, Jr., ``Using Biometrics to Achieve Identity Dominance in the 
Global War on Terrorism,'' Military Review, Sept./Oct. 2005: 30--34, 
on-line as part of the RAND Reprint series at http://www.rand.org/pubs/
reprints/RP1194/, accessed Sept. 16, 2006.
---------------------------------------------------------------------------
        <bullet> Fingerprint matches which have identified persons in 
        U.S. military custody in Iraq as:

                <bullet> Persons who, because of their prior 
                activities, pose significant threats to the wellbeing 
                of U.S. forces;
                <bullet> Persons with prior U.S. criminal records;
                <bullet> Criminals wanted in the U.S.;
                <bullet> Recidivists (who had previously been in U.S. 
                military custody, often using a different name); and
                <bullet> Persons of interest for other reasons.
        <bullet> Fingerprint and face matches which have identified 
        persons attempting to enter the U.S. as a security concern.\5\
---------------------------------------------------------------------------
    \5\ [F]rom its inception [January 5, 2004] through January 5, 2006. 
. . the use of biometrics alone has allowed DHS to intercept more than 
1,011 known criminals and immigration law violators--including 
individuals wanted for murder, rape, drug trafficking, and 
pedophilia.'' See Testimony of Jim Williams, Director, US-VISIT 
Program, Department of Homeland Security, before the Senate 
Appropriations Subcommittee on Homeland Security, Jan. 25, 2006, 2, on-
line at
    http://appropriations.senate.gov/hearmarkups/
JWTestimonyFINAL.pdf#search=%22jim
      %20williams%20usvisit%20senate%20appropriations%22, accessed 
Sept. 16, 2006.
---------------------------------------------------------------------------
    All of these biometric matches provided helpful information, and in 
some cases, valuable intelligence to U.S. authorities. Many of these 
matches, including Al Kahtani's, occurred because of extensive DoD, 
FBI, and DHS cooperation. A small but significant number of these 
matches no doubt saved American lives.

Better Use
    The U.S. Government has made progress with respect to effective use 
of biometrics; however, more can and should be done. Specifically, I 
call the Subcommittee's attention to two key areas where the U.S. 
Government must improve: identity management practice and the 
information sharing environment (ISE).
    Identity management practice applies to any number of homeland 
security applications; for example, the foreigner seeking a U.S. visa, 
the registered traveler seeking to confirm her bona fides for travel, 
or the U.S. government employee, contractor, or military member needing 
a common identity credential. In general, identity management practice 
should focus on helping a person establish her identity, through a 
process that would include robust biometric vetting (i.e., the one-to-
many search against relevant databases), and then helping her to verify 
that identity, through what would include biometric verification (i.e., 
the one-to-one comparison) to facilitate the various daily transactions 
that require identity management.
    We should achieve this focus, in part, by fully leveraging existing 
biometric databases. We should also use biometrics to ``fix'' or 
``freeze'' a person's identity to defeat the use of alias identities. 
For example, in the case of a foreigner seeking a U.S. visa, the visa 
seeker's biometric data can be searched against the FBI IAFIS, DHS 
IDENT and DoD ABIS databases for any matches, as well as a database of 
all visa applicants to ensure that that individual has not previously 
applied under a different identity.
    By complementing the identity process with a biometric, we make it 
easier, or more identity user-friendly, for the person--particularly 
when names get confused, mis-spelled, or mis-reported on watchlists of 
various sorts. The impartiality of biometric technologies also offers a 
significant benefit for society. While humans, for example, are very 
adept at recognizing facial features, we also have prejudices and 
preconceptions. The controversy surrounding racial profiling is a 
leading example.
    Biometric systems do not focus on a person's skin color, hairstyle, 
or manner of dress, and they do not rely on racial, ethnic, or 
religious stereotypes. On the contrary, a typical system uses objective 
measures to recognize a specific individual. By using biometrics, human 
recognition can be freed from many human flaws. In essence we are 
enabling a person to use another convenient, impartial, reliable way to 
establish and verify who she is, and to make it more difficult for 
someone else to use her identity.
    The information sharing environment (ISE) still remains polluted 
with stovepipes, cultural resistance, bureaucratic inertia, absence of 
comprehensive policy, and other impediments. Specific examples 
requiring immediate U.S. Government attention include:
        Establishing a U.S. Government biometrics-based watchlist of 
        homeland security threats.
        Sharing relevant biometric data with our international 
        partners, particularly in light of global terrorism. The U.S. 
        Government should ask certain foreign governments to search, 
        for example, biometric data taken from individuals in places 
        like Iraq.
        Creating a ``net-centric'' approach to the biometric-based ISE. 
        Too much biometric information sharing is conducted by making 
        copies of the data and providing those copies on a physical 
        medium, such as a compact disk, to another agency. This 
        approach, while a temporary expedient, leads to problems with 
        synchronization, correction, updating, and data protection. We 
        should strive for a federated, synchronized database system 
        based on a pooled information sharing environment managed by a 
        community of interest.
    Much of my testimony today has discussed fingerprints because that 
has been the biometric mainstay for our homeland security. However, the 
Subcommittee should note that the future will be increasingly multi-
modal, featuring and fusing multiple biometric types such as 
fingerprint, iris, facial recognition, voice, and others. The U.S. 
Government's identity management practices and the ISE must be able to 
respond nimbly to these technological opportunities.

Summary
    U.S. Government use of biometric technologies is a success story, 
as measured by threats identified, intelligence gained, and lives 
saved. Hopefully, I have provided the Subcommittee with suggestions you 
may find worth pursuing. I believe we are still in the very early 
stages of using biometric technologies for homeland security, with much 
more to do. As experience shows, the U.S. Government can use this 
significant tool for protecting the nation while preserving civil 
liberties. Thank you for having me testify today. I am happy to answer 
any questions.

    Mr. Simmons. Thank you for that testimony.
    Mr. Emerson, you have been very patient. We appreciate it. 
Thank you for being here.

     STATEMENT OF STEVEN EMERSON, EXECUTIVE DIRECTOR, THE 
               INVESTIGATIVE PROJECT ON TERRORISM

    Mr. Emerson. Thank you.
    I commend you for holding this hearing today, because in 
the last 2 years we have witnessed plots, some successful, 
others not, in Australia, Canada, the United States and Europe. 
In studying the background of the homegrown plots in the United 
States, Canada, Britain and Australia over the past 3 years, 
there are certain commonalities that we can observe.
    The participants in these plots are largely first-or 
second-generation Americans or other loyal citizens in other 
countries but they come from a Middle Eastern or Southeast 
Asian ethnic origin. Suddenly, however, they become 
radicalized. And that convergence of ideology with some type of 
charismatic leader appears to be the instigator of many of the 
plots that we have witnessed.
    In the United States, the commonalities have included a 
spiritual leader, mosque attendance, an Internet connection, 
and overseas travel. The majority of these radicalized 
individuals who have become involved in plots are below the age 
of 30, and are oftentimes radicalized in private study circles 
or by individuals they meet at the mosque.
    In several instances, an older and charismatic imam or 
spiritual leader is involved, such as Ali al-Tamimi or Juma al-
Dosari in the United States.
    Certain radical Islamic groups and Islamic leaders engender 
radicalization through engendering a false sense of persecution 
and alienation in the Muslim community in the West, labeling 
the war on terror as a war on Islam.
    These conspiratorial allegations facilitate and maintain 
indigenous Islamic alienation from host governments, reinforce 
loyalty to the larger Muslim umma, and in some cases 
rationalize acts of terrorism. In fact, in nearly all of the 
post-9/11 terrorist plots, unsuccessful and successful, the 
perpetrators have claimed that they are only avenging crimes 
committed by the West against Muslims.
    One of the common denominators in the creation of homegrown 
terrorism are agents of radicalization. Primarily these have 
included radical imams in mosques or at prisons.
    Another factor and venue by which youngsters have become 
radicalized has been the Internet. Indeed, the Internet has 
become an indispensable, multifaceted operational tool for 
terrorists, in terms of psychological warfare, publicity, 
propaganda, data mining, fund-raising, recruitment and 
mobilization, bomb instruction, networking, sharing 
information, planning and coordination.
    We recently tracked a posting on a militant Islamic forum 
connected to Al Qaida about the bacterial botulinum toxin which 
causes the deadly disease known as botulism. The author of the 
post stated, ``We are lurking in wait for you. Allah will 
torment you himself or use us to do it. You can plot, but we 
are plotting as well.'' Then the author provided specific 
instructions, very clear, how to produce toxins, lethal doses, 
experiments and observations and methods of dispersion for the 
toxin.
    We have also seen that wannabe jihadists have been using 
MySpace.com. Instead of commenting on a party, telling a joke, 
or making social plans, increasing numbers, we have witnessed, 
increasingly condemn America, swear support for bin Laden or 
express graphic desires to inflict violence upon innocents in 
the United States or abroad. Some even have identified 
themselves as active terrorists and claim to have participated 
in attacks against American soldiers in Iraq, and they post 
pictures of themselves next to burn-out cars, armed with 
semiautomatic weapons.
    The common ideological denominator for jihadists is their 
susceptibility to a narrative that the U.S. government or the 
West is engaged in a war on Islam as opposed to a war against 
terrorism.
    This characterization serves to demonize the efforts of the 
United States government, or British or Australian government, 
and by extension the West, in order to demonstrate to the 
Muslim community that it is the target of an official 
discrimination campaign which ultimately serves to radicalize 
and alienate Muslims in the United States or other countries, 
creating fertile ground for extremists to operate and recruit 
followers.
    This self-victimization gives the illusion of credence to 
the allegation that the war on terrorism is simply a war 
against Islam. Therefore it is not surprising to see this 
common claim in most of the terrorist networks that we have 
witnessed since 9/11, from the Virginia jihad network to 
Operation Pendennis in Australia, that acts of violence were 
justified because of the need to avenge the atrocities 
committed against Muslims.
    We need to be sure that we are engaged in a dialogue with 
Islamic organizations, but we need to be sure that these 
organizations are not turning around and blaming the source of 
violence on the United States. We have to make sure we are not 
dealing with fake moderate groups, but genuine moderate groups.
    It was noted briefly, recently, by Prime Minister John 
Howard and Tony Blair, at their own political expense, about 
the dangers that empowering various groups that focus only on 
self-victimization, reinforcing a hatred of the West.
    The British prime minister recently stated, ``Look, we have 
got a problem even in our own Muslim communities in Europe who 
will half buy in to some of the propaganda that is pushed at it 
such as the purpose of America to suppress Islam, Britain has 
joined with America in the suppression of Islam. And one of the 
things we have got to do is stop apologizing for our own 
positions. Muslims in America, as far as I am aware, are free 
to worship. Muslims in Britain are free to worship. We are 
plural societies. It is nonsense. That propaganda is 
nonsense.''
    U.S. government programs and official engagement can 
provide only a limited amount of success. A greater effort on 
the part of the Muslim community must be undertaken to counter 
a growing trend that sees jihad as the new counterculture for a 
generation caught between two cultures that are often at odds.
    [The statement of Mr. Emerson follows:]

                  Prepared Statement of Steven Emerson

                           Executive Summary

    The radicalization of Muslim populations in Western societies has 
leapt to the forefront of homeland security concerns due to the rise in 
homegrown terrorist plots in the United States, Europe, Canada, and 
Australia. Every episode of radicalization is a unique process due, 
nonetheless these episodes often, but not always, share several 
commonalities, including, but not limited to, a charismatic spiritual 
leader, mosque attendance, an Internet connection, and overseas travel.
    Homegrown terrorism poses a challenge to law enforcement because, 
as demonstrated in the aforementioned cases, the individuals in the 
plots, prior to their radicalization, have not necessarily shown any 
evidence of extremist views, much less any connection to terrorist 
activity. They appear to lead normal lives, at times even after 
indoctrination into an extremist ideology. The examples presented 
demonstrate that there are several underlying similarities 
characterizing homegrown terrorism.
    Those involved come from an array of backgrounds, but are largely 
first or second-generation Americans with a Middle Eastern or South 
Asian ethnic origin. The significant role played by Islamic converts is 
apparent in the cases of the ``Virginia jihad network,'' the recent 
Canadian plot, the Folsom prison case, the Portland Seven and the 
London bombing cell.
    The majority of these radicalized individuals who become involved 
in such plots are below the age of 30 and are often times radicalized 
in private study circles or by individuals they meet at their place of 
worship. In several instances, an older and charismatic imam or 
spiritual leader is involved such as Ali Al-Timimi or Juma al-Dosari in 
the U.S., and in the case of the Toronto plot, by Qayyum Abdul Jamal, a 
43-year-old mosque volunteer from suburban Toronto. These homegrown 
jihadists are often well-integrated into Western society and many were 
students at American universities.
    Certain domestic radical Islamic civil society groups engender 
radicalization through spreading a false sense of persecution and 
alienation in the Muslim community in the West, labeling the war on 
terrorism as a war on Islam. These conspiratorial allegations 
facilitate and maintain indigenous Islamic alienation from host 
governments, reinforce loyalty to the larger Muslim ummah, and in some 
cases rationalize acts of terrorism. In nearly all of the post-9/11 
terrorist plots, unsuccessful and successful, the perpetrators have 
claimed that they are only avenging crimes committed by the West 
against Muslims.
    The effect the Internet has on radicalization and the formation of 
homegrown cells has increased exponentially. Signs of the influence and 
use of jihadist websites and forums are conspicuous in many homegrown 
plots around the world, including some in the United States. Experts 
around the world agree that access to the Internet is having a 
radicalizing effect on Western second-generation Muslim youths who find 
themselves divided between two cultures with contrasting value systems. 
The Internet can facilitate the entire process of the development of a 
plot from initial radicalization to the formulation of a complex and 
potentially deadly terrorist attack.

Introduction
    Terrorism is no longer only an external threat posed by foreign 
entities. Since 9/11, there is an increasing trend towards homegrown 
terrorism plotted and, in some cases, executed locally. This 
realization struck with painful clarity following the terrorist attacks 
in London in July 2005 and the foiled terrorist attack in Canada in 
June 2006. Within the United States, this trend has been characterized 
by the involvement of individuals who were integrated into American 
society and have had little or no affiliation with formal terrorist 
organizations prior to, and often after, their radicalization.
    This testimony will attempt to elucidate the growing threat of 
domestic radicalization by analyzing some of the many plots that have 
already been hatched in the United States in addition to the agents of 
radicalization, including radical spiritual leaders and the Internet, 
that have been infusing the Muslim-American community with jihadist 
thought and knowledge for years. Unfortunately, describing these 
domestic plots as ``homegrown'' has only recently come into vogue in 
our national discourse. This belated awakening to the root causes of 
homegrown terrorism--including elements on the Internet, certain imams, 
and others in positions of leadership or counsel who advocate 
divisiveness and violence--has hindered our ability to understand the 
threat posed by militant Islamism from within our borders. However, 
with more events such as this hearing, designed to share a greater 
understanding of the processes, risks, and vulnerabilities regarding 
radicalization, there is improved potential to successfully address 
this trend.

Homegrown Terrorism Plots
    An overview of certain homegrown terrorists who have grown up in 
America and the plots they have nurtured and developed, often within 
our borders, provides a useful perspective on the causes and methods by 
which radicalization occurs and the dangerous ways in which such a 
process can manifest itself.
    There is a misleading notion that those who fall prey to 
radicalization--and from within that pool, the minority who take the 
next step by committing or abetting acts of terrorism--are individuals 
who feel marginalized. Whether this marginalization is brought about 
via poor socioeconomic circumstances or simple unpopularity, there is 
tendency to assume that these are the individuals who are fodder for 
radicalization. While this is sometimes the case, relying on this 
template ignores other, more prevalent factors at play in the process 
of radicalization that direct a young man with friends in an 
environment healthy in terms of family and economic condition towards 
an extremist ideology.

John Walker Lindh
    John Walker Lindh, known as the ``American Taliban,'' was raised in 
well-to-do Marin County in California.\1\ As a teenager, he was quiet 
and limited his interests to basketball and hip-hop music. Later in his 
adolescence, he became interested in Islam and converted at a local 
mosque. People who knew him described him as a devoted Muslim.\2\
---------------------------------------------------------------------------
    \1\ David E. Kaplan and others., ``Hundreds of Americans have 
Followed the Path to Jihad. Here's How and Why,'' US News and World 
Report, June 10, 2002.
    \2\ Philip Sherwell, ``The new Malcolm X?'' Sunday Telegraph, April 
9, 2006.
---------------------------------------------------------------------------
    In May 2001, Lindh traveled to Pakistan and spent time at a 
recruiting center in Peshawar for Harakat ul-Mujahideen (HuM), a 
Pakistan-based terrorist group with links to Osama bin Laden and al 
Qaeda.\3\ After leaving the recruiting center, he spent twenty days at 
a training camp run by HuM.\4\ After his training, he returned to the 
Peshawar recruiting office and expressed a wish ``to fight with the 
Taliban on the front line in Afghanistan.'' \5\ Carrying a letter of 
introduction from HuM officials, Lindh traveled to Afghanistan and 
presented himself to Taliban recruiters in Kabul who sent him to al 
Qaeda's infamous Al Faruq training camp after again expressing a desire 
to fight on the front lines for the Taliban against the Northern 
Alliance.\6\
---------------------------------------------------------------------------
    \3\ Kaplan, ``Hundreds Of Americans Have Followed The Path To 
Jihad.''
    \4\ USA v. John Phillip Walker Lindh, 02-37-A, ``Sentencing 
Memorandum,'' pp. 2-3 (ED VA October 4, 2002).
    \5\ Ibid., 3.
    \6\ USA v. John Phillip Walker Lindh, 02-CR-37A, ``Indictment,'' 
(ED VA February 5, 2002).
---------------------------------------------------------------------------
    During his two months at Al Faruq, Lindh learned to use rocket-
propelled grenades and other weapons. Osama bin Laden visited the camp 
three times during Lindh's training period and during one of these 
visits, Lindh actually had a five minute conversation with bin Laden. 
After he completed his training, Lindh declined to participate in plots 
against the United States, Israel, or Europe in favor of fighting 
against the Northern Alliance.\7\ In November 2001, Lindh surrendered 
to Northern Alliance troops.\8\
---------------------------------------------------------------------------
    \7\ USA v. Lindh, ``Sentencing Memorandum,'' 4.
    \8\ USA v. Lindh, ``Indictment.''
---------------------------------------------------------------------------
    In late 2002, Lindh agreed to plea guilty to supplying services to 
the Taliban and carrying an explosive during the commission of a felony 
and was sentenced to twenty years in prison.\9\ Lindh will be eligible 
for parole in 2019.
---------------------------------------------------------------------------
    \9\ Kaplan, ``Hundreds Of Americans Have Followed The Path To 
Jihad.''

The Lackawanna Six
    The Lackawanna Six may have been influenced by a lecture given by 
an extremist imam named Juma al-Dosari at a Lackawanna, New York mosque 
in 2001.\10\ The mosque did not invite al-Dosari to speak again due to 
his radical beliefs.\11\ In April 2001, the men decided to travel to an 
al Qaeda guesthouse in Kandahar, Afghanistan, and then went to an al 
Qaeda training camp where they received weapons training. While they 
were at the camp, Bin Laden visited and gave a speech to all of the 
trainees.\12\
---------------------------------------------------------------------------
    \10\ Michael Powell, ``No Choice But Guilty,'' Washington Post, 
July 29, 2003.
    \11\ Ibid.
    \12\ U.S. v. Al-Bakri, 02-M-108. ``Criminal Complaint,'' (WD NY 
September 13, 2002).
---------------------------------------------------------------------------
    The young men involved in the case were not always known to harbor 
extremist views. Neighbors recalled that ``As teens, they liked to 
drive fast, party and pick up girls. But. . .sometime during or after 
high school, the young men became, in varying degrees, more devout. 
They stopped drinking, swore off sex and began praying five times a day 
at the local mosque.'' \13\ Federal investigators believe that al-
Dosari helped persuade the men to travel to Afghanistan.\14\ According 
to Rodney O. Personius, the attorney who represented one of the six, 
al-Dosari told the men ``that Mecca wouldn't do, that they needed jihad 
training if they wanted to save their souls.'' \15\ The imam was unable 
to testify at the trial of the Lackawanna cell members because he was 
in U.S. custody at the Guantanamo Bay Detention Center where he still 
remains.\16\ Kamal Derwish, a charismatic man described as the cell's 
ringleader, further compelled his companions to attend the training 
camp.\17\ Additionally, cell member Yahya Goba later indicated that 
radical websites--specifically material from Qoqaz.net, the Chechen 
mujahideen website--also motivated his participation.\18\
---------------------------------------------------------------------------
    \13\ ``Defense Says Terror Suspects No Threat'' NBC, September 19, 
2002.
    \14\ ``Seventh Member of `Lackawanna Six' in Custody,'' Associated 
Press, January 29, 2004.
    \15\ Powell, ``No Choice But Guilty.''
    \16\ Powell, ``No Choice But Guilty.'', David Muir, ``Suicide Pact; 
Guantanamo Suicides,''' ABC World News Tonight, June 11,2006.
    \17\ Betsy Z. Russell, ``Al Qaeda recruits say images on Web sites 
part of allure,'' Spokane Review, May 21, 2004.
    \18\ Patrick Orr, ``Hussayen defense gets surprise help; Testimony 
of key witness is blow to prosecution,'' Idaho Statesman, May 25, 2004.
---------------------------------------------------------------------------
    In September 2002, the six men were arrested and indicted on 
charges of providing material support to a designated foreign terrorist 
organization.\19\ All of the men pled guilty to charges of material 
support and were sentenced to prison terms of seven to ten years.\20\ A 
seventh member of the cell, Jaber Elbaneh, was arrested in Yemen in 
late 2003,\21\ but is believed to have escaped from prison in February 
2006.\22\ Kamal Derwish, was killed in a CIA missile strike near Marib, 
Yemen in November 2002.\23\
---------------------------------------------------------------------------
    \19\ USA v Yahya Goba, Sahim Alwan, Shafal Mosed, Yassein Taher, 
and Faysal Gala, 02-M-107. ``Decision and Order.'' p. 3 (WD NY October 
8, 2002).
    \20\ ``Sahim Alwan Sentenced For Providing Material Support to Al 
Qaeda,'' USDOJ Press Release, December 17, 2003, http://www.usdoj.gov/
opa/pr/2003/December/03_crm_699.htm (Accessed September 18, 2003).
    \21\ ``Seventh Member of `Lackawanna Six' in Custody,'' Associated 
Press, January 29, 2004.
    \22\ ``Man added to `Most Wanted Terrorist' list,'' UPI, February 
26, 2006.
    \23\ John Lumpkin, ``Yemeni-American Killed in Airstrike Was 
Alleged Leader of Buffalo Cell,'' Associated Press, November 12, 2002.

Virginia Paintball Jihad
    In June 2003 eleven men, nine of whom are U.S. citizens, were 
indicted for their involvement with Lashkar-e-Taiba (LeT), a Specially 
Designated Terrorist Organization.\24\ In a superseding indictment in 
September 2003 the men were further charged with conspiracy to levy war 
against the United States and conspiracy to provide material support to 
al Qaeda.\25\
---------------------------------------------------------------------------
    \24\ USA v. Royer, et al, 03-CR-296. ``Indictment.'' (EDVA June 25, 
2003).
    \25\ ``U.S. charges seven with `Virginia jihad,'' United Press 
International, September 26, 2003.
---------------------------------------------------------------------------
    A member of the group, Randall Royer, a.k.a. Ismail Royer, who pled 
guilty to weapons and explosives charges in January 2004,\26\ had 
helped form and recruit other men from the suburbs of Washington, D.C., 
to train as mujahideen with LeT. Their training--which included 
paintball war games intended to simulate combat--began in the United 
States and continued at camps in Pakistan.\27\ For two years, the group 
trained at firing ranges in Virginia and Pennsylvania, and seven of the 
defendants traveled to Pakistan.\28\
---------------------------------------------------------------------------
    \26\ ``Two Defendants in Virginia Jihad Case Plead Guilty to 
Weapons Charges, Will Cooperate with Ongoing Investigations,'' USDOJ 
Press Release, January 16, 2004, http://www.usdoj.gov/opa/pr/2004/
January/04_crm_030.htm (Accessed September 18, 2006).
    \27\ ``Defendants Convicted in Northern Virginia Jihad Trial,'' 
USDOJ Press Release, March 4, 2004, http://www.usdoj.gov/opa/pr/2004/
March/04_crm_139.htm (Accessed September 18, 2006).
    \28\ Ibid.
---------------------------------------------------------------------------
    Although the indictment alleges that the network was involved with 
LeT, according a court filing, the cell began playing paintball as 
early as 2000 to train for possible jihad in Chechnya, because, 
according to Nabil Gharbieh, one of the founders of the paintball 
group, ``Chechnya was a very `hot topic' among Muslims.'' \29\ Al-
Timimi was integral in encouraging the members to travel to Afghanistan 
after 9/11, but both Randall Royer and Ibrahim Al-Hamdi, had taken an 
active role in the jihad prior to 9/11. Al-Hamdi stated that since the 
age of 12 he had aspired to die as a martyr and traveled with Royer in 
2000 to a LeT training camp in Pakistan.\30\ Royer, the son of a 
Baptist and a former Catholic nun, converted to Islam at the age of 19. 
From the beginning, he was extremely involved with issues facing 
Muslims around the world, so much so that in the mid 1990s, he traveled 
to Bosnia to fight with a unit that supported Bosnian soldiers.\31\ 
Seifullah Chapman, and former Marine and member of the ``Virginia jihad 
network,'' is also a convert to Islam, having been introduced to the 
faith by his second wife.\32\
---------------------------------------------------------------------------
    \29\ USA v. Masoud Khan, et al., 03-CR-296. ``Memorandum Opinion.'' 
p. 18 (EDVA March 4, 2004).
    \30\ Ibid, 28.
    \31\ Mary Beth Sheridan, Caryle Murphy and Jerry Markon, ``Va. 
'Jihad' Suspects: 11 Men, Two Views,'' The Washington Post, August 8, 
2003.
    \32\ Ibid.
---------------------------------------------------------------------------
    It appears the plot took hold after 9/11 when members of the 
``Virginia jihad network,'' gathered in Northern Virginia where the 
spiritual leader of their prayer group, Ali Al-Timimi,\33\ told the 
other men, ``the time had come for them to go abroad to join the 
mujahideen engaged in violent jihad in Afghanistan.''\34\
---------------------------------------------------------------------------
    \33\ USA v. Al Timimi, 04-CR-385. ``Indictment.'' (ED VA September 
23, 2004).
    \34\ Ibid, 5.
---------------------------------------------------------------------------
    According to witness testimonies, after September 11, 2001, ``Al-
Timimi stated that the attacks may not be Islamically permissible, but 
that they were not a tragedy, because they were brought on by American 
foreign policy.'' \35\ Witnesses also testified that Al-Timimi was not 
permitted to give sermons at Dar al Arqam, a Northern Virginia mosque, 
after his comments on 9/11 which may have explained the reason why on 
September 16, 2001, cell member Yong Kwon ``organized a meeting at the 
urging of Al-Timimi to address how Muslims could protect themselves, 
and invited only those brothers who had participated in paintball 
training and owned weapons.'' \36\
---------------------------------------------------------------------------
    \35\ USA v. Masoud Khan, et al, ``Memorandum Opinion,'' 31-32.
    \36\ Ibid, 32-33.
---------------------------------------------------------------------------
    Al-Timimi, the last member of the cell to be indicted (in September 
2004), was convicted in April 2005 for inciting terrorist activity, 
attempting to contribute services to the Taliban, and on explosives and 
other firearms charges. Al-Timimi was sentenced to life in prison.\37\ 
Of the others in the cell, six have pled guilty, three were convicted, 
and two were acquitted.\38\ In June 2006, the last defendant linked to 
the ``Virginia jihad network, Ali Asad Chandia, was convicted of 
material support of terrorism.\39\
---------------------------------------------------------------------------
    \37\ USA v. Al Timimi, 04-CR-385. ``Judgment.'' (EDVA July 13, 
2005).
    \38\ ``Defendants Convicted in Northern Virginia Jihad Trial,'' 
USDOJ Press Release.
    \39\ ``Maryland Man Sentenced to 15 Years for Providing Material 
Support to Terror Group,'' United States Attorney's Office, Eastern 
District of Virginia, August 25, 2006, http://www.usdoj.gov/usao/vae/
Pressreleases/08-AugustPDFArchive/06/20060825chandianr.pdf (Accessed 
September 18, 2006).

Ahmed Omar Abu Ali
    In November 2005, Ahmed Omar Abu Ali, a Texan by birth, was 
sentenced to 30 years in prison for joining an al Qaeda cell in Saudi 
Arabia and plotting with al Qaeda operatives to personally carry out 
the assassination of President Bush.\40\ In December 2002, while 
pursuing religious studies in Saudi Arabia, Abu Ali joined a 
clandestine terrorist cell with ties to al Qaeda.\41\ According to 
court documents, Abu Ali received training from members of the al-Qaeda 
cell in weapons, explosives, and document forgery, and discussed plans 
to smuggle Saudi al Qaeda members into the United States through Mexico 
to carry out terrorist operations within the country.\42\ Abu Ali was 
raised in Falls Church, Virginia and worshipped at the Dar al-Hijrah 
mosque.\43\ Abu Ali attended high school at the Islamic Saudi Academy 
(ISA) in Alexandria, which receives substantial funding from the Saudi 
government,\44\ and graduated valedictorian of his class in 1999.
---------------------------------------------------------------------------
    \40\ Ahmed Omar Abu Ali Sentenced to Prison on Terrorism Charges,'' 
U.S. Department of State Press Release, March 29, 2006.
    \41\ USA v. Abu Ali, 05 CR 53. ``Opposition to Defendant's Motion 
to Suppress'' (ED VA September 19, 2005).
    \42\ USA v. Abu Ali, 1:05CR53. ``Superseding Indictment'' (ED VA 
September 8, 2005).
    \43\ Jerry Markon, ``Va. Man Convicted In Plot to Kill Bush; 
Defendant Claimed Confession Coerced,'' St. Louis Post-Dispatch, 
November 23, 2005.
    \44\ Matthew Barakat, ``Saudi Academy Disputes Radical 
Reputation,'' Associated Press, May 18, 2005.
---------------------------------------------------------------------------
    Abu Ali was not the only terrorist or extremist from this Virginia 
high school, founded in 1984.\45\ Another former student, Mohammad 
Osman Idris, was charged with lying in immigration forms about his 
association with Hamas.\46\ Idris and another ISA student named 
Mohammad El-Yacoubi were both prevented from entering Israel after a 
letter was found in their possession that has been described as a 
farewell letter for a suicide bombing mission from El-Yacoubi's younger 
brother.\47\ The letter read, ``When I heard what you were going to 
carry out, my heart was filled with the feeling of grief and joy 
because you are the closest human being to my heart.'' It continued, 
``I have no right to prevent you from your migration to Allah and his 
holy messenger, but it is incumbent on me to encourage you and help you 
because Islam urges jihad for the sake of Allah.'' \48\ The comptroller 
of the school, Ismail Selim Elbarasse, has been described as an 
assistant to a high-level Hamas operative.\49\ Court documents from a 
related case claim that Elbarasse shared an account used to launder 
money for Hamas with Mousa Abu Marzook, a Hamas official currently 
headquartered in Damascus.\50\
---------------------------------------------------------------------------
    \45\ Ibid.
    \46\ Ibid.
    \47\ MIchael Hedges, ``Goodbye Letter,'' Houston Chronicle, May 27, 
2002.
    \48\ Ibid.
    \49\ ``Alleged Hamas figure arrested in Md. taping Bay Bridge,'' 
Associated Press, August 24, 2004.
    \50\ Ibid.
---------------------------------------------------------------------------
    After the Islamic Saudi Academy, Abu Ali spent a year at the 
Institute of Islamic and Arabic Sciences in America (IIASA) in 
Fairfax.\51\ The IIASA, founded in 1989 as a non-profit educational 
institution affiliated with Al-Imam Muhammad Ibn Saud Islamic 
University (IMSIU) of Saudi Arabia, also receives funding from the 
Saudi government.\52\ In 2003, eleven scholars at IIASA were asked to 
leave by the US government.\53\ In the summer of 2004, FBI, Customs, 
and IRS agents raided the school.\54\ Publications by the IIASA 
received much attention in a report by Freedom House--a non-partisan 
GNO that promotes human rights and religious freedom--on Saudi hate 
literature in mosques. IIASA publications are replete with anti-
Semitism in addition to condemnations of liberal democracy, freedom of 
thought, Western society, and Zionism.\55\
---------------------------------------------------------------------------
    \51\ Caryle Murphy and John Mintz, ``Va. Man's Months in Saudi 
Arabia Go Unexplained,'' The Washington Post, November 22, 2003.
    \52\ Susan Schmidt, ``Saudi Group's Leader Critical of Clerics,'' 
Washington Post, December 11, 2003.; David B. Ottoway, ``U.S. Eyes 
Money Trails of Saudi-Backed Charities,'' Washington Post, August 19, 
2004.
    \53\ Ottoway, ``U.S. Eyes Money Trails of Saudi-Backed Charities.''
    \54\ Ibid.
    \55\ Saudi Publications on Hate Ideology Fill American Mosques 
(Washington, DC: Center for Religious Freedom, Freedom House, 2005)
---------------------------------------------------------------------------
    In June 2003, Abu Ali was arrested by Saudi authorities along with 
several others in connection with the bombing of a residential compound 
in Riyadh, Saudi Arabia, that killed 34 people, including nine 
Americans.\56\ Abu Ali admitted to his Saudi jailers that he came up 
with the idea to assassinate President George W. Bush on his own: ``My 
idea was. . .that I would walk on the street as the President walked 
by, and I would get close enough to shoot him, or I would use a car 
bomb.'' \57\ He compared himself to Mohammed Atta, who led the cell 
that carried out the September 11, 2001 attacks: ``I wanted to be the 
brain, the planner, just like Mohammed Atta and Khalid Sheikh 
Mohammad.'' \58\
---------------------------------------------------------------------------
    \56\ USA v. Abu Ali, 05 CR 53. ``Indictment'' (ED VA February 2, 
2005).
    \57\ USA v. Abu Ali, ``Opposition to Defendant's Motion to 
Suppress.''
    \58\ Ibid.
---------------------------------------------------------------------------
    In Abu Ali's home in Falls Church, where he lived with his family, 
authorities found a number of items that spoke to the level of his 
radicalization. These items included a six-page document on different 
types of surveillance methods used by the government and ways to avoid 
such surveillance; an undated two-page document commending Taliban 
leader Mullah Omar and the 9/11 attacks that criticized U.S. military 
action in Afghanistan; audio tapes in Arabic supporting ``violent 
jihad, the killing of Jews, and a battle by Muslims against Christians 
and Jews;'' \59\ and a book written by al Qaeda's deputy leader Ayman 
Al Zawahiri that ``characterizes democracy as a new religion that must 
be destroyed by war, describes anyone who supports democracy as an 
infidel, and condemns the Muslim Brotherhood for renouncing violent 
jihad as a means to establish an Islamic state.'' \60\
---------------------------------------------------------------------------
    \59\ USA v. Abu Ali, ``Indictment.''
    \60\ Ibid.

Folsom State Prison, California
    On August 31, 2005, a federal grand jury in San Ana, California 
indicted four men for their alleged roles in a conspiracy to levy war 
against the United States government through terrorism.\61\ The 
conspiracy allegedly involved a plot to attack U.S. military facilities 
as well as Israeli government and Jewish facilities in the Los Angeles 
area.\62\
---------------------------------------------------------------------------
    \61\ USA v. Kevin James, et al., 05-CR-214. ``Indictment.'' (CDCA 
August 31, 2005).
    \62\ Ibid.
---------------------------------------------------------------------------
    The terrorist conspiracy was hatched in California's Folsom State 
Prison by an inmate who founded the clandestine, prison version of a 
militant Islamic organization known as Jam'iyyat Ul Islam Is Saheeh 
(JIS) and compelled JIS members to attack the infidel enemies of 
Islam.\63\ The indictment further alleges that members of the 
conspiracy committed armed robberies of gas stations in order to 
finance their terrorist operation.\64\ As FBI Director, Robert S. 
Mueller, III noted, this case involved a homegrown cell founded in a 
prison that saw themselves as ``al Qaeda of California'' and attempted 
to engage in crime locally to finance its terrorist activities.\65\ If 
convicted of all charges, the defendants face a maximum sentence of 
life in prison.\66\
---------------------------------------------------------------------------
    \63\ Ibid., 2.
    \64\ Ibid., 5, 7--10.
    \65\ ``Unity: The Greatest Weapon Against Terrorism; Remarks by 
Robert S. Mueller, III Director, Federal Bureau of Investigation,'' 
James Fox Memorial Lecture, New York, April 26, 2006. (Accessed 
September 18, 2006).
    \66\ ``Four Men Indicted on Terrorism Charges Related to Conspiracy 
to Attack Military Facilities, Other Targets,'' USDOJ Press Release, 
August 31, 2005.

Miami-Based Cell
    On June 23, 2006, in Miami, Florida, seven suspected al Qaeda 
sympathizers were indicted on charges of conspiring to support al Qaeda 
by plotting attacks on targets that included the Sears Tower in 
Chicago, the FBI building in North Miami Beach, Florida, and other 
government buildings in Miami-Dade County.\67\ It is important to note 
that while the men are thought to have sought to take part in the 
militant Islamist war against the United States, they were not 
Islamists in any traditional sense, but followers of a cult called the 
Seas of David, which reportedly drew on elements of Christianity and 
Judaism as well as Islam, and is allegedly tied to the ideologies of 
the Moorish Science Temple of America,\68\ ``an early 20th century 
religion founded by the Noble Drew Ali, an African-American circus 
magician who claimed he was raised by Cherokee Indians and learned 
`high magic' in Egypt. Ali went on to style himself an `angel' and 
prophet of Allah.'' \69\
---------------------------------------------------------------------------
    \67\ USA v. Batiste, et al., 06-CR-20373, ``Indictment'' (SD NY 
June 23, 2006).
    \68\ Frank Main, ``Dad: Sears Tower Suspect under Spell of Man,'' 
Chicago Sun-Times, June 25, 2006; Paul Thompson and Sara Baxter, 
``Bizarre Cult of Sears Tower `Plotter,'' Sunday Times, June 25, 2006.
    \69\ Thompson and Baxter, ``Bizarre Cult of Sears Tower `Plotter.''
---------------------------------------------------------------------------
    According to the indictment, Narseal Batiste, the group's 
ringleader, expressed the desire to wage a ``full ground war'' against 
the United States. The indictment further alleged that the individuals 
stated the urge to ``kill all the devils we can'' in planned attacks 
they hoped would ``be just as good or greater than 9/11.'' \70\ The 
cell came to the attention of law enforcement when Batiste sought to 
recruit an individual who was traveling to the Middle East to assist 
him in locating foreign Islamic extremists to fund his mission. This 
individual alerted the FBI, who arranged a meeting between Batiste and 
an informant of Arab descent who presented himself to Batiste as an al 
Qaeda operative. . During several meetings with the informant in 
December 2005, Batiste requested boots, uniforms, guns, radios, 
vehicles, and $50,000 in cash to help construct an ``Islamic Army'' to 
wage jihad.\71\ In a March 2006 meeting, each individual in the cell 
swore an oath of loyalty to al Qaeda. Just prior to the oath, which was 
covertly recorded by the FBI, Batiste told the informant that he 
``admired the work bin Laden was doing.''\72\
---------------------------------------------------------------------------
    \70\ SA v. Batiste, et al., ``Indictment.''
    \71\ Ibid.
    \72\ USA v. Batiste, et al., 06-CR-20373, ``Government's Motion for 
Pretrial Detention'' (SD NY June 29, 2006).; ``Seven Florida Men 
Charged with Conspiring to Support al Qaeda, Attack Targets in the 
United States,'' USDOJ Press Release, June 23, 2006.

Adam Gadahn
    Adam Gadahn, a convert to Islam, grew up on a farm in California. 
He was born Adam Pearlman to a Catholic mother and a Jewish father who 
later converted to Christianity, taking the name Gadahn.\73\ As a young 
man, he was interested in death-metal music and hosted a show on the 
environment on a student television station.\74\ In 1997, at the age of 
17, he converted to Islam under the tutelage of a purportedly moderate 
religious leader named Haitham "Danny" Bundakji and was hired as a 
security guard at the Islamic Society of Orange County.\75\ Bundakji 
claimed that Gadahn was then befriended by a group of Pakistani 
nationals he described as ``fundamentalist'' who were outspoken in 
their criticism of moderation and Bundakji's interfaith activities, 
calling him ``Danny the Jew.''\76\ One of the group was Hisham Diab, a 
well-connected al Qaeda operative who once hosted the blind sheik Omar 
Abdel Rahman at his home.\77\ After Bundakji banned these men from the 
mosque, Gadahn stormed angrily into Bundakji's office, slapped him in 
the face, and accused him of not being a true Muslim. Shortly after 
this incident, Gadahn left for Pakistan and kept in touch with his 
family only occasionally.\78\
---------------------------------------------------------------------------
    \73\ Steven Stalinsky, ``A Jewish Musician's Son Joins Al Qaeda's 
Ranks; The MEMRI Report,'' New York Sun, September 13, 2006, http://
www.nysun.com/article/39535 (Accessed September 15, 2006).; Peggy Lowe, 
``Gadahn tape urges conversion to Islam; Terror expert calls former 
O.C. man ideal convert for al-Qaida's purposes,'' Orange County 
Register, September 3, 2006.
    \74\ Brian Ross, ``Married to al Qaeda; Woman Unsuspectingly Weds 
Terrorist,'' Primetime Live, ABC, December 23, 2004.
    \75\ Stalinsky, ``A Jewish Musician's Son Joins Al Qaeda's 
Ranks.''; Spencer Ackerman, ``Why American Muslims haven't turned to 
terrorism,'' New Republic, December 12, 2005.
    \76\ Ackerman, ``Why American Muslims haven't turned to 
terrorism.''
    \77\ Ross, ``Married to al Qaeda; Woman Unsuspectingly Weds 
Terrorist.''
    \78\ Ackerman, ``Why American Muslims haven't turned to 
terrorism.''
---------------------------------------------------------------------------
    Gadahn later traveled to Afghanistan where he attended al Qaeda 
training camps and served as an al Qaeda translator.\79\ During his 
ongoing career as a terrorist, he has spent time with the captured al 
Qaeda leader Abu Zubaydah and John Walker Lindh.\80\ Another associate 
of Gadahn's, Khalid Sheikh Mohammed, the mastermind of the 9/11 
attacks, allegedly wanted to use Gadahn in a plot to bomb Baltimore gas 
stations.\81\ In May 2004, the FBI issued a BOLO (be on the lookout) 
for Gadahn and he was later added to the FBI's most wanted list.\82\ In 
December 2004, Gadahn resurfaced as Azzam al-Amriki, or Azzam the 
American, on an al Qaeda videotape threatening attacks against the 
United States that would far surpass those of 9/11.\83\ In the tape, he 
stated:
---------------------------------------------------------------------------
    \79\ Salah Naswari, ``Latest al-Qaida message seen as PR bid,'' 
Associated Press, September 3, 2006.; Evan Thomas, Daniel Klaidman, and 
Michael Isikoff, ``Enemies among Us,'' Newsweek, June 7, 2004.
    \80\ Ibid.
    \81\ Thomas, Klaidman, and Isikoff, ``Enemies among Us.''
    \82\ ``Seeking Information RE: Adam Gadahn,'' FBI, http://
www.fbi.gov/terrorinfo/gadahn.htm (Accessed August 19, 2005).; 
Stalinsky, ``A Jewish Musician's Son Joins Al Qaeda's Ranks.''
    \83\ Amy Argetsinger, ``Muslim Teen Made Conversion to Fury; 
Intelligence Sources Say Californian Was on Tape,'' Washington Post, 
December 2, 2004.
---------------------------------------------------------------------------
        People of America, I remind you of the weighty words of our 
        leaders, Osama Bin Ladin and Dr. Ayman Al Zawahri, that what 
        took place on September 11 was but the opening salvo of the 
        global war on America, and that Allah willing, the magnitude 
        and ferocity of what is coming your way will make you forget 
        about September 11.\84\
---------------------------------------------------------------------------
    \84\ As Sahab videotape of ``Azzam the American,'' identified by US 
intelligence as Adam Gadahn (Aired by ABC News, October 28, 2004)
---------------------------------------------------------------------------
    Gadahn made another appearance on September 11, 2005 in a video in 
which he called on the West to remove its, ``current leaders and 
governments and their anti-Islam, anti-Muslim policies.'' \85\ He 
threatened, ``Yesterday, London and Madrid. Tomorrow, Los Angeles and 
Melbourne, God willing.'' \86\ He also made an appearance in an al 
Qaeda video released on the first anniversary of the London transit 
bombings, in which he condemned American leadership and the American 
people who elected them. In the message, Gadahn decried the ``crimes'' 
of American and British forces in Afghanistan and Iraq. He blamed 
America for carrying out the majority of what he sees as atrocities 
against Muslims and blames the British for ``coaching from the 
sidelines and lending a helping hand whenever possible'' and being 
``the one who taught America how to kill and oppress Muslims in the 
first place.'' \87\ Gadahn takes care to emphasize the legitimacy of 
attacking civilians as opposed to solely military targets.\88\ Over the 
summer of 2006, an essay was removed from the website of the Muslim 
Student Association (MSA) of the University of Southern California. The 
author of that essay was ``Adam Pearlman.'' In the essay, a young 
Gadahn transitioning into Islam wrote, ``As I began reading English 
translations of the Qur'an, I became more and more convinced of the 
truth and authenticity of Allah's teachings. . . .Having been around 
Muslims in my formative years, I knew well that they were not the 
bloodthirsty, barbaric terrorists that the news media and the 
televangelists paint them to be.'' While it is true that there is only 
an unfortunate segment of extremist Muslims who meet the description of 
``bloodthirsty, barbaric terrorists,'' \89\ Adam Gadahn unfortunately 
chose to join their ranks, stating in the As-Sahab release on the 
anniversary of the 7/7 attacks, ``When we bomb their cities and 
civilians. . .no sane Muslim should shed tears for them.'' \90\
---------------------------------------------------------------------------
    \85\ Ackerman, ``Why American Muslims haven't turned to 
terrorism.''
    \86\ Ibid
    \87\ As Sahab video, July 8, 2006.
    \88\ Ibid.
    \89\ Stalinsky, ``A Jewish Musician's Son Joins Al Qaeda's Ranks.''
    \90\ As Sahab video, July 8, 2006.

Agents of Radicalization
    While there are many different factors that contribute to 
radicalization and the development of terrorist plots, two in 
particular stand out as acutely noteworthy: religious leaders and the 
Internet. Below, certain imams connected to terrorist activity and 
extremist rhetoric and the role of the Internet in radicalization and 
terror-plot development are discussed.

Imams and Spiritual Leaders

Ali Al-Timimi
    Ali Al-Timimi was the primary lecturer at Dar al Arqam Islamic 
Center in Falls Church, Virginia from 2000--2001.\91\ As explained 
earlier in this testimony, he was convicted in April 2005 for inciting 
terrorist activity, attempting to contribute services to the Taliban, 
and on explosives and other firearms charges, and was subsequently 
sentenced to life in prison.\92\
---------------------------------------------------------------------------
    \91\ USA v. Al Timimi, ``Indictment.''
    \92\ USA v. Al Timimi, 04-CR-385, ``Judgment,'' (EDVA July 13, 
2005).
---------------------------------------------------------------------------
    According to his indictment, Al-Timimi told a group of young men, 
later to be convicted for involvement with the terrorist group Lashkar 
e Taiba that ``American troops soon to be deployed in Afghanistan would 
be legitimate targets of the violent jihad in which his listeners had a 
duty to engage.'' He also told the men to ``obtain jihad training from 
Lashkar e Taiba because its belief system was good and it focused on 
combat,'' and provided information on how to reach the Lashkar e Taiba 
camp undetected.\93\ Yong Kwon, one of the convicted paintball 
jihadists, testified at Al-Timimi's trial that his lectures had ``fired 
him up'' and was a ``big factor'' in his decision to go to Afghanistan 
and fight with the Taliban, although his trip was never realized.\94\
---------------------------------------------------------------------------
    \93\ USA v. Al Timimi, ``Indictment.''
    \94\ USA v. Al Timimi, 04-CR-385. ``Trial Transcript'' p. 17 (ED VA 
September 23, 2004).
---------------------------------------------------------------------------
    Al-Timimi, like Virginia jihad cell members Royer, Kwon, and 
Chapman, grew up as a secular individual. Although Al-Timimi was born 
Muslim, as a young child he celebrated Christmas, and it was not until 
his early years of high school, when his family moved to Saudi Arabia, 
that he became more religious.
    While in Saudi Arabia, Al-Timimi was mentored by a Saudi trained 
imam named Bilal Philips.\95\ Philips, a Jamaican born, ex-communist, 
convert to Islam who grew up in Canada was Al-Timimi's Islamic Studies 
teacher at Manaret Riyadh High School in the early 1980s.\96\ According 
to Philips, ``The clash of civilizations is a reality,'' and ``Western 
culture led by the United States is an enemy of Islam.'' \97\
---------------------------------------------------------------------------
    \95\ November 30, 2004 letter of appeal from Abu Amina Bilal 
Philips on behalf of Ali Al-Timimi circulated in the US and the UK.
    \96\ Ibid.
    \97\ John Mintz and Gregory L. Vistica, ``Muslim Troops Loyalty a 
Delicate Question,'' Washington Post November 2, 2003.
---------------------------------------------------------------------------
    In 1993, Philips ran a program to convert US soldiers to Islam 
during the first Persian Gulf War. According to a 2003 Washington Post 
article, Bilal Philips, reported that the program was led by ``a 
special team whose members spoke fluent English,'' \98\ educated in 
broadcasting and psychology. These conversion specialists financed 
pilgrimages and would later send Muslim clerics in the United States to 
their homes. He also encouraged some converts from this program to 
fight in Bosnia in the 1990s, which led to FBI investigations.\99\
---------------------------------------------------------------------------
    \98\ Ibid.
    \99\ Ibid.
---------------------------------------------------------------------------
    In a 2004 letter of appeal circulated in sympathetic circles in the 
US and the UK, Philips encouraged Muslims to assist Al-Timimi 
``financially, morally or politically.''\100\ According to Philips, 
``whatever the charges against him [Al-Timimi] may be, from an Islamic 
perspective they are false and contrived in order to silence the Da'wah 
to correct Islaam.'' \101\
---------------------------------------------------------------------------
    \100\ Letter from Abu Amina Bilal Philips.
    \101\ Ibid.
---------------------------------------------------------------------------
    Upon returning to the United States, Al-Timimi received a 
bachelor's degree in biology and computer science and a Ph.D in 
computational biology.\102\ Simultaneously he continued his missionary 
work, retaining the severe interpretations that he was introduced to 
abroad. For example, when asked, by an audience member during a lecture 
he gave whether it is permissible for a Sunni to pray with a Shiite, 
Al-Timimi responded: ``Ok, you cannot pray behind any of these people. 
In fact if we were in an Islamic state these people their, their heads 
should be, you know, lopped off, that's what, you know, should be done 
to these people. They deserve nothing better than to just cut their 
necks, if we were in an Islamic country. To be [UI word] to make the 
chance to make repentance and if they do not repent to cut their necks, 
that's what these people deserve.'' \103\
---------------------------------------------------------------------------
    \102\ James Dao, ``Muslim Cleric Found Guilty in the Virginia Jihad 
Case,'' New York Times, April 27, 2005.
    \103\ Audio recording of lecture by Ali Al-Timimi.

Fawaz Damrah
    Fawaz Damrah was the Imam at the Islamic Center of Cleveland.\104\ 
Damrah also was a close associate with Palestinian Islamic Jihad leader 
Sami al-Arian. In fact, Damrah actively raised funds for PIJ in the 
United States.\105\
---------------------------------------------------------------------------
    \104\ USA v. Fawaz Damra, 03-CR-484. 334 F. Supp. 2d 967. (ND OH 
September 13, 2004).
    \105\ USA v. Fawaz Damra, 03-CR-484. ``Memorandum Opinion.'' (ND OH 
August, 2004).
---------------------------------------------------------------------------
    At a conference held in Chicago in 1991, Damrah promoted violence 
amongst the attendees, urging to ``. . .point their gun toward the 
enemy, toward the children of pigs and monkeys, the Jews.' \106\ Damrah 
also raised money for violent jihad at another conference, ``The Jihad 
is still going on in Palestine. The intifada is calling on you. Donate 
$500. Who would add to that $500? Who would add $500?'' \107\
---------------------------------------------------------------------------
    \106\ ICP event commemorating the ``Great Intifada'' at Currie High 
School, Chicago, IL, Sept. 29, 1991
    \107\ ``People In Cleveland Take A Closer Look At A Muslim Leader 
After The September 11th Attacks.'' National Public Radio (NPR), 
Morning Edition, January 18, 2002.
---------------------------------------------------------------------------
    Damrah, defending the use of violence in the Palestinian 
territories, stated, ``The Palestinians are being terrorized and being 
victims of state sponsored terrorism. . .And they have the right to 
defend themselves just like they did then, like they did now.'' \108\ 
At a 1989 discussion panel moderated by Sami al-Arian, Damrah stated, 
``Terrorism and terrorism alone is the path to liberation.'' \109\
---------------------------------------------------------------------------
    \108\ Elizabeth Sullivan and Robert L. Smith, ``Parma Imam Says 
Palestinians Have Right To Take Up Arms'' Plain Dealer, September 27, 
2001.
    \109\ Elaine Silvestrini, ``Video Evidence In Al-Arian Trial Shows 
Anti-Israel Rhetoric,'' Tampa Tribune, July 27, 2005, http://
news.tbo.com/news/MGB5AT9XMBE.html (Accessed September 18, 2006).
---------------------------------------------------------------------------
    Damrah was also identified as a co-conspirator in the 1993 World 
Trade Center Bombing.\110\ Damrah was affiliated with the Al Kifah 
Refugee Center,\111\ a predecessor organization to al Qaeda.\112\ 
Damrah is currently awaiting deportation for failing to disclose his 
membership to a terrorist organization on his application for 
citizenship.
---------------------------------------------------------------------------
    \110\ USA v. Elgabrowny, et al, 93-CR-181. ``List of 173 Possible 
Co-Conspirators Submitted by Mary Jo White.'' (SD NY February 2, 1995).
    \111\ USA v. Damrah, 03-CR-484. ``Indictment.'' p. 2 (ND OH Dec. 
18, 2003).
    \112\ ``Additional Background Information on Charities Designated 
Under Executive Order 13224,'' United States Treasury Department, 
http://www.treas.gov/offices/enforcement/key-issues/protecting/
charities_execorder_13224-i.shtml#m (Accessed August 12, 2005).

Mohammed El-Mezain
    Mohammed El-Mezain formerly served as the imam of the Islamic 
Center of Passaic County and as the former Chairman of the Holy Land 
Foundation.\113\ In July 2004, Mezain was indicted for material support 
to a terrorist organization.\114\ According to a November 5, 2001 FBI 
Memorandum:
---------------------------------------------------------------------------
    \113\ Joel Mowbray, ``Corzine, Pascrell Attended Brunch With Links 
to Radical Islamic Groups,'' The New York Sun, March 29, 2004, http://
daily.nysun.com/Repository/
getFiles.asp?Style=OliveXLib:ArticleToMail&Type=text/html&Path=NYS/
2004/03/29&ID=Ar00600 (Accessed September 18, 2006).
    \114\ ``Holy Land Foundation, Leaders, Accused Of Providing 
Material Support To Hamas Terrorist Organization,'' USDOJ Press 
Release, July 27, 2004, http://www.usdoj.gov/opa/pr/2004/July/
04_crm_514.htm (Accessed September 18, 2006).
---------------------------------------------------------------------------
        an FBI source who has provided reliable information in the past 
        reported that during a speech at the Islamic Center of Passaic 
        County (ICPC) in November, 1994, Mohammad El-Mezain, the 
        HLFRD's current Director of Endowments and former Chairman of 
        the HLFRD Board, admitted that some of the money collected by 
        the ICPC and the HLFRD goes to HAMAS or HAMAS activities in 
        Israel. El-Mezain also defended HAMAS and the activities 
        carried out by HAMAS.\115\
---------------------------------------------------------------------------
    \115\ ``Action Memorandum, Holy Land Foundation for Relief and 
Development International Emergency Economic Powers Act,'' From Dale 
Watson, Assistant Director FBI Counterterrorism Division to Richard 
Newcomb, Director of the Office of Foreign Assets Control, Department 
of Treasury, November 5, 2001, 46. (Watson Memorandum)
---------------------------------------------------------------------------
    According to the same memorandum, El-Mezain attended a Muslim Arab 
Youth Association (MAYA) conference from December 30, 1994 to January 
2, 1995 in Los Angeles, where an individual named Sheikh Muhammad Siyam 
was the keynote speaker. Siyam was introduced as ``Head of operations 
of Al Jihad Al Islamia in Gaza, the HAMAS military wing.'' His 
leadership in Hamas is confirmed with a flyer of the Islamic Circle of 
North America (ICNA) advertising its 1990 convention. On that flyer he 
is advertised as ``Dr. Mohammed Siyam, Islamic scholar and head of 
Intifadah [uprising], Hamas Movement in Palestine.'' \116\
---------------------------------------------------------------------------
    \116\ Flyer, ICNA 15th Annual Convention, 1990.
---------------------------------------------------------------------------
    At the MAYA convention Siyam stated, "I've been told to restrict or 
restrain what I say. . .I hope no one is recording me or taking any 
pictures, as none are allowed. . .because I'm going to speak the truth 
to you. It's simple. Finish off the Israelis. Kill them all! 
Exterminate them! No peace ever! Do not bother to talk politics.'' 
\117\
---------------------------------------------------------------------------
    \117\ Watson Memorandum, 46--47.
---------------------------------------------------------------------------
    The same memorandum states that following Siyam's speech, El-Mezain 
exhorted the crowd to contribute money, subsequently announcing that 
$207,000 had been for ``the cause.'' \118\ At that conference, El-
Mezain reportedly stated that during 1994 he raised $1,800,000 inside 
the United States for Hamas.\119\
---------------------------------------------------------------------------
    \118\ Ibid.
    \119\ Ibid.

Adnan Bayazid
    The imams addressed above have either been indicted or convicted of 
terrorism or are tied to a terrorist group. However, there are other 
imams who have preyed on their congregants and followers with 
incendiary rhetoric.
    Adnan Bayazid served as the Imam of the Islamic Center of Greater 
Kansas City as well as on its board of directors.\120\ In October 2002, 
Adnan Bayazid spoke to a Kansas City Art Institute class about jihad. 
The professor of the class noted ``No one asked specifically about 
September 11, but [Adnan Bayazid] started going on a tirade. . .and for 
30 minutes proceeded to tell us that there were no Islamic 
fundamentalists on the (hijacked) planes; that they had all been framed 
by U.S. and Israel; that the planes were flying by remote control by 
the Israeli government or secret police; that every Jewish person was 
told not to go to work that day at the World Trade Center. He blamed 
Israel for the whole thing, but he also said numerous times Jews not 
just Israel or the Israeli government, but that it was a Jewish 
conspiracy. He said that specifically numerous times.'' \121\
---------------------------------------------------------------------------
    \120\ Rick Hellman, ``Blood libel: Muslim speaker at local college 
blames Israelis, Jews for 9/11.'' The Kansas City Jewish Chronicle. 
January 17, 2003.
    \121\ Ibid.
---------------------------------------------------------------------------
    When Bayazid was contacted by the media, he confirmed the account: 
``That's what I believe, yes.'' He furthermore added, ``The planes who 
did the attack, the passenger and the pilots, their name is a public 
record, and none of them is a Muslim. So the 20 names or the 19 names 
of those Saudis they take, some of them are still alive in Saudi 
Arabia. Some of them were dead. It is not true.'' \122\
---------------------------------------------------------------------------
    \122\ Ibid.
---------------------------------------------------------------------------
    The vast majority of imams and Islamic spiritual leaders play a 
necessary and beneficial role in communities in which they serve, but a 
minority of this profession has taken advantage of their positions of 
trust and the vulnerability of American-Muslim community. These men 
have used their pulpits to preach malicious conspiracy theories and 
falsely paint the Global War on Terrorism as a war against Islam in 
order to alienate the Muslim community and engender radicalism and 
extremist thought. Any successful strategy to counter the influence of 
radicalism must employ imams who reject extremism and terrorism.

Internet
    Another factor affecting the radicalization process is the 
Internet. It is common knowledge that the Internet is a resource widely 
implemented by terrorists and extremists. The Internet has become an 
indispensable multifaceted operational tool for terrorists in terms of 
psychological warfare, publicity, propaganda, data mining, fundraising, 
recruitment, mobilization, networking, sharing information, planning, 
and coordination.\123\ Several of these functions can combine to serve 
the larger function of radicalization, which is crucial to the success 
of terrorists and extremists who propagate militant Islamism--
particularly those who act on behalf of the ideology propagated by al 
Qaeda.
---------------------------------------------------------------------------
    \123\ Gabriel Weimann, ``www.terror.net; How Modern Terrorism Uses 
the Internet,'' Special Report 116, United States Institute of Peace, 
March 2004, 5--10.
---------------------------------------------------------------------------
    The U.S. led invasion of Afghanistan in response to the attacks of 
September 11, 2001 forced an historically and strategically significant 
shift on the part of al Qaeda that reverberated throughout the larger 
jihadi movement. The successful invasion decimated the hierarchy and 
configuration of al Qaeda, which was centralized in Afghanistan. Al 
Qaeda was forced to devolve to an ideological presence and surrender 
the greater portion of operational control outward to various affiliate 
groups. While these affiliate groups continued to direct jihad around 
the world, the ideology of al Qaeda continued to spread and led to the 
formation of various provisional cells,\124\ several of which have been 
homegrown. Instead of a centralized organization, al Qaeda has become a 
franchised idea. While many prominent jihadist thinkers agitated over 
the circumstances that forced this strategic shift, some--such as 
Mustafa Setmarian Nasar, popularly known as Abu Musab al-Suri--had 
promoted the strategic necessity of this change for the wider Salafi 
jihadist movement for some time.
---------------------------------------------------------------------------
    \124\ Yoram Schwietzer and Sari Goldstein Ferber, Al-Qaeda and the 
Internationalization of Suicide Terrorism (Tel Aviv: Jaffee Center for 
Strategic Studies, November 2005), 18--19.
---------------------------------------------------------------------------
    The nature and structure of the Internet serves the contemporary 
jihadi movement perfectly. It is a diffuse resource that can be 
utilized at almost any location to communicate any type of information. 
This resource is all too often utilized to convey and promote Islamist 
militancy and isolationism, which has had a radicalizing effect on 
individuals in almost every society with an Islamic population. As FBI 
Director Robert S. Mueller III pointed out last June:
        Radical fundamentalists are particularly difficult to pinpoint 
        in cyberspace. There are between 5,000 to 6,000 extremist 
        websites on the Internet, encouraging extremists to initiate 
        their own radicalization and to cultivate relationships with 
        other like-minded persons.

        Although we have destroyed many terrorist training camps in the 
        past five years, extremists increasingly turn to the Internet 
        for virtual instruction. Of course, not every extremist will 
        become a terrorist. But the radicalization process has become 
        more rapid, more widespread, and anonymous in this Internet 
        age, making detection that much more difficult.\125\
---------------------------------------------------------------------------
    \125\ Robert S. Mueller, III, Federal Bureau of Investigation, City 
Club of Cleveland, Cleveland, Ohio, June 23, 2006, http://www.fbi.gov/
pressrel/speeches/mueller062306.htm (Accessed September 11, 2006).
---------------------------------------------------------------------------
    This sort of cyber-radicalization has tragically been demonstrated 
time and time again around the world, but most infamously and recently 
in Western countries--the United Kingdom, Canada, and the United 
States.
    Exploitation of the Internet by terrorists and extremists for 
purposes of radicalization is finally getting the attention it demands 
from law enforcement, policymakers, and--most importantly--the public. 
By simply logging online, terrorists and extremists from Indonesia to 
Indiana are able to post articles, exchange information, and exchange 
thoughts and beliefs, often theologically flawed or distorted, on 
radical websites and in chat rooms. While there is an ever-growing 
trend towards the globalization of all thought and ideology, this 
communication of ideas regarding the harsher strains of Islam has led 
to an increase in the ease, level, and speed of radicalization and the 
networking of radicals that could not occur without the enabling medium 
of the Internet.
    As noted by FBI Director Mueller, there is a plethora of extremist 
websites on the Internet that radicalize and educate an untold number 
of aspiring terrorists. Some of these websites and online forums 
provide explicit instructions on how to contribute to violent jihad. 
Others disseminate the extremist thought that often serves as the 
central ingredient in the radicalization process. Websites in the first 
category are dangerous for obvious reasons and continue to proliferate 
at an alarming rate. Websites in the second category present a more 
subtle and perhaps more dangerous threat. Once they are identified, 
websites of the first category can occasionally be shut down or be 
traced to the individuals behind them in order to provide actionable 
intelligence to the pertinent authorities. These websites convey 
information on combat tactics, explosives, chemical and biological 
weaponry, espionage, attending a terrorist training camp, and executing 
operations. Websites of the second category are purveyors of a 
different sort of information--the sort that is intangible and focuses 
on theology and ideology designed to lead its visitors down the path of 
isolationism and extremism, shaping them into terrorists.
    One example of a website in the first category was Qoqaz.net. One 
of the two main sites of Azzam Publications, Qoqaz.net was the English 
language website for the Chechen mujahideen.\126\ This website, hosted 
by an Internet service provider in Connecticut for seven years until 
2003,\127\ was utilized to raise funds for the mujahideen in Chechnya. 
The Qoqaz.net homepage, quoting Osama bin Laden's mentor, Abdullah 
Azzam, reads, ``Jihad and the rifle alone. NO negotiations, NO 
conferences and NO dialogue.'' \128\ Pages on Qoqaz.net detailed how 
one might donate to, train for, and join the jihad in Chechnya.\129\ 
Qoqaz.net also played a role in motivating Lackawanna Six cell member 
Yahya Goba.\130\
---------------------------------------------------------------------------
    \126\ Web archive of Azzam Publications, http://web.archive.org/
web/20000818175151/63.249.218.164/html/chechnyafacts.htm (accessed 
February 28, 2006).
    \127\ USA v. Ahmad, et al., 04-CR-301, ``Indictment,'' (D CT 
October 6, 2004).
    \128\ Web archive of Azzam Publications, http://web.archive.org/
web/20000621135807/www.qoqaz.net/ (accessed August 10, 2005).
    \129\ Web archive of Azzam Publications, http://web.archive.org/
web/20000818175151/63.249.218.164/html/chechnyafacts.htm (accessed 
February 28, 2006).;
    Web archive of Azzam Publications, http://web.archive.org/web/
20000818175151/http://63.249.218.164/html/chechnyafacts.htm#faqs 
(accessed February 28, 2006).;
    Web Archive of Azzam Publications, http://web.archive.org/web /
20000816204345/63.249.218.164/html/chechnyajihadtrain.htm (accessed 
August 10, 2005).
    \130\ Patrick Orr, ``Hussayen defense gets surprise help; Testimony 
of key witness is blow to prosecution,'' Idaho Statesman, May 25, 2004.
---------------------------------------------------------------------------
    While Qoqaz.net is no longer operational, thousands of websites, 
forums, and cyber how-to manuals have taken its place. A recent posting 
on a militant Islamic forum about the bacterial botulinum toxin, which 
causes the deadly disease known as botulism, is one of a seemingly 
endless string of examples that should draw our attention to resources 
on the Internet that could allow radicalized individuals to execute a 
lethal plot. The post, published on an extremist forum hosted in the 
Middle East, details the preparation and preservation of the biological 
weapon botulinum toxin, the most potent toxin known today, and one of 
the Centers for Disease Control and Preventions (CDC) six Category A 
Bioterrorism Agents. After a brief, but ominous introduction in which 
the author, ``We are lurking in wait for you. Allah will torment you 
himself or use us to do so. You can plot, but we are plotting as 
well,'' he includes facts about the bacteria, how to produce the toxin, 
lethal doses, experiments and observations, and possible methods of 
dissemination.\131\ The availability of such literature on the Internet 
provides individuals who are not trained scientists the opportunity to 
produce biological, chemical, and radiological weapons, though perhaps 
crude in form. Additionally, the easy distribution of information 
pertaining to various forms of attacks illuminates alternative and 
innovative methods of terrorism that might not be otherwise considered. 
In the case of the Al Qaeda affiliated individuals who were accused of 
planning to produce ricin in an apartment in London, the group was in 
possession of a recipe for making the toxin taken off the 
Internet.\132\ Equipment to produce biological threat agents, such as 
the castor beans from which ricin is processed, as well as makeshift 
laboratory materials are also available on the Internet. This 
technology provides the information to allow aspiring terrorists around 
the world, including those in the United States, to consider and 
produce biological, chemical, and radiological weapons that would 
otherwise be inconceivable.
---------------------------------------------------------------------------
    \131\ ``Toxins of the Next Phase,'' Forum Posting, June 2006. The 
forum will remained unnamed for security reasons.
    \132\ Milton Leitenberg, ``Assessing the Biological Weapons and 
Bioterrorism Threat'' Strategic Studies Institute, December, 2005.
---------------------------------------------------------------------------
    Combating the operations of websites in this first category will 
prove to be crucial and effective in the fight against terrorism, 
however these efforts are largely reactive in nature. In order to 
achieve a meaningful victory in this long war against Islamic 
extremism, it will be necessary to take proactive measures, such as 
eliminating or lessening the influence of websites in the second 
category. A central challenge in this effort will be drawing the line 
between extreme-orthodox Islamic isolationism that cannot necessarily 
be restricted in a democratic society and ``unacceptable forms of 
radical-Islamic isolationism.'' \133\ It will undoubtedly be difficult, 
if not impossible, to achieve a cessation of the flow of extremist 
thought on the Internet, nonetheless efforts must be undertaken to 
reduce the allure of the fundamentalist message.
---------------------------------------------------------------------------
    \133\ From dawa to jihad; The various threats from radical Islam to 
the democratic legal order (The Hague: General Intelligence and 
Security Service, December 2004), 9.
---------------------------------------------------------------------------
    A dark corner of another website, MySpace.com, has essentially 
become a late-model innovation in this second category of extremist 
websites. MySpace, the popular online social networking site, is a 
cyber-refuge for people around the globe to keep in touch with old 
friends and make new ones. It is especially popular among American 
university students and young adults, but the subjects discussed in 
certain circles on this popular website go beyond social activities 
consisting of friendship and fun. There is a healthy and growing 
population on MySpace of Islamist extremists and their sympathizers. 
Through monitoring these networks and the individuals of which they 
consist, it is evident that there is a possibly dangerous level of 
radicalization occurring on one of America's most popular websites.
    Like other MySpace users, these individuals post extensively in 
their blogs and write notes on their friends' profiles; however, 
instead of commenting on a party, telling a joke, or making social 
plans, they angrily condemn America, swear support for Osama bin Laden, 
and express graphic desires to inflict violence upon innocents at home 
and abroad. Some even identify themselves as active terrorists and 
claim to have participated in attacks against American soldiers in 
Iraq, providing horrific photographs as evidence. These extremists who 
ascribe to the belief systems of groups like al Qaeda, Hamas, and 
Hizballah are largely adolescents and young adults. Apart from their 
jihadist inclinations, they share common similarities with others in 
their demographic. They often enjoy popular television shows, video 
games, and sports. The majority of these self-professed militants live 
in America--the land in which they were raised. Websites such as 
MySpace enable its users to connect with peers with greater ease, even 
if those peers are turning to violent extremist ideologies. While 
MySpace is not responsible for these growing radical networks, the 
service is a medium exploited to facilitate them.
    Authorities around the world have already seen the heavy hand of 
the Internet in the development of homegrown terrorist cells. For 
domestic cells in London, Australia, Canada, the United States and 
elsewhere, cyber-radicalization and the use of the Internet's other 
resources mentioned above have reached new heights. In the case of the 
alleged terrorist cell arrested in the Toronto area early in June 2006, 
Qayyum Abdul Jamal, a 43-year old bus driver that served as a caretaker 
and prayer leader at the Al-Rahman Islamic Center, where the cell 
members worshipped, was an influential figure in the radicalization of 
the plotters, who were largely juveniles and young adults.\134\ 
However, the investigation into this cell began in 2004 when 
intelligence officers monitoring an Internet chat room observed cell 
members promoting anti-Western sentiment.\135\ Through the Internet, 
the cell members had connections with extremists all over the world. 
The arrests of the seventeen terrorism suspects in Toronto was the 
latest in a series of arrests and raids in Europe and North America--
that began in Bosnia with a cell of two men who planned on attacking 
the British embassy in Sarajevo--all connected to a worldwide Internet 
terrorism network with links to al Qaeda in Iraq among other terrorist 
elements, including the now-detained terrorist Internet operative known 
as Irhabi 007.\136\
---------------------------------------------------------------------------
    \134\ Rebecca Cook Dube, ``Canada faces `jihad generation,' '' 
Christian Science Monitor, June 6, 2006.
    \135\ Michel Comte, ``Canadian bomb plot suspects appear in 
court,'' Agence France Presse, June 6, 2006.
    \136\ ``Worldwide web of terrorism suspects exposed,'' Australian, 
June 8, 2006.

Conclusion
    Radicalism and homegrown terrorism pose unique challenges to the 
complex homeland security environment. The core of this threat is an 
extremist ideology that transcends borders. Until 9/11, the U.S. 
focused its efforts on the terrorist threat from overseas. However, as 
evident from these instances, extremism is as much of an internal 
battle as an external one. We, along with our allies, must be vigilant 
in combating this ideology at home as well as abroad with a multi-
pronged campaign that relies on addressing root causes, but not at the 
expense of locating and incapacitating terrorist cells, with the result 
of isolating, retarding, and halting radicalization.
    The growing pollution of the Internet by militant Islamist ideology 
is a particularly acute hazard that will continue to propel 
radicalization. There are no easy solutions to this crisis and 
innovative strategies are needed. Infamous terrorist Internet 
operatives, like Irhabi 007, can be tracked and arrested, but the 
ideology will continue to seep out on websites, online forums, and chat 
rooms. Currently, the most viable option available is to work to 
insulate Muslim communities in the West from this radicalizing 
influence through the empowerment of constructive and truly moderate 
Muslim leaders.
    While government agencies and law enforcement authorities must 
engage the American Muslim community to address the root causes of 
radicalization, officials must take greater care to avoid legitimizing 
certain elements--whether radical imams or certain groups--within the 
organized Muslim community who act as agents of radicalization.
    These radical groups and Islamic leaders falsely present themselves 
as moderates and make it their mission to push a narrative to their 
community that the US government's campaign against terrorism is, 
rather, a generalized ``war against Islam'' that must be shunned, 
discouraged, and monitored. This characterization serves to demonize 
the efforts of the US government and, by extension, the West, which 
ultimately serves to radicalize and alienate Muslims in the United 
States, creating fertile ground for extremists to operate and recruit 
followers.
    To a large degree, the narrative propagated by these groups is a 
corollary of the primary message of radical Islam at large: That there 
is a conspiracy by the West to subjugate Islam. This self-victimization 
fuels paranoia that Muslims are being selectively targeted for racist 
reasons, because of ``special interests,'' or due to anti-Muslim bias 
in Western foreign policy. This, in turn, inflames self-alienation and 
degrades any positive connections between Western Muslim communities 
and their host state. It is therefore not surprising to see a common 
claim in most of the terrorist attacks the West has witnessed since 9/
11, from the ``Virginia jihad network to the cell that executed the 
London transit bombings: that they were committing acts of violence to 
avenge Western atrocities against Muslims.
    Too often, the US Government empowers the very groups that are 
instilling alienation from the United States and the West. Many of the 
leaders of these groups falsely claim to speak on behalf of most Muslim 
Americans while they attempt to neutralize other voices within the 
Muslim community. The ``dialoguing'' that goes on--with group leaders 
who demand to be the only representatives of the Muslim community with 
whom the government should meet--has serious and far-reaching 
consequences. The extent to which the FBI, the Department of Homeland 
Security, and the State Department have legitimized radical groups 
masquerading as ``moderate'' warrants close oversight by Congress.
    This same self-victimization formula has been applied by Islamic 
groups in Great Britain and Australia. The leaders of these countries, 
Prime Ministers John Howard and Tony Blair, at their own political 
expense, have recently articulated the dangers of empowering these 
groups that reinforce mistrust and hatred of the West. The British 
Prime Minister recently stated:
        Look, we've got a problem even in our own Muslim communities in 
        Europe, who will half-buy into some of the propaganda that's 
        pushed at it--the purpose of America is to suppress Islam, 
        Britain has joined with America in the suppression of Islam. 
        And one of the things we've got to stop doing is stop 
        apologizing for our own positions. Muslims in America, as far 
        as I'm aware of, are free to worship; Muslims in Britain are 
        free to worship. We are plural societies. It's nonsense, the 
        propaganda is nonsense. And we're not going to defeat this 
        ideology until we in the West go out with sufficient confidence 
        in our own position and say, this is wrong. It's not just wrong 
        in its methods, it's wrong in its ideas, it's wrong in its 
        ideology, it's wrong in every single wretched reactionary thing 
        about it. And it will be a long struggle, I'm afraid. But 
        there's no alternative but to stay the course with it. And we 
        will.\137\
---------------------------------------------------------------------------
    \137\ ``President Bush and Prime Minister Blair of the United 
Kingdom Participate in Press Availability,'' The White House Office of 
Press Secretary, July 28, 2006, http://www.whitehouse.gov/news/
releases/2006/07/20060728-1.html (Accessed September 18, 2006).
---------------------------------------------------------------------------
    The U.S. government should seek out dialogue and cooperation with 
true Muslim moderates, who have neither supported terrorism nor 
justified their actions and who seek the integration of Muslims into 
the American family, rather than self-isolation. Lending legitimacy to 
extremist imams and organizations only reinforces to the American 
Muslim community that these groups do, in fact, speak for them. 
Additionally, law enforcement agencies should continue vigilantly 
monitoring known pockets of extremism in the United States and abroad, 
including the trafficking of Saudi religious materials--known for 
promoting both violent jihad and gross intolerance of Christians, Jews 
and the West--in U.S. mosques and Islamic schools.
    U.S. government programs and official engagement can provide only a 
limited amount of success. A greater effort on the part of the Muslim 
community must be undertaken to counter a growing trend that sees jihad 
as the new counterculture for a generation caught between two cultures 
that are often at odds. Circumstances demand that these efforts go 
beyond condemnations of terrorist attacks and conditional statements of 
support.

    Mr. Simmons. Thank you all very much for your testimony. It 
has been extremely interesting and informative.
    And we are joined by our ranking member, the distinguished 
gentlelady from California, who has been deeply engaged in 
another committee on some very serious work. And so, I would 
like to yield my time for questions to her, give her the 
opportunity to--
    Ms. Lofgren. Well, thank you. That is very gracious, Mr. 
Chairman.
    I do offer my apologies. The Judiciary Committee was 
marking up the tribunals bill, as well as the wiretapping bill, 
and naturally I had to become involved in that. So I offer my 
apologies.
    I have been able to read the testimony and be briefed on 
it. And, if I may, I would like to focus in on Mr. Woodward's 
testimony, because I think there are global issues and then 
there are some things that you can do right now that can help.
    And when the chairman and I, along with some of our other 
members, went up to Toronto this spring, we had a meeting with 
members of the Muslim community, talking about radicalization. 
And I remember very well, one of the individuals there, who was 
a professional person, describe his father being humiliated. 
And this gentleman had tears in his eyes, because his father, 
who was a very respected person in the Toronto community, came 
up on a name check. And he wasn't a terrorist; everyone knew 
that. But he missed his plane, and it was embarrassing. And we 
thought about that.
    And then, shortly after that, we went to the Toronto 
airport and watched the system in play. And the name check, 
would anybody named Mohammed Khan misses their plane, is what 
we were told. And, in fact, with frequent travelers, we are 
told that sometimes if they knew the person they would call 
ahead, because they knew this person wasn't a terrorist but 
they had to go through this same routine every single time for 
the same people over and over again. Even if it was a baby, 
even if it was a 100-year-old, there was no discretion.
    And in August, I spent a morning overseas at a consular 
office to see on the visa issuance side. And they complained 
about the same thing. And I will just tell one story, and then 
I would like Mr. Woodward to say how we might solve this.
    This consular official said, ``We say that we are not 
against Muslims, and I believe that is true. But if you look at 
how we act, it is easy to see how people could reach a 
different conclusion.''
    And he gave an example of a young man who was the son of a 
very prominent person in the country he was in who had been 
admitted to a very fine college in the United States, applied 
for the student visa, his name triggered the name check, but 
they knew that it wasn't this kid. It was in the newspapers, it 
was very embarrassing for the United States. It took 6 weeks to 
get the kid cleared. Finally, this kid was cleared, went off to 
college. He had to come and reapply for his student visa the 
next year. Same thing all over again. Because nothing is 
stored. It is all as if, every single time, it is brand-new.
    And it seems to me there ought to be some biometric way to 
solve this problem so that we stop people who should be stopped 
but that we don't keep spending time and effort on people who 
we have cleared. Because it has an impact not only on wasting 
our time, diverting us from who we ought to be focusing on, but 
it has a very negative impact on people who feel that they are 
being singled out for no good reason.
    Can you come up or give us some advice on a technology 
solution to that, Mr. Woodward?
    Mr. Woodward. I am happy to, ma'am. And realize, when a 
former intelligence officer gives an attorney technical 
advice--
    [Laughter.]
    Ms. Lofgren. We will love it.
    Mr. Woodward. I do it all the time.
    No, I think, basically, biometric technologies are a tool. 
They are only a tool. It is not the proverbial silver bullet. 
They are not perfect. However, I think they are a useful tool 
in this, what I call, the identity management part.
    And what I mean by that, to take your example of the visa 
applicant, someone applies for a visa to come to the United 
States, we want to establish that identity. Well, how do we 
establish that identity? Well, we ask them questions, we have 
them fill out an application. Part of that establishment of 
identity should be providing biometric data that we can then 
search against relevant databases to see if we can make any 
matches that would show links to behavior--for example, having 
a criminal record.
    There was actually a case of a foreigner applying for a 
visa in a foreign country where data was searched and matched 
to fingerprints indicating that that person had previously been 
a detainee in military custody in Iraq. Well, that wasn't 
disclosed on the visa application.
    Ms. Lofgren. Of course not.
    Mr. Woodward. We can use this biometric data search to 
establish the identity.
    Then once we do that, as best as we can judge, ``You 
qualify for a visa, we want you to go to the United States, we 
want you to enjoy your American experience,'' that is where we 
need to help the person. I guess you would call this the 
identity user.
    And one of the ways we can do that is to take the 
biometric, and you could pick your biometric du jour--I am not 
here to give you the technological solution, but a fingerprint, 
an iris, et cetera, et cetera--is there some way we can take 
that and associate it with that person by, for example, putting 
a template or representation of that data on the person's visa, 
a chip on a smart card, in the passport and so on?
    So when the person now comes to the port of entry, I am 
here as a foreigner with a valid visa, I want to enjoy America. 
He or she can establish that identity by doing a one-to-one: 
Here is my biometric sample. Here is the biometric template the 
U.S. government has confirmed by establishing my identity. Do 
they match? I think we make that person's life a little bit 
easier.
    Are we there yet? No. I think the concept is for the U.S. 
government to get there. But I am not certain we are moving as 
quickly as we should. Because I very much am sympathetic to the 
point you raised where, once people have done as good a job as 
they can at saying, ``I am a legitimate traveler,'' ``I am a 
legitimate visa seeker,'' and so on, we should try to make 
things a little bit easier for that person to be able to enjoy 
the American experience.
    Ms. Lofgren. I will say--and I see my time is up, and we 
will have votes sometime between 3:00 and 3:30--the line 
officers at the airport and in the consulate office are 
enormously frustrated, because they know they are wasting time. 
They know these individuals; they know who they are. But they 
are never allowed to connect identity with the name, so they 
keep doing--they are doing tasks that provide no value, while 
creating ill will--
    Mr. Woodward. And part of that, ma'am, just quickly, is we 
are still in a paradigm of doing name-based searches. Sometimes 
we use a number, Social Security number, et cetera. That 
paradigm shift will come when we recognize the biometric as a 
way to get at unique identity, and we can do more searching 
that way. That I think would help visa officers, help 
inspectors at the point of entry. It would certainly help the 
United States military operating in places like Iraq.
    Ms. Lofgren. I don't want to abuse my time, but--
    Mr. Simmons. Please, take your time.
    Ms. Lofgren. --the chairman suggested maybe other witnesses 
might comment on this.
    Mr. Simmons. Hearing none, I have a question I want to ask.
    Dr. Phares, you made the interesting comment, I believe, 
that we have to identify the beginning of the process. We have 
to be able to figure out when the click is taking place, if you 
will.
    And then several of you concluded your testimony by making 
reference to engaging in a dialogue with Muslim organizations.
    I am a believer, given my background and my experience--I 
lived in the Far East for 7 years. I speak Chinese, and I used 
to speak some Vietnamese. I always felt that my experience in a 
foreign country was not worth much if I couldn't talk the 
language, live in the community, eat the food, and fully and 
completely engage, to the extent possible as an American, in 
the social, political and economic life of the community. And 
the reward to me was understanding another culture.
    I wonder, somehow, if we have taken full advantage of those 
opportunities here in the United States, in reaching out to the 
Muslim community and better integrating our political 
activities with them, social and economic activities. And that 
is the first part of my question.
    Then the second question is, there is a lot of talk about 
the Internet, which is very interesting to me. We invented the 
Internet. It was our brainchild, if you will. It is a fantastic 
tool for communication. But isn't it ironic that this fantastic 
tool for communication has been taken over by a group that 
essentially wants to destroy the very culture that came up with 
this fantastic tool? And why can't we use the same tool to push 
back, to promote our point of view? Why is that not the case?
    And then finally, is the U.S. media helping or hurting in 
this process? That is a tough one.
    [Laughter.]
    You may not want to answer that one. But these are the 
three points I would like to draw out a little bit.
    Don't be shy.
    Mr. Phares. Yes. Quickly, couple points here, with regard 
to the actual title of the initial inquiry about 
radicalization, and then I will tie this in to your important 
question.
    There is a thesis in Washington and many capitals that are 
dealing with terrorism that, originally, there is frustration 
in communities; that is how it starts. Then there is a 
radicalization because of this frustration. Nobody explains how 
the radicalization occurs out of the frustration, though, and 
that is an important academic question. And immediately, it 
becomes terrorism.
    A young man or a young woman who are frustrated with the 
U.S. sending qualitative bombs to Israel overnight becomes a 
terrorist jihadi is the thesis. Or, in England, some of the 
members of the Muslim community are not getting the exact 
rights that other communities, not necessarily the Anglos but 
Hindus or East Europeans. Therefore, the next day they become 
terrorists.
    I argue with this theory.
    I do state that, at the beginning, the big bang is 
jihadism. There is an ideology that comes first. A, either it 
creates a frustration by explaining to the community, or to the 
weakest members of the community--here comes the psychological 
investigation, what have you--but before the psychological 
investigation, there is an investigation of what initiate that 
frustration and transformed it into terrorism. Or, what I call, 
hijacking frustration.
    Frustration exists. But then comes that radical cleric or 
that ideologue or that cadre online, not online, in the 
classroom, in the mosque, anywhere, and then explains this 
frustration, that it is an attack against Islam, for example.
    But more important than that, it explains to those 
individuals that you are here on a mission. It aggrandizes the 
personality of that person.
    And here comes the last stage, which is, in order for you 
to help the whole community, imagined community--in French, 
communite imaginaire--then you have to perform that martyrdom, 
so on and so forth.
    So, from that perspective, I would conclude that most of 
our energies--and we have no other alternative for now--most of 
our energies are put on the last 10 percent of the process. 
From the where the individual wants to do terrorism on, we have 
90 percent of our energies on the last 10 percent of the making 
of a jihadist.
    Where the jihadist has been made is the click that 
convinced him or her that, ``I have to do it.'' And that is 
where I have moved to request to identify the ideology.
    Let me show you an object here, Mr. Chairman. This bloated 
in the mind of an individual. This is an audiotape. This is one 
of the 105 audiotapes which were released at the case of 
terrorism in Detroit in 2003, which I have reviewed--105 
audiotapes. This is the weapon of mass radicalization.
    That is an example of individuals who basically were not 
jihadists and, because of this material and literature and what 
came with them, become jihadists. The rest is only a process of 
indoctrination into doing that terrorist activity.
    Internet, quickly, jihadism is using Internet, but what is 
not happening is that the counterjihadist forces--democracy 
groups, human rights groups--are not using Internet enough. 
They are sampling, though. I mean, in the Middle East, there 
are Web sites that are very recent that are beginning to 
counter the jihadists. And their consequences, their effects 
are very interesting. What we need to do is let the American 
public, American Congress understand that there are 
alternatives to the Internet use of jihadism.
    Mr. Cilluffo. Mr. Chairman, I found your questions 
excellent and right on the mark.
    In terms of working with the Muslim community, I think we 
have an awful lot more we need to be doing. Not just the 
Muslim-American community, but the Arab-American community. And 
we need to expand that beyond the United States. Hopefully we 
can learn some lessons that others have learned the hard way 
and have the scar tissue for it, that we can inoculate 
ourselves before it becomes a crisis.
    I think one of the challenges is, if we look at it through 
a counterterrorism lens alone, it is going to create a 
defensive posture automatically. So we need to actually look at 
the radicalization questions in a broader tapestry and try to 
isolate and marginalize those individuals, which, to some 
extent, does get to the role of the Internet, as well.
    The United States wouldn't have much credibility to the 
people we are trying to touch if we use the Internet. What we 
actually need to be able to do is give the silent majority the 
voice to speak up and deal with the--to some extent, give them 
the tools to better help themselves.
    Just think about what took down the Sicilian Mafia. It was 
not the fact that the carabinieri was so successful. It was the 
fact that they finally killed a judge, Falcone, who was very 
popular with the people, that they lost the hearts and the 
minds and the trust and the confidence of the people.
    And we need to be looking to that, if there is a Martin 
Luther King, to some extent, that we need, in terms of that 
moderate voice, or whether we need a Gandhi, or whether we need 
someone who has credibility with the people. That can't 
necessarily be done from the United States.
    But let me also jump on one other thing from the Internet. 
One of the things that is most unique that we have seen vis-a-
vis these virtual ummas and the Internet chat rooms and relay 
sessions and the like is that people actually bond closer on 
the Internet than they do person-to-person, which is so ironic.
    They don't know who they are talking to. The anonymity is a 
potential tool that we should be using more from a law 
enforcement, from a tactical standpoint. Just like we don't 
know who is behind the clickety-clack of the keyboard, they 
shouldn't either. So I do think that that is a tool we need to 
be looking at much more closely.
    I also think one of the most concerning trends is, that 
reaffirms avarine attitudes. It gives them a sense of uniting, 
and these bonds get stronger and stronger, and they basically 
get bolder and bolder, and it empowers one another. It unites 
them. It is kind of interesting.
    We have seen it, you mentioned, with juvenile predators and 
sexual predators. It could be six people, but if they have the 
same view they get stronger and stronger and bolder and bolder, 
and then they start acting on those ideas. That is the point--
where do you go from the virtual, where they meet in an 
Internet relay chat room, to then go to do jihad, to actually 
operationalize it? That is where I think we have some points we 
need to think about more.
    Mr. Simmons. And actually, your point is absolutely 
correct. In our work with police organizations in Connecticut 
and elsewhere, tracking the chat rooms that attract the 
Internet predators, they do reinforce each other. And there was 
a time when that predator was a guy in a trenchcoat or standing 
at a bus stop or at a community center, waiting for the kids to 
come around.
    Today, it can be highly educated, sophisticated, middle-
class, white-collar folks who are using the technology and 
reinforcing each other. And, in some respects, that is the 
bingo, too, for reasonable well-to-do, second-generation 
Muslims who hear the click.
    Mr. Emerson?
    Mr. Emerson. Yes, I think you raised an excellent question, 
and it is a very sensitive one, but we have to answer it 
honestly, which is, what type of Islam do we want to legitimize 
in the United States? Which type of group do we want to 
legitimize?
    Dialogue has the purpose of trying to foster some 
commonality in a higher degree. Unfortunately, we have 
witnessed, in my organization, U.S. government sanctioning and 
legitimizing certain groups that are tethered to Hamas, Islamic 
Jihad, or other radical Islamic organizations. And, 
unfortunately, that reinforces their legitimacy in front of the 
larger Islamic community.
    What we would like to see, really, is to seek out 
legitimate, authentic, genuine moderates, leaders and 
organizations, that will dispel the community of any notion 
that there is a war against Islam. Because, to the extent that 
these groups reinforce that their rights are being denied, that 
there is a war against Islam, it only reinforces their notion 
that the United States is an enemy, providing susceptibility 
ultimately to a terrorist plot.
    Mr. Simmons. I think that is a really good point. I come 
from New England, as you know. We used to burn witches in New 
England.
    [Laughter.]
    Yes, yes, we would burn them. We would put them in dunking 
stools, you know, the dunking stools, because we did that, 
there were witches out there, and it was a witch hunt. And I 
think that it is incredibly important that we not fall into the 
trap of a witch hunt here in the United States.
    Following 9/11, I immediately called friends in my Muslim 
community and said, ``If you encounter any adverse commentary, 
yourselves in your professional life, your wives in the 
community, your children at school, call my office.'' We had 
two incidents; we put an end to it.
    A week ago, the Islamic center in New London got 
threatening phone calls. We immediately got the FBI in to 
investigate.
    I think it is incredibly important that we ensure that the 
Muslim community knows that they are part of the American 
community and that it is really a small sliver of folks who, 
for whatever reason, are hearing the click and are thinking of 
doing damage. And that we need their help in identifying the 
click. They might hear the click before we do. And that is the 
challenge. That is the huge challenge.
    So I thank you all for your testimony and for beginning the 
process of trying to figure this out. And I suspect, at some 
future hearing, we will get a little more deeply into how we 
can shape and form our public policy to appropriately address 
this.
    And I think the biometric issue is very, very important. 
Because the Muslim community that we met in Toronto was 
unanimous in expressing their concern about small insults on an 
almost daily basis. One of them married to an American whose 
family lived in Maine, and they would visit the family once a 
month in Maine, and once a month on the way to Maine he would 
have to sit for 4 hours. And this went on year after year. It 
was absurd. And so, there has to be, I think, a way also of 
bringing technology into the equation.
    The word ``preliminary'' was used an hour or so ago. I 
think that we have made a good step in the right direction.
    I thank you all for your inputs. And if you have additional 
material to submit for the record of the hearing, please be my 
guest. Thank you all very much.
    Without objection, we are now adjourned.
    [Whereupon, at 3:21 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
